<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2019 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-674, Part 4]
[From the U.S. Government Publishing Office]





                                                 S. Hrg. 115-674, Pt. 4
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2987

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2019 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                       FEBRUARY 7; APRIL 18, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         


                  Available via http://www.govinfo.gov
                  
                  
                  
                  
                  
                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 40-416 PDF           WASHINGTON : 2020                   
                  
                  


                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman       JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma              BILL NELSON, Florida
ROGER F. WICKER, Mississippi           CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                  JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                   KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota              RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                       JOE DONNELLY, Indiana
THOM TILLIS, North Carolina            MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                   TIM KAINE, Virginia
DAVID PERDUE, Georgia                  ANGUS S. KING, JR., Maine
TED CRUZ, Texas                        MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina         ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                    GARY C. PETERS, Michigan
TIM SCOTT, South Carolina            
                                     
         
                                     
                                     
               Christian D. Brose, Staff Director
           Elizabeth L. King, Minority Staff Director
                                                  


                        Subcommittee on Airland

  TOM COTTON, Arkansas, Chairman     ANGUS S. KING, JR., Maine
JAMES M. INHOFE, Oklahoma            CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi         RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina          JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska                 ELIZABETH WARREN, Massachusetts
TED CRUZ, Texas                      GARY C. PETERS, Michigan
BEN SASSE, Nebraska                  
                                     
                                     
                                     
                               (ii)
                                     

                                  

  


                         C O N T E N T S

                          February 7, 2018

                                                                   Page

Army Modernization...............................................     1

Andererson, Lieutenant General Joseph, Deputy Chief of Staff, G-      4
  3/5/7, United States Army.
Murray, Lieutenant General John M. Deputy Chief of Staff, G-8,        5
  United States Army.
Ostrowski, Lieutenant General Paul A., Principal Military Deputy      6
  to The Assistant Secretary of The Army (Acquisition, Logistics, 
  and Technology) and Director of The Army Acquisition Corps.
Dyess, Major General Robert M. Jr., Acting Director, Army             7
  Capabilities Integration Center.

Questions for the Record.........................................    39

                             April 18, 2018

                                                                   Page

Air Force Modernization..........................................    47

Bunch, Lieutenant General Arnold W., Jr., USAF, Military Deputy,     49
  Office of the Assistant Secretary of the Air Force for 
  Acquisition; accompanied by Lieutenant General Jerry D. Harris, 
  Jr., USAF, Deputy Chief of Staff for Strategic Plans and 
  Requirements, Headquarters United States Air Force; and Major 
  General Brian S. Robinson, USAF, Assistant Deputy Chief of 
  Staff, Operations, Headquarters United States Air Force.

Questions for the Record.........................................    80

                                 (iii)



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                      WEDNESDAY, FEBRUARY 7, 2018

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                           ARMY MODERNIZATION

    The subcommittee met, pursuant to notice, at 3:35 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Tom Cotton 
(chairman of the subcommittee) presiding.
    Subcommittee Members present: Senators Cotton, Wicker, 
Sullivan, Sasse, King, McCaskill, Donnelly, Warren, and Peters.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. The hearing will come to order.
    Good afternoon, everyone. This is the first hearing of the 
year. Today, we will be talking about Army modernization. It is 
an important topic in its own right. We always want to make 
sure our men and women in uniform have the best arms and 
equipment on the battlefield, but it is also an opportunity to 
think about the long-term because we cannot arm ourselves 
against the threats of the 21st Century until we are clear 
about what those threats are.
    I want to say the National Security Strategy and National 
Defense Strategy got it just about right. We are in an era of 
renewed great-power competition, which means Russia and China 
are the gravest threats we face today.
    Now, is Islamic terrorism still a threat? Yes, of course. 
The development of Iran and North Korea's nuclear programs, are 
those deeply alarming? Yes, they are. But China and Russia are 
building advanced new weapons systems to rival our own 
capabilities, and in some cases, we are already falling behind 
those countries, and it would be much worse were they to ally 
against us.
    Two years ago, Lieutenant General H.R. McMaster told this 
committee the Army was already outranged and outgunned, so just 
imagine what has happened in the last 2 years. I am glad to see 
the Army has made progress on some of these challenges.
    Since last October, Army leadership, especially Deputy 
Secretary McCarthy, have taken great strides in improving our 
acquisition policy. They have announced a modernization 
command. They have created several cross-functional teams to 
manage key programs. This is all very good. I know the 
committee would very much like to hear more about the status of 
some of these programs, in particular, long-range fires, 
integrated mobile air defense, next-generation ground combat 
vehicles, the future of vertical lift, mobile communication 
networks, the Distributed Common Ground System-Army, active 
protection systems, and alternative force designs. Now, we 
certainly want to hear about programmatic timelines. We are 
especially interested in figuring out how we can get these 
capabilities into the hands of our soldiers.
    The National Defense Authorization Act asked the Army to 
come up with a strategy for modernization, so we want to know, 
what is that strategy? What do you think the battlefield of 
tomorrow looks like? What does mobile combined arms maneuver 
look like in 10 years? How can we integrate the Army within the 
joint force battle space?
    To help answer these and other questions, we are joined 
today by a panel of distinguished general officers, Lieutenant 
General Joe Anderson, the deputy chief of staff, G-3/5/7; 
Lieutenant General John Murray, deputy chief of staff, G-8; 
Lieutenant General Paul Ostrowski, the principal military 
deputy to the assistant secretary of the Army for acquisition, 
logistics, and technology, and the director of Army Acquisition 
Corps; and Major General Robert Dyess, acting director of the 
Army Capabilities Integration Center.
    Gentlemen, thank you all for being here. We look forward to 
your testimony.
    Senator King?

            STATEMENT OF SENATOR ANGUS S. KING, JR.

    Senator King. Mr. Chairman, thank you for holding today's 
important hearing. I would also like to welcome our witnesses. 
I look forward to your testimony and deeply appreciate your 
service to our country.
    Last month, as the chairman noted, Secretary Mattis 
released the National Defense Strategy that focused on the 
reemergence of long-term strategic competition, a major change 
in our strategy, the central challenge now facing the United 
States. To that end, countering the threat that is posed by 
China and Russia is now the primary focus for the Department, 
and this threat is substantially different in many, many ways 
from the counterterrorism fight that our military has been 
engaged in for the past 16 years.
    With the refocus on great-power competition, we have to 
ensure that our soldiers are trained and equipped for conflict 
across the full spectrum of operations. As such, today's 
subcommittee hearing on Army modernization is timely and 
necessary.
    I want to say from the outset that I want to commend the 
senior leadership of the Army for the recent efforts to ensure 
that the Army delivers new technology and platforms to the 
force in a more effective and timely manner. Under the 
leadership of Secretary Esper, Secretary McCarthy, General 
Milley, and General McConnell, the Army is pursuing a new 
modernization strategy focused on six major modernization 
priorities that the chairman mentioned, long-range precision 
fire, next-generation combat vehicles, future vertical lift, 
upgraded mobile communications network, enhanced air and 
missile defense capabilities, and improved soldier lethality.
    To support this effort, the Army has established cross-
functional teams designed to break down acquisition stovepipes 
and expeditiously field new weapons systems expeditiously. I 
emphasize that term. While effective modernization strategies 
are always critical to the success of our soldiers, the current 
effort by the Army is vitally important in supporting the new 
National Defense Strategy.
    If U.S. Forces become engaged in a future fight with a peer 
adversary, it is likely they will face serious anti-access/
area-denial threats, advanced weapons technology, as well as 
hybrid warfare tactics. As this committee continues to review 
our National Defense Strategy and begins evaluating the fiscal 
year 2019 budget request in the coming weeks, I hope our 
witnesses today will address what modernization investments 
they believe are necessary to ensure the Army prevails against 
our most capable adversaries.
    Fielding new weapons platforms and upgrading existing 
systems, however, while critical to our national security, is 
not the only way to deter our adversaries. We must always also 
acknowledge that our competitors are capable of causing great 
harm to our country without directly engaging our forces in 
combat. For example, Russia interfered in our most recent 
presidential election, and continues to try to influence our 
domestic politics, while at the same time it redraws boundaries 
in Eastern Europe, destabilizes its neighbors, and undermines 
democratic values. Therefore, as the Army pursues its 
modernization strategy, I want to know from our witnesses if 
the Army is considering different operational concepts about 
warfare in the future given the new emphasis on great-power 
competition.
    In addition, resources are not unlimited. The Army has to 
prioritize investments and make tough allocation choices. Due 
to the spending caps driven by the Budget Control Act and the 
lack of predictability provided by 2-year budget deals, which 
we devoutly hope we will have in the next 24 hours, the Army 
has focused on rebuilding full-spectrum readiness and 
maintaining end-strength levels. I welcome any comments from 
our witnesses on how the Army plans to balance restoring 
readiness while ensuring our soldiers have the capabilities 
necessary to fight future battles against advanced adversaries.
    Finally, expanding the competitive space against our 
adversaries cannot be accomplished solely by the Department of 
Defense. The National Defense Strategy is explicit on this 
point, stating that it requires the combined actions of the 
U.S. interagency to employ all dimensions of national power. 
Therefore, as this committee considers the fiscal year 2019 
budget request for defense, we must remember that increased 
defense spending should be complemented by increased spending 
in other core elements of national power. We need an effective 
Department of State, Central Intelligence Agency, Department of 
Homeland Security, Department of Justice, and other agencies 
that can ensure our strategy is capable of countering our 
adversaries and accomplishing our national objectives.
    Thank you, Mr. Chairman, for calling this hearing. I look 
forward to hearing from our witnesses.
    Senator Cotton. Thank you, Senator King.
    Gentlemen, we have received your written statement. We will 
enter that into the record. I understand now that you each have 
a brief testimony as well. We will start with Lieutenant 
General Anderson and move down the row.

 STATEMENT OF LIEUTENANT GENERAL JOSEPH ANDERSON, USA, DEPUTY 
          CHIEF OF STAFF, G-3/5/7, UNITED STATES ARMY

    Lieutenant General Anderson. Thanks, Chairman Cotton, 
Ranking Member King, and distinguished Members of this 
committee. Thanks for the opportunity to testify on the state 
of the U.S. Army. I appreciate your support and demonstrated 
commitment to our Army and look forward to discussing with you 
the ongoing need to invest in Army modernization and its 
critical relationship to building and maintaining readiness.
    My experience has allowed me to witness significant lasting 
detrimental effects to Army readiness and modernization caused 
by the Budget Control Act and continuing resolutions. The 
abrupt implementation of fiscal year 2013 sequestration 
significantly impacted every aspect of our Army. Sequestration 
compelled the Army to take drastic measures in training and 
readiness and delayed modernization. Continuing resolutions 
compound resourcing solutions and greatly affect the Army's 
ability to generate readiness and execute our modernization 
strategy.
    Last year, I discussed that our competitors were studding 
our doctrine, making revisions to their own, and rapidly 
modernizing their militaries, all of which threaten America's 
interests. Today, the United States Army remains second to 
none, but while we have been building short-term readiness to 
remain engaged in counterterrorism and stability operations, 
our adversaries have made significant gains, which means that 
overmatched concerns persist, as you both just mentioned. We 
now face the prospect of fighting threats in complex anti-
access/area-denial environments. The forces our adversaries are 
building often rival and in a few instances surpass our current 
capabilities.
    Failure to modernize will undoubtedly intensify the 
significant risk to our Army. Modernized force structure and 
operating concepts are critical to the Army's ability to employ 
equipment effectively to meet our nation's threats. This will 
ensure a trained and ready Army that has capable capacity to 
meet current and future challenges and prevail against the full 
range of military operations. Modernization ensures the 
readiness of the total force on future battlefields and the 
conflicts against near-peer adversaries.
    The Army invested additional end strength authorized by the 
fiscal year 2017 NDAA to increase personnel levels for 
deploying units. We also added a small number of units to fill 
capability gaps to help meet combatant commanders' operational 
and contingency demands. We are piloting new operating concepts 
such as multi-domain battle and cyber force teams that will 
make our combat formations more capable on the modern 
battlefield. The Army will continue to apply additional end 
strength if authorized in fiscal year 2018 to readiness and 
critical shortfalls like security force assistance, air 
defense, long-range fires, and additional cyber capabilities.
    Readiness remains our number-one priority, but 
modernization is a priority as well. Operating under continuing 
resolutions and the looming pressures of sequestration affects 
readiness, increases risk, and creates delays in getting 
American soldiers the weapons and tools they need to fight and 
win our nation's wars. Stable and predictable long-term funding 
is necessary if the Army is to continue to build and sustain 
current readiness while shaping the future force.
    We thank you for the unwavering support of our outstanding 
civilians and the men and women in uniform and the families who 
support them. I look forward to answering your questions. Thank 
you.
    Senator Cotton. General Murray?

  STATEMENT OF LIEUTENANT GENERAL JOHN M. MURRAY, USA, DEPUTY 
            CHIEF OF STAFF, G-8, UNITED STATES ARMY

    Lieutenant General Murray. Chairman Cotton, Ranking Member 
King, and distinguished Members of the Subcommittee on Airland. 
On behalf of the Army Secretary, the Honorable Mark Esper and 
our Chief of Staff General Mark Milley, we all very much look 
forward to discussing Army modernization with you today and 
addressing some of the issues you raised in your opening 
statements.
    The Army has reached an inflection point, and it is the 
same thing I told you last year, that we can no longer afford 
to choose between near-term readiness and modernization. 
Specific to modernization, we can no longer afford to choose 
between incremental upgrades to existing equipment and 
developing new capabilities. We have definitely reached a point 
where we have got to be able to do both. The Army's focus on 
the demands of ongoing campaigns combined with constrained 
resources and an industrial-age organizational model have 
slowed, deferred, and in some cases halted the development of 
new capabilities.
    Meanwhile, as General Anderson mentioned, our adversaries 
have or are quickly attaining a competitive advantage. We 
believe that the President's commitment to restoring the 
military will be clearly evident in the budget request, 
especially in regards to Army readiness and modernization. If 
appropriated, we believe it will be a very good start towards 
reversing the historical and significant shortfalls in 
modernization funding. However, one year will not by itself 
reverse the trend. We must have sustained, predictable, and 
adequate funding over the long term to allow us to develop an 
effective plan to reduce current and future risk, while making 
the most effective use of the valuable resources entrusted to 
us.
    In fiscal year 2019, we plan to selectively upgrade the 
equipment that is critical to near-term readiness, focus our 
science and technology and research development test and 
evaluation funding on the six Army modernization priorities you 
mentioned, and begin the development of the equipment we will 
need to regain and sustain overmatch against a peer threat. The 
American people expect their Army to win, and meeting this 
expectation requires that the Army regain and maintain 
overmatch against any peer threat.
    We urge Congress to provide fiscal stability at a 
sufficient level so that we can maintain our current 
warfighting readiness, while simultaneously building a more 
modern and capable force for the future. I would like to thank 
you and the entire committee for your unwavering support of the 
men and women of the United States Army, our Army civilians, 
and our families. Thank you, and I look forward to your 
questions.
    Senator Cotton. General Ostrowski?

    STATEMENT OF LIEUTENANT GENERAL PAUL A. OSTROWSKI, USA, 
  PRINCIPAL MILITARY DEPUTY TO THE ASSISTANT SECRETARY OF THE 
 ARMY (ACQUISITION, LOGISTICS, AND TECHNOLOGY) AND DIRECTOR OF 
                   THE ARMY ACQUISITION CORPS

    Lieutenant General Ostrowski. Chairman Cotton, Ranking 
Member King, and distinguish Members of the Subcommittee on 
Airland, thank you for the invitation to meet with you and 
discuss our re-modernization. I want to applaud this 
subcommittee and the committee as a whole for your focus over 
the past several years on acquisition reform. Your direction 
and support have made a substantial difference for the Army. 
Some of the great examples include enabling the use of other 
transactional authority, raising the acquisition simplified 
threshold from $150,000 to $250,000, pushing major defense 
acquisition programs down to the services, starting to get 
after the Competition in Contracting Act, or CICA reform, just 
to name a few.
    Still, more must be done. For example, the simplified 
acquisition threshold should be raised to $500,000, providing 
even greater streamlining and allowing us to keep pace with 
threat.
    With regard to mid-tier acquisition for rapid prototyping 
and fielding addressed in section 804 of the fiscal year 2016 
NDAA, we are hampered by the requirement to complete fielding 
within 5 years as opposed to achieving initial operational 
capability within 2 or 3 years, which is more consistent with 
our multiyear resourcing process. We ask that you consider 
modifying this language.
    Section 807 in the fiscal year 2017 NDAA must be modified 
or repealed. Although major acquisition programs have been 
delegated to the services, section 807 still requires the 
Deputy Secretary of Defense approval for establishing program 
targets for these programs, which is contrary to streamlining 
the process. It adds back layers of bureaucracy.
    CICA reform could go much further than the pilot 
established in the fiscal year 2018 NDAA. Hundreds of millions 
of dollars are wasted due to lost time and effort each year, 
while the number of successful protests against DOD remains 
exceedingly low. Penalties leveled should make industry think 
twice about whether to protest when they know the chance of 
winning is small to nonexistent. Penalties should be scaled to 
the contract value, thereby not disadvantaging small businesses 
from putting forward a legitimate protest when warranted. 
Further, we need to eliminate the automatic stay as a protest 
is resolved. In almost all circumstances, GAO [Government 
Accountability Office] bid protests result in a stay in 
performance, thereby impacting mission and delaying new 
contracts by many months.
    Last, one of the most essential needs of the Army right now 
is C.R. reform. We have seen no movement on the fiscal year 
2018 appropriations bill since November of 2017 when the Army 
received the last of subcommittee marks, which was the SAC-D. 
Right now, as a result of the prolonged C.R. for the fiscal 
year 2018, DOD is not allowed to begin new start efforts until 
a budget is passed while simultaneously not being able to 
procure quantities greater than the prior year's purchase 
without an approved anomaly. This double jeopardy is placing 16 
new start efforts on hold and 10 production rate increases are 
being capped at their fiscal year 2017 rates, thereby thwarting 
the Army's ability to take advantage of quantity discounts, as 
well as economic-order quantities.
    So how do we fix this? The answer might be quite simple. 
Allowing the services to execute at the lowest mark of the four 
committees during C.R.'s until a budget is passed. If this was 
in place today, we could have been moving forward with our 
budget in 2007 after the SAC-D mark in November.
    Mr. Chairman and distinguished Members of the subcommittee, 
thank you for your steadfast and strong support of the 
outstanding men and women of the United States Army, our Army 
civilians, and their families.
    This concludes my opening remarks, Mr. Chairman. I look 
forward to your questions.
    Senator Cotton. General Dyess.

 STATEMENT OF MAJOR GENERAL ROBERT M. DYESS, JR., USA, ACTING 
         DIRECTOR, ARMY CAPABILITIES INTEGRATION CENTER

    Major General Dyess. Chairman Cotton, Ranking Member King, 
distinguished Members of the subcommittee, thank you for the 
opportunity to speak with you today about the enduring need for 
Army modernization.
    Our National Security Strategy states that we face 
simultaneous threats from different actors across multiple 
arenas, all accelerated by technology, and that the United 
States must develop new concepts and capabilities to protect 
our homeland, advance our prosperity, and preserve peace. The 
National Security Strategy also directs the Department of 
Defense to develop new operational concepts and capabilities to 
win without assured dominance in air, maritime, land, space, 
and cyberspace domains, including against those operating below 
the level of conventional military conflict. Operational 
concepts are important because they drive capability 
development and provide a basis for modernization necessary to 
overcome the challenges of a future conflict.
    The National Defense Strategy emphasizes that concepts 
provide us the ability to anticipate the implications of new 
technologies on the battlefield, rigorously define the military 
problems anticipated in future conflict, and foster a culture 
of experimentation and calculated risk-taking. We have 
developed operational concepts to sharpen our competitive 
advantages, enhance our lethality, and shape our modernization 
strategy. The National Defense Strategy also reminds us that 
modernization is not just defined solely by hardware; it 
requires change in the ways we organize and employ forces.
    Over the past year, the Army and the United States Marine 
Corps have developed the first iteration of the multi-domain 
battle concept, and now, in support of the National Security 
Strategy and the National Defense Strategy, the Army, in 
coordination with the Marine Corps, the Air Force, and Special 
Operations Command, we will develop the multi-domain battle 
concept in the next iteration. We want to address how the 
environment and adversaries of change, how adversaries 
systematically intend to accomplish their strategic ends, the 
specific problems adversaries pose to the joint force and 
partners, and systemic ways to compete with and, when 
necessary, defeat those adversaries.
    The multi-domain battle concept builds on current service 
and joint doctrine. It aids the evolution of current doctrine 
to include not only those capabilities of the physical domains 
but also those of space, cyberspace, the electromagnetic 
spectrum, the information environment, and the cognitive 
dimension of warfare. It provides recommendations for 
capabilities, those that commanders might require to defeat an 
advanced enemy, and proposes a new framework for understanding 
the expansion of the 21st Century battle space. The multi-
domain battle operational framework accounts for extended 
ranges and complex relationships, which accounts for all 
friendly and enemy capabilities across all domains and levels 
of command from tactical to strategic.
    Based on our assessment of the projected operational 
environment, we have identified five first-order problems to 
U.S. Forces that must be addressed as we mature the multi-
domain battle concept, which I will address in Q&A if you want 
to go there. We need a joint force that can credibly deter 
adversary aggression, defeat actions short of our conflict, 
deny the enemy freedom of action, overcome enemy defenses, 
control terrain, compel outcomes, and consolidate gains for 
sustainable results.
    On a personal note, in a couple of months I am going to be 
retiring after 36 years of service, and I would like to thank 
the Members of the committee for taking care of our soldiers, 
sailors, airmen, and marines. I would also request a final push 
on the budget to provide for the common defense for our great 
nation.
    Thank you for your continued support. I look forward to 
your questions.
    [The joint prepared statement of Lieutenant General 
Anderson, Lieutenant General Murray, Lieutenant General 
Ostrowski, and Major General Dyess follows:]

    Joint Prepared Statement by Lieutenant General John M. Murray, 
    Lieutenant General Joseph Anderson, Lieutenant General Paul A. 
           Ostrowski, and Major General Robert M. Dyess, Jr.
                              introduction
    Chairman Cotton, Ranking Member King, distinguished Members of the 
Senate Subcommittee on Airland, thank you for your continued support 
and demonstrated commitment to our soldiers, Army civilians, families, 
and veterans. On behalf of our Army Secretary, the Honorable Mark 
Esper, and our Chief of Staff, General Mark Milley, we thank you for 
the opportunity to appear before you today. We look forward to 
discussing Army Modernization with you.
    Modernization is critical to the future of our Army. For the last 
several decades, the U.S. Army possessed overmatch based on its 
qualitative edge in capabilities. It enabled our Army to defeat enemy 
formations, underpin credible deterrence, and serve as a critical 
pillar of Joint Force capabilities in all domains--air, land, maritime, 
space, cyberspace, and the electromagnetic spectrum. Now, a combination 
of strategic, technological, institutional, and budgetary trends places 
at risk the Army's competitive edge over peer adversaries in the next 
fight.
    The Army has reached an inflection point: we can no longer afford 
to choose between improving our existing systems and developing new 
ones. We must do both. The American people expect their Army to win, 
and meeting this expectation requires the Army to maintain overmatch 
against emerging threats and adversaries. While we continue to work 
hard to improve our readiness, we now need to expand our focus on a 
dedicated and robust modernization effort. As you know one of the most 
critical elements in achieving this objective is sufficient resources. 
We believe that when you see the Fiscal Year 2019 Budget Request, it 
will be clear that the President is committed to restoring the 
military, especially in the case of equipment modernization.
    Building on the Fiscal Year 2018 President's Budget, we believe 
this budget will continue to reverse the downward trend that has 
stifled Army modernization and serve as an important step towards 
expanding and maintaining overmatch. We will seek to employ these funds 
in the most efficient and effective manner by turning ideas into 
actions through continuous experimentation and prototyping, reforming 
our acquisition processes, leveraging technology, and improving 
training. This will ensure that future generations of American soldiers 
remain the most lethal fighting force in the world.
                       the strategic environment
    The U.S. Army, as part of the integrated Joint Force and working 
with a capable network of partners and allies will continue to provide 
combat-credible land forces to protect the homeland, deter our 
adversaries, and if called upon, decisively win our Nation's wars. 
Today's national security environment is typified by the reemergence of 
long-term strategic competition with revisionist powers who use their 
position within the international order to revise international norms 
in their favor. The United States is being challenged to maintain 
dominance across domains, and both state and non-state actors are 
increasingly capable of threatening the U.S. Homeland. Rapid 
technological advancements put military and other disruptive 
technologies in the hands of both state and non-state actors.
    China's expansive territorial claims as well as its investment in 
multi-layer Anti-Access/Aerial Defense systems strains international 
relations in the South China Sea. Additionally, China's economic 
resources and the government's ability to direct investments positions 
them to make rapid technological advancements especially in advanced 
computing, artificial intelligence, robotics, and ``big data.'' The 
disruptive nature of these fields will continue to challenge the U.S. 
military across all domains well into the future. To assist with 
mitigating these risks, the U.S. Army will strengthen its ties with 
regional allies and partners to maintain the international order, 
protect access to the global commons, and preserve regional stability.
    Russia is also seeking to undermine European and Middle Eastern 
security and economic structures through conflicts below-the-threshold 
of war. Russia is using information operations and commercial 
technology to weaken democratic processes across the western world. 
Russia's military modernization efforts, expanding nuclear arsenal, and 
increased operations in the Middle East typify its high disruption 
approach to reshaping the international order. To help alleviate these 
risks, the Army will maintain its forward presence in Europe and the 
Middle East and continue to build interoperability with allies and 
partners to demonstrate its commitment to countering Russian 
aggression.
    Rogue regimes such as North Korea and Iran continue to pursue 
destabilizing tactics and technologies to ensure regime survival and 
increase their own power. North Korea continues to pursue ballistic 
missiles, weapons of mass destruction, and cyber weapons to threaten 
the United States Homeland. Iran is using both conventional missiles 
and state-sponsored terrorism to destabilize the Middle East and 
increase its regional influence. Forward presence and strong 
partnerships are important components of the U.S. Army's ability to 
deter and counter these threats. As part of the Joint Force, the Army 
will be prepared to respond to either aggression or weapons 
proliferation by these rogue regimes.
    Commercially accessible rapid technological advancements provide 
terrorists and other non-state actors with more sophisticated tools 
with which to advance their political, criminal, or other disruptive 
objectives. The rapid proliferation of low-cost new technologies 
increases the capabilities of these malicious actors. The U.S. Army 
will work as part of multinational, interagency, and public-private 
coalitions to detect and counter these threats. We will seek out 
capable partners and support their efforts to address the underlying 
structural, economic, and security challenges that allow these threats 
to persist. While the mitigation actions described above are necessary 
to address present and future threats, they are only part of the 
solution. In this era of increased complexity, lethality, and 
competition the U.S. Army will carefully assess the threats we face and 
make prudent investments in readiness and modernization to meet our 
national security responsibilities.
                      the urgency of modernization
    For the past several years, the Army has been focused on the near-
term demands of the protracted campaigns in Afghanistan and Iraq, 
supporting our allies in Europe and Asia, and protecting the homeland. 
The necessary emphasis on these missions, combined with constrained 
resources, slowed, deferred, and in some cases, halted the development 
of new platforms and capabilities. Additionally, because these 
operations required shifts in Army capabilities to meet rotational 
demands and because U.S. Forces were not contested in the air or 
maritime domains, the Army reduced or eliminated several capabilities 
that are vital to large scale combat operations against highly capable 
adversaries. Our potential adversaries have not been so constrained. 
Analysis of potential peer competitors' emerging concepts, doctrines, 
and capabilities strongly suggests they are concentrating efforts 
between now and 2035 to develop and implement modernized capabilities 
and hybrid strategies to deny U.S. Forces' ability to project military 
power and conduct integrated Joint Force operations. Additional efforts 
emphasize the development of conventional forces with advanced armored 
vehicles--some of them robotic or autonomous--using extended range 
munitions, protected by Active Protection Systems, supported by 
electronic warfare and fires capabilities, and maneuvering into the 
close fight protected by an Integrated Air Defense (IAD) umbrella. 
Potential peer competitors have demonstrated they can and will operate 
with and through proxies and surrogates, artfully employing all 
elements of national power to achieve their strategic objectives. In 
this environment, adversary operational systems can exploit existing 
U.S. weaknesses, such as force deployment responsiveness due to time 
and distance and vulnerabilities in the homeland and partner nations 
such as fixed bases, ports, and domestic population. If the Army does 
not modernize its force to build greater capacity and capabilities to 
expand and maintain overmatch, we face a future where our formations 
are out-matched in high-end conventional combat.
    The Army's last broad-based modernization occurred in the 1980s. 
The character of war has changed, and the Army must adapt and innovate 
faster. Past ways of thinking, organizing, and executing have limited 
our ability to keep pace with technological development and our 
potential adversaries. The speed of change in warfighting concepts, 
threats, and technology is outpacing current Army modernization. 
Potential adversaries and the industries that support them are 
integrating technology and capabilities at a much faster rate. The Army 
is engaged in a protracted struggle to out-innovate our future 
competitors, and right now, we are not postured for success. Unless 
action is taken soon, there is the distinct possibility that future 
adversaries will constrain our Nation's options to deter and defeat 
them. Without support for increased and stable modernization funding, 
such actions portend a future with the prospect of increased military 
risk--that of the inability to deter conflict, losing a war, failing to 
advance or defend national interests, and suffering an unacceptable 
toll in casualties.
                         modernizing the force
    The Army Modernization Strategy has one focus: make soldiers and 
units more lethal so they can fight and win our Nation's war. It is 
established upon a vision for the Future Army and the challenges 
present in balancing near-, mid-, and far-term investments. This 
singular strategy identifies the ends needed for the Army to accomplish 
its future mission, organizes the ways, and aligns the means using the 
resources and activities of the Army's science and technology, 
capabilities development, and acquisitions enterprise to mitigate 
tactical, operational, and strategic risk across all time horizons. To 
provide a comprehensive plan for modernization, the Army establishes 
and aligns modernization objectives and organizations to orient on 
potential military peers for the current, next, and future fights that 
span across and beyond the Future Years Defense Program. All of this 
must be done within a 21st Century system that provides for unity of 
effort in support of the modernization process and allied 
interoperability from the outset.
    As our draft strategy lays out, first and foremost, we must return 
to mastering the fundamentals of shoot, move, communicate, protect, and 
sustain better than any potential adversary. In the near-term, the Army 
will invest in capabilities that address critical gaps and improve 
lethality to expand and maintain overmatch against peer competitors. In 
the mid-term, the Army will develop, procure, and field next generation 
capabilities to fight and win in Multi-Domain Battle. In the far-term, 
we will build an Army for a fundamentally different conflict 
environment--one that will require us to exercise mission command 
across dispersed and decentralized formations, leverage disruptive 
technologies at the small unit level, and operate with and against 
autonomous and artificial intelligence systems, all at an accelerated 
speed of war.
    To accomplish these objectives, this year we plan to selectively 
upgrade the equipment we have and focus our Science and Technology and 
Research, Development, Test and Evaluation funding on the six Army 
Modernization Priorities. The six prioritized capability areas 
naturally align with the Army fundamentals of shoot, move, communicate, 
protect, and sustain.

    <bullet>  Our first modernization priority is to restore the Army's 
Long Range Precision Fires capabilities in order to regain our 
dominance in range, lethality, and target acquisition. We must provide 
Combatant and Joint Commanders surface to surface firepower that is 
precise, responsive, effective and adaptable. It is essential that fire 
support protects and ensures freedom of maneuver to forces in contact 
with the enemy in deep, close, and rear operations.

    <bullet>  Our second modernization priority is Next Generation 
Combat Vehicles. A next generation vehicle is needed to enhance soldier 
protection, increase mobility, and make our forces more lethal to our 
enemies. These vehicles must adapt with technology and operate manned 
or unmanned. The Army's current fleet of tanks and infantry fighting 
vehicles are nearing the end of their ability to integrate additional 
advanced technologies that enable either near-term overmatch or future 
dominance.

    <bullet>  Our third modernization priority is Future Vertical Lift 
(FVL) platforms--reconnaissance, attack, assault--that are survivable 
on the modern and future battlefield. Current aircraft designs have 
reached the limits for significant incremental improvements. The FVL is 
an Army-led, multi-service initiative, focused on restoring vertical 
lift dominance with next generation reach, protection, lethality, 
agility, and mission flexibility. Systems should also benefit from 
improved power generation, autonomy, artificial intelligence, and 
manned-unmanned teaming.

    <bullet>  Our fourth modernization priority is to modernize the 
Army Network. We must have a communications system that is intuitive, 
mobile, expeditionary, and can be used to fight cohesively in contested 
cyber and electromagnetic environments. The Army Network should 
incorporate electronic warfare; resilient, secure, and interoperable 
hardware; software and information systems; assured position, 
navigation, and timing; and low signature networks.

    <bullet>  Our fifth priority is to modernize and restore our Air 
and Missile Defense systems to ensure our future combat formations are 
protected from modern and advanced air and missile delivered fires--
including drones. The most critical gap remaining after currently 
planned systems are fielded is that maneuver formations lack air and 
missile defense. We are focusing on capabilities that include Mobile 
Short-Range Air Defense, directed energy, and advanced energetics.

    <bullet>  Finally, we must aggressively enhance soldier lethality, 
a holistic series of capabilities that span all fundamentals including 
shooting, moving, communicating, protecting, and sustaining. The Army's 
foundational capability is soldier and team performance. Unlike other 
services, the Army fits machines to soldiers rather than the other way 
around. In this area, we will field not only next generation individual 
and squad combat weapons, but also improved body armor, sensors, 
radios, and load-bearing exoskeletons.

    To implement this strategy, the Army is currently undertaking a 
series of acquisition reform efforts designed to promote unity of 
effort, unity of command, efficiency, cost effectiveness, and leader 
accountability. Part of this effort is the establishment of a three-
star-level task force responsible for mapping out options to 
consolidate the modernization process under one command. To develop and 
deliver better solutions faster, the early integration of concept and 
testing will allow the Army to fail early and cheaply as we experiment, 
prototype and test, thus increasing the probability of success by 
learning from early failures. Critical to this effort is the 
establishment of Cross-Functional Teams (CFTs) for each of the 
identified modernization priorities. Each CFT will incorporate elements 
from acquisition, testing, resourcing, and capability development 
communities and directly report to Army senior leaders.
                      the defense industrial base
    The past trends of constrained resources in the Army's 
modernization account have led to significant challenges for the 
Defense Industrial Base (DIB), especially for companies that cannot 
leverage commercial sales and for small companies that must diversify 
quickly to remain viable. When developing our equipment modernization 
strategy, we have carefully assessed risk across all portfolios to 
ensure balanced development of new capabilities, incremental upgrades 
to existing systems, and protection of critical capabilities in the 
commercial and organic elements of the DIB.
    The Army remains concerned about the preservation of key skills and 
capabilities in the engineering and manufacturing bases for our 
original equipment manufacturers and their key supplier bases. 
Collaboration with our industrial base partners early in the process 
helps reduce risk. Efforts such as the Army Manufacturing Technology 
Program has provided affordable and timely manufacturing solutions that 
assist our industry partners to address manufacturing and producibility 
risks. Also, the Army supports efforts to develop Foreign Military 
Sales (FMS) and Direct Commercial Sales to ensure sustainment of 
critical production lines in the DIB.
    The Army continually assesses risk in the Industrial Base across 
all Army portfolios. Fragility and Criticality (FaC) assessments 
identify the fragile and critical portions of sectors within the DIB to 
facilitate the identification of risk mitigation strategies. The FaC 
assessments provide Army program offices: 1) the information to 
identify how funding adjustments could affect suppliers that provide 
the products, skills, and services needed to maintain readiness, and 2) 
information to support investment decisions to mitigate supplier risk.
    The Army also continually assesses the health of the organic 
industrial base (OIB), including our depots, arsenals, ammunition 
plants, munitions centers, and Government-owned Contractor-operated 
plants. The Army maintains critical skill sets in our OIB by 
identifying workload to preserve capabilities, exploring FMS 
opportunities, and encouraging our OIB facilities to partner with 
commercial firms and other Department of Defense organizations, such as 
the Defense Logistics Agency, to meet future requirements. We continue 
to modernize our OIB infrastructure, as needed, to support readiness.
                             in conclusion
    We sincerely appreciate the opportunity to address the challenges 
the Army faces in maintaining readiness and modernizing its force. We 
are grateful for Congress's efforts to increase Army Force structure. 
The Army will apply the increased end-strength authorized by the last 
two National Defense Authorization Acts to ready combat formations to 
deter our adversaries, and if called upon, decisively win our Nation's 
wars. Additionally, we believe that the President's commitment to 
restoring the military will be clearly evident in the Fiscal Year 2019 
Budget Request, especially in Army modernization. We believe it will be 
a good start towards reversing the historical and significant 
shortfalls in modernization funding, but one year will not, by itself, 
reverse the trend. We must have predictable and adequate funding across 
the Future Years Defense Program and beyond.
    We can assure you that the Army's senior leaders are intently 
working to address current challenges and the needs of the Army both 
now and in the future. We are doing so with a commitment to be good 
stewards of our Nation's resources while meeting the readiness, 
equipping, and modernization needs of our soldiers.
    Mr. Chairman and distinguished Members of this Subcommittee, we 
sincerely appreciate your steadfast and strong support of the 
outstanding men and women in uniform, our Army civilians, and their 
families.

    Senator Cotton. Thank you, General Dyess, and thank you for 
your many years of service to our country. Since you have 
concluded, I will keep you first in the shoot here. Let us 
start with the threats that we face so we can talk then about 
the strategy we need to counteract those and the modernization 
approach to implement that strategy.
    The National Defense Strategy and the National Security 
Strategy directs the Department of Defense to prioritize 
threats from Russia and from China. In the past in testimony to 
this subcommittee and the full committee, Army leadership has 
emphasized the rapid pace of modernization that those two 
countries have undertaken while the United States has been 
fighting low-intensity counterinsurgency wars in Iraq and 
Afghanistan. In light of this direction, in light of these 
circumstances, what is the Army's mission-critical focus in 
your opinion?
    Major General Dyess. The threats have been documented well 
in testimony both by previous leaders but as well as we talked 
about that last year. As far as the multi-domain battle concept 
in the 21st Century warfare battlefield that we see, it has 
expanded in several ways to include geography. We think that we 
will be attacked in the homeland if not by cyber but by other 
means that we will have to, because our forces are mostly 
stationed in the United States, deploy to areas in which we 
will conduct those operations, that us in the Marine Corps see 
that the close fight is certainly common considerations for 
both of us, the Air Force establishing joint bases and 
establishing air dominance in an integrated air and missile 
defense capability A2/AD [Anti Access/Area Denial] environment.
    We are going to be contested on all domains. It is going to 
be increasingly lethal on the future battlefield, that it is 
going to be increasingly complex with urban cities and dense 
urban terrain and that our deterrence is going to be 
challenged. Quite frankly, we want to make sure that deterrence 
is forefront in our problem statements so that we do not have 
to fight a war and an armed conflict.
    Senator Cotton. Thank you. General Anderson, the vice 
chairman, General Selva, in recent media interviews recently 
elaborated on the National Security and National Defense 
Strategy looking at the threat of China and Russia, explaining 
that China would be predominantly a maritime and air operation, 
whereas a threat from Russia most likely in the European 
theater would be primarily an air and ground operation. Can you 
elaborate on what that means for the Army's future 
modernization plans?
    Lieutenant General Anderson. Yes, sir. Anti-access/aerial 
denial is going to be a factor for air and naval forces, again, 
which is all the things that I was talking about in the multi-
domain concept about how we enable naval air forces to get into 
a China scenario. I think what you both mentioned in your 
opening comments, all things long-range fires, all things 
ballistic missile defense, all things armor are huge capability 
gaps. I think to fight the China challenges that are posed in 
the NDS, which are the threats against Taiwan, South China Sea, 
the Russia threats against NATO [North Atlantic Treaty 
Organization], both of their aspirations from a nuclear 
scenario, and then you throw in the North Korean nuclear 
scenario, you throw in the terrorism and the counter-WMD 
[Weapons of Mass Destruction] scenario, and then you throw in 
the information environment, and I think that reinforces all of 
our efforts in the multi-domain fight and how you do offset and 
how do you potentially achieve the ability of an army 
capability to sink a ship at sea, you know, from afar?
    I think as we work those capabilities, that will very much 
play out in a China scenario, and I think everything we have 
talked about fits into the Russian piece about countering 
armored formations coming across Eastern Europe.
    Senator Cotton. When was the last time American soldiers 
fought against an enemy who had sustained aerial attacks 
against U.S. soldiers?
    Lieutenant General Anderson. Never.
    Senator Cotton. What is the state of our air defense 
artillery?
    Lieutenant General Anderson. We have got a long way to, so 
that was one of the billpayers of sequestration. We took air 
defense capability out of our formations, so you are seeing the 
efforts here to put mobile SHORAD [Short-Range Air Defense] 
back into two per a division formation. We are shooting to get 
two battalions established by fiscal year 2021, but you are 
seeing our 72 Avenger upgrades that we are doing right now to 
get into Europe. That was all part of the heavy focus on Europe 
2 years ago, and now, we are fast-forwarding that obviously to 
the Pacific.
    But, you know, we are doing everything from getting mobile 
shoulder-fired Stingers out of all of the warehouses to enable 
crews and teams to be deployed in each of these theaters, so at 
least you have got something within your organic capability, 
you know, and then obviously we have got THAAD [Terminal High 
Altitude Area Defense], Patriot, and those systems that are all 
being enhanced for missiles, radars, sensors, and all the 
things that are going on in those arenas. But right now, the 
basic problem is combat formations do not have capability.
    Senator Cotton. Thank you. My time has expired. I will turn 
now to Senator King.
    Senator King. Thank you, Mr. Chairman.
    I am looking for an update. We have talked a lot over the 
past year in the Army, as I mentioned in my statement, I 
commend you for the focus on these issues of modernization and 
setting up functional teams, the Futures Command. Tell me where 
we stand. When are we going to see results?
    Lieutenant General Murray. Senator, as you know, the Army 
stood up a plans team or an analysis team under the leadership 
of Lieutenant General Ed Cardon to work through the mission 
analysis for the Chief and the Secretary. None of us are a part 
of that small group. It has been a fairly small self-contained 
unit that is going through analysis. They just recently 
completed a tabletop exercise. I believe they war-gamed about 
six courses of action. As far as I know, they are still on 
track to come back to the Secretary and the Chief with a 
recommendation on exactly what this organization will do, what 
it will consist of.
    Senator King. You are talking about the Futures Command?
    Lieutenant General Murray. I am, sir. I believe the last 
date I heard was March, and as far as I know, they are still on 
track to come back to the Chief and Secretary with laying out 
those decisions for them.
    Senator King. A possible set up by summer?
    Lieutenant General Murray. Last I heard, IOC [Initial 
Operational Capability] or initial operation capability June, 
July of this year with a full operational capability to follow 
about a year later.
    Senator King. Here is the real question: Do you think we 
are really going to be able to break down the stovepipes?
    Lieutenant General Murray. Sir, I do. I think the biggest 
challenge for this organization is doing exactly that, and it 
is culture more than anything else. So I think the biggest 
challenge for this organization would be to reshape the culture 
to get after those stovepipes. It is just not the acquisition 
process. It is the requirements process, it is the material 
delivery process. It is the testing process. It is the 
bureaucracy associated with it. That is exactly the intent of 
the Chief is to stand up this organization for unity of command 
and have a single commander focused on doing just what you 
suggest, is getting after acquisition, big A acquisition from 
requirements to delivery of capability to our soldiers in a 
very rapid fashion, somebody focused on that each and every 
day, which right now it is spread amongst many organizations.
    Senator King. General Ostrowski, just a specific question. 
You had some time on protests. What percentage of significant 
acquisition contracts are protested?
    Lieutenant General Ostrowski. Sir, I will tell you that I 
do not have that exact number of ones that are protested. I 
will tell you this, that 92 percent of the time the army on 
average wins those protests. So we lose about 8 percent over 
time. The other services have a record that is even better than 
that. However, I have numerous programs now that are in 
protest, Lakota being one of them, as you know. That is one 
that is out there. There are numerous other ones that are----
    Senator King. Do I understand that the production, the 
progress on the contract is stayed pending the protest?
    Lieutenant General Ostrowski. Yes, sir. When you protest to 
the GAO, the GAO has the ability to immediately execute a stay 
unless it is beyond the time that you are allowed to protest in 
the protest window. So in all cases for the GAO, unlike the 
Court of Federal Claims, it is an automatic stay. The Court of 
Federal Claims holds a stay hearing to determine whether or not 
to put a stay on the particular case or to not, and then go 
through the process of adjudicating.
    Senator King. But still, that is more time, more 
bureaucracy, more reports, more studies.
    Lieutenant General Ostrowski. That is correct. In fact, 
what happens is our contractor is not allowed to move forward. 
The program office sits idle, and so does the contractor.
    Senator King. You went through very rapidly a whole series 
of recommendations for us. I am sure that is in your written 
testimony, but if you could supply those in a succinct form 
with some explanation as to where you think we can help with 
this process because we are going to be working on the National 
Defense Authorization Act starting in a few months, and it 
would be very helpful to have those specific recommendations. 
Let me change the subject for a minute. Talk to me about 
utilization of off-the-shelf products or designs. I hope that 
is a sort of place to start rather than designing something 
entirely new to our requirements.
    Lieutenant General Ostrowski. Yes, as we go through the 
process, the first thing we should do as a community is 
determine whether or not our tactics, techniques, and 
procedures can change in order to address the threat. If they 
cannot and a material solution is the first thing that we have 
to go to, the first thing is to go off and ask if we can find a 
commercial product capable of doing what it is that we are 
trying to do in terms of filling in the gap. If we cannot find 
that, then the next step is to go to our allies to determine 
whether or not there is a capability that exists in a foreign 
country that is capable of doing so. If the answer is still no, 
the final step is than to develop. Unfortunately, too often, we 
jump right to the development instead.
    Senator King. That is what concerns me. I mean, that is the 
history.
    Lieutenant General Ostrowski. That is correct, sir, so we 
are in the process of changing that. Again, it allows us to get 
capability to the force faster, the only drawback being it is 
not leap ahead. That would be the only drawback. But it allows 
us to get the capability to our forces in a faster manner, 
knowing that everybody in the Army does not need to have one.
    Senator King. I am just about out of time, but I think the 
comments that you have made, we are talking about a deep 
cultural change in the way a system has been operating for 
years and years and years. Cultures are the hardest thing to 
change. General Murray, do you think that is happening? Is the 
word out there? Is there a sense of urgency about this?
    Lieutenant General Murray. I think it is, sir. I think we 
have made a great start. The Army is a big organization. As the 
saying goes, it takes a long time to turn a big ship. I know 
General Ostrowski and I co-chair a lot of meetings where this 
type of dialogue comes up, and it is a consistent message from 
both of us. I just thing, I mean, you have got to establish the 
culture change and then continue to drive it year after year in 
some cases to make sure it resonates throughout the 
organization. But I do not think it is going to be a quick 
culture change because cultures do not normally change quickly, 
but I think with constant reinforcement and with the 
reinforcement we are getting from most senior leadership, I 
think it will happen over time.
    Senator King. I found it salutary to remind people and 
organizations that I work for that it took Eisenhower only 11 
months to retake Europe. It sort of gives you a time frame for 
getting these things done. Thank you, Mr. Chairman.
    Senator Cotton. Colonel Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman. Gentlemen, thank 
you for your service and being here today. General Dyess, 
congratulations on your upcoming retirement. I am sure you will 
miss the Army but probably not miss hearings like this.
    [Laughter.]
    Senator Sullivan. General Anderson, I want to thank you. I 
had the opportunity to go see the 4/25 over the holidays out in 
Afghanistan, and morale was high and the troops are doing well, 
so thanks for all your and other Members and General Milley's 
recognition of the importance of that unit.
    I wanted to talk first just kind of on an operational 
issue. The European Reassurance Initiative, which has been a 
very kind of heavy Army-led initiative, what impacts are we 
seeing on our deployments there in terms of our allies, maybe 
Russian reactions? Are we seeing it in a positive way, and can 
you give us some anecdotes on that?
    Lieutenant General Anderson. Sure, sir. Good to see you, as 
always.
    The requirement of going to a heel-to-toe armored brigade 
combat team rotation has required us to take a brigade that we 
had dedicated to testing at Fort Bliss and put that into the 
rotational pool so we could sustain, you know, three to Korea, 
three to Kuwait, three to Europe on top of the two assigned 
brigades, there the 173rd and the 2CR. So the strain there in 
terms of maintaining that, having a small hundred-man division 
cell that was the fourth division getting ready to be the first 
division is the command and control element underneath Army 
Europe has been an additional requirement, and then the 
enhanced forward presence package, which is the Baltics. That 
is the Latvia, Lithuania, Estonia piece, which Canada, Germany, 
and the U.K. and us in Poland and maintaining that rotational 
battle group with an infantry company from the U.K. and a 
SHORAD company from Romania. That commitment, sir, has again 
been--that was something we did not plan on doing 2 years ago, 
so it is an additional strain on the force.
    The problem with the European activities operation Atlantic 
Resolve, it is not a named operation, so that means commanders 
cannot stop-loss, stop-move people. There is no entitlement 
pays. You actually lose your separation pay. It is not a tax-
exempt deployment, so when people compare that to other 
deployments from a family/personal situation, people do not 
like that because----
    Senator Sullivan. Are the things that we can do to help 
with regard to addressing that because it certainly seems to 
me, you know, in the category in importance of any other type 
of deployment?
    Lieutenant General Anderson. It is really an internal 
Department of Defense thing in terms of authorizing it to be a 
named operation or not, you know? Then the issue for Europe, 
sir, is----
    Senator Sullivan. Why has it not been----
    Lieutenant General Anderson. Because a lot of people think 
they have enough resources to get the job done, but when you go 
visit them and you watch that brigade commander being 
challenged to maintain his manning levels because he is not 
allowed to keep people if they are scheduled to ETS [Expiration 
of Term of Service], retire, whatever. He can take them, but 
when they are 2 months out from having to leave the Army, he 
has to send them home. So that is a constant rotating door--we 
are on our second turn right now--and we struggle to keep that 
brigade at 80 percent strength while it is in Europe doing, you 
know, the exercise program.
    Senator Sullivan. Yes. Let me kind of ask a somewhat 
related question. General Dyess, during the March 2017 all arms 
warfare hearing it was discussed that there is a lack of 
advanced airland battle and training exercises. I know General 
Milley has been talking about much bigger training exercises as 
a way to integrate the entire force with combined arms. I know 
a lot of that is done out at NTC [National Training Center]. 
There is an NDAA provision that takes a look at that. I just 
want to highlight for you the--and I am sure most of you are 
familiar with it--but the Joint Pacific Range Complex in 
Alaska, has a land space the size of Delaware, airspace for 
fifth-generation aircraft the size of Florida and naval sea 
space the size of Virginia. So are you looking at that as you 
are looking at major, you know, kind of division-type exercises 
where you could exercise a couple brigade or even a division 
and have airspace that is more realistic with the fifth-
generation type standoff?
    Major General Dyess. So, I will start off and then I will 
pass it to General Anderson because I will talk about 
experimentation. We do experimentation inside of TRADOC 
[Training and Doctrine Command], and so what we want to do is 
make sure that we are interoperable with our allies, and all 
the combined arms but also to be able to have secure voice 
digital fires and a common operating picture. We do need the 
space to do that. We are conducting the----
    Senator Sullivan. Does NTC provide you the space or----
    Major General Dyess. No, we are actually doing the next one 
in May in Germany with the U.K., the French, the Germans, et 
cetera. White Sands, Bliss is where we do a lot of those as 
well where we own all of airspace as well as the 
electromagnetic spectrum.
    So on the experiment side we would like to have the ability 
to have our coalition partners and our joint partners together 
to determine where we can make strides in interoperability. I 
will pass it over to General Anderson on the training side 
because there is also a training activity that occurs like the 
18-4 activity with the U.K. division with our XVIII Corps.
    Lieutenant General Anderson. Yes, the key, sir, since we 
took away that dedicated test unit between home station 
training, CTC [Combat Training Center], the combat training 
centers, and exercises, we have to leverage how we test stuff 
because we no longer have a dedicated time and space or unit to 
do it. But what Bo is talking about, our allies want to play in 
their backyards, and we have to have a draw to them. He just 
described what we are getting ready to do here this spring. All 
of them want a--a large number of NATO members want to play in 
this exercise because it is in Europe and it is all things 
Russian.
    You asked again what is a deterrence versus assurance? 
Well, it is obviously assuring them but that the Russian 
deterrence, when you can mask multiple countries with multiple 
capabilities in and around Europe, that sends a pretty loud and 
clear message, and that is why we have to leverage that kind of 
stuff versus coming back in the States. We are using--even more 
so than Polk, Irwin, you know, Nellis, and those kind of 
places. That is the key. That is what they want.
    Senator Sullivan. Thank you.
    Senator Cotton. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman, and gentlemen, 
thank you again for being here today.
    I want to pick up on the acquisition and the need for a 
much quicker process that has already been raised, and all four 
of you raised in your testimony as well. I am going to give you 
an assessment that someone gave me about looking at the 
different acquisition communities and just kind of get your 
sense how accurate you think this is. You basically said that 
basically we have got silos and you have got the science and 
tech folks that probably need to do a whole better job of 
reaching out to private industry and some of the new cutting-
edge technologies and try to examine what the possibilities 
are. There is not enough of that that goes on.
    The testing community sets unrealistic goals, and so there 
is a lot of failures because the goals are unrealistic and so 
the programs die or do not move forward. The requirement 
community always wants to do too much and be all things to all 
people, and that is also impossible as well. So you start 
putting all of that together in the hopper and everything kind 
of grinds to a halt, which is obviously unacceptable at a time 
when technology is advancing at a pace we have not seen in 
human history. How would you characterize that assessment? Are 
those legitimate concerns that we need to be thinking about 
with those kind of communities? Whoever?
    Lieutenant General Murray. I will take it, sir----
    Senator Peters. Yes.
    General Murray.--if that is okay. I will start off and I 
will turn it over to General Ostrowski and I will try to stay 
with the requirements piece of it you talked about and let him 
talk the true acquisition piece of it.
    So I would say that you are fairly accurate, whoever you 
have talked to. We do a poor job of reaching out to industry. A 
lot of times that is because of concerns by our lawyers that--
in terms of competition and unfair advantage to different 
competitors. I think we are getting better at that. That is one 
of the roles as a CFT [Cross-Functional Team] and our senior 
leadership. The Secretary and the under and the vice have sat 
down with numerous industry leaders over the last 2 months or 
so to figure out what is going on in industry. Getting our 
science and technology folks to reach out to industry is 
important, as well as our engineers to see what is available.
    Somebody mentioned earlier about fielding stuff quickly. We 
are interested in fielding stuff quickly using technology that 
exists today, but it has to be able to be upgraded over time. 
You know, we have been criticized, rightfully so, for our 
modernization efforts in the past, but we have been fairly 
successful in incrementally upgrading the equipment we have. 
The M1 of today is vastly better than the M1 we fielded back in 
the mid-1980s.
    Senator Peters. Right.
    Lieutenant General Murray. So when you acquire something 
quickly, you also have to make sure that you can upgrade it 
over time to account for new technologies. Part of that is 
software-defined systems. Part of that is the size, weight, and 
power to accommodate new systems in the future. That is a piece 
of it. I think we have a very risk-adverse culture. I mean, I 
do think our requirements are over-specific. I think our 
testing community--the Army's testing community has made great 
strides. We now have as part of the CFT for the programs they 
are working on testers, engineers, S&T [Science & Technology] 
experts, and hopefully soon industry sitting down with the 
requirements writers. So before we write a requirement, we know 
it is feasible, it can be tested relatively cheaply and in a 
fast amount of time, and that industry can actually produce it. 
That is kind of what we are after as we go forward.
    Lieutenant General Ostrowski. Sir, I would just add that 
General Murray hit it on the head, and you did as well. The key 
to the CFT standup, the impetus behind the CFT standup was to 
address the very issue that you brought up. Now, the key is is 
to get that culture ingrained in the rest of the Army. We know 
that there are only six of these. The intent is for that to 
trickle down, have a trickle-down effect throughout the entire 
army so that our program managers, our testers, our engineers, 
our scientists, our contracting officers, and industry are 
engaged in a process of determining what is in the realm of the 
feasible so that when right requirements, we get after the 
capabilities that we need in the time frame that we need them 
and the capabilities that exist today in terms of technology.
    Lieutenant General Murray. I would like to add one more 
thing because it is critically important is early soldier 
involvement and often have soldiers involved in the process so 
soldiers are part of the development of the requirements and 
soldiers are part of the process all along to make sure we 
deliver the capability they expect at the end of the process.
    Senator Peters. Actually, I would like to pick up on that, 
General, because that is the other aspect of fighting the war 
of the future that all four of you have mentioned. It is not 
just the equipment; it is also the doctrine and the operating 
doctrine. History is full of examples where armies with 
inferior equipment still beat the others because they could 
operate--they had a doctrine that allowed them to operate much 
more effectively, so that has got to be a key part of how we 
integrate with these new technologies that are changing rapidly 
and will require human machine interfaces in ways that we have 
not seen before.
    But I guess I am running out of time here. My question is, 
in your view, should technology drive doctrine or should 
doctrine drive technology?
    Major General Dyess. I will take that one. Doctrine is 
actually things that we can do today. Concepts are the things 
that drive us toward the future. So we have taken and redone FM 
3-0--that is our operations manual--but considering the things 
that are in the multi-domain battle that we can do today. So 
from my perspective we take a look at the future and the 
technology as it is changing and then incorporate that into the 
doctrine. That is my perspective on that.
    Lieutenant General Murray. I would just say it is not a 
chicken or egg. They will feed off of each other.
    Senator Peters. Right.
    Lieutenant General Murray. There will be technologies that 
will drive new concepts and there will be new concepts that 
will drive us to develop new pieces of hardware.
    Senator Peters. So you have to be flexible in both ways?
    Lieutenant General Murray. Absolutely, sir.
    Senator Peters. Great. Thank you.
    Senator Cotton. Senator Wicker.
    Senator Wicker. Gentlemen, thank you very much for your 
service, and thank you for working hard during a trying few 
years that you have had to deal with because of decisions made 
in this building and on this Capitol Hill.
    On page 2 of your statement you say, ``The Army has reached 
an inflection point: We can no longer afford to choose between 
improving our existing systems and developing new ones. We must 
do both.'' I was asking in another setting the Secretary of 
Defense about his statement that we have been climbing out of 
the readiness hole, and we are going to have to do both now, 
readiness and modernization. Your statement was prepared before 
we got the news today about the agreement between the White 
House and Republican and Democratic leaders in the Senate about 
the new defense caps. If we do not pass the new defense caps 
tomorrow, what does that do to your ability to make this 
sentence come true?
    Lieutenant General Murray. I think it would be devastating, 
Senator. As you mentioned, that prepared statement has been 
done for probably about a week-and-a-half now, and that 
specific sentence was crafted with the 2019 President's budget 
request in mind. So if we do not get a budget, if we go to a 
sequester, we go to some kind of furlough again, we would not 
be able to do both.
    Senator Wicker. Actually, what I think we are going to do 
if we have got the votes is we are going to appropriate to the 
National Defense Authorization Act level. I think the House of 
Representatives has demonstrated that they already have the 
votes to do that. What have we not been able to do? Help the 
people who are listening by way of C-SPAN right now. Help us to 
understand what is at stake in terms of actually what we have 
not been able to do and what we have been able to do, if we 
take a grownup vote tomorrow and actually give you what you 
need?
    Lieutenant General Murray. Just a couple of examples, 
Senator. So the only new developmental program that we have 
started in the 2 years that you have mentioned is the Mobile 
Protected Firepower light tank. We have no other new 
developmental combat vehicles in production, and that is not 
even in production. We are expecting some bid samples here in 
the next month or so to go into a downselect for a producer. We 
have been focused solely on keeping the equipment we have as 
modern as we possibly could while others have modernized their 
fleets.
    We have no new aircraft in production. We are still flying 
the same aircraft that we were flying in the 1980s that came 
out. Probably the worst part of that is with the resources we 
have been operating with, with the focus on readiness was 
exactly where the focus should be, we would be using the same 
fleets for the next 20 or 30 years. This budget request I 
firmly believe--and if the numbers are anywhere near the NDAA 
level, we will be able to start development of new systems that 
we will need on the future battlefield. So we have been 
maintaining parity as best we could by incremental upgrades to 
systems, but there is nothing leap ahead about what we are 
doing. That is what we want to do is go after the system that 
will provide us the overmatch into the future against a peer 
adversary.
    Senator Wicker. Okay. Let me shift gears in the last 
minute. As you know, Army Corps of Engineers ERDC is located in 
Vicksburg, Mississippi, high use of supercomputing there. To 
what extent is supercomputing important Army-wide in getting 
you the information you need and how weapons systems respond to 
complex environments? Who would like to take that?
    Lieutenant General Ostrowski. Sir, I can take that. It is 
absolutely critical. Frankly, with respect to the Chinook 
helicopter, our Block 2 Chinook, we have avoided about $50 
million worth of costs in terms of flight based on being able 
to supercompute the effects that the new blade rotors are going 
to have on the aircraft, the new fuselage is going to have on 
the aircraft. We can avoid all that through the stimulation of 
training that the supercomputers divide us.
    With respect to the tank, Abrams tank in terms of its 
armor, the ability to--as we upgraded the armor in the last 
version, the B3 version of the Abrams, the ability to use the 
supercomputers to determine what the armor would be capable of 
doing in terms of the threat, you know, whether it be kinetic 
or whether it be RPG [Rocket Propelled Grenades] or whether it 
be in ATGM, what would be the result of the armor that we add 
as a result of being able to stop those particular threats, all 
made possible by the supercomputing capabilities that you 
mentioned? It is critical to us. It is critical to the joint 
force. The Army is just one participant in this. We have the 
other services as well, and so it is a great capability, sir.
    Senator Wicker. Thank you. Thank you, Mr. Chair.
    Senator Cotton. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman, and thank you to 
all of our witnesses for being here today.
    You know, we have been concerned in recent years that near-
peer competitors like China and Russia are narrowing the 
technology gap and putting our forces at greater risk if they 
ever had to engage in conflict. So in response, the Army has 
announced plans to establish new futures and modernization 
command focused on your six modernization goals, things like 
next-generation ground vehicles and more survivable helicopters 
and more resilient networks.
    I understand that in each of these priority areas you plan 
to integrate the requirements development and acquisition 
processes into combined teams focused on your modernization 
goals, and I think this is smart. I think it is a good thing 
that you are planning to do. But today, much of the cutting-
edge technology is not developed within the Pentagon but over 
in the commercial sector or in the laboratories, at our 
colleges and our universities, so I want to ask about a 
different kind of integration between the Army and these 
outside innovators.
    I thought I might start with you, General Ostrowski or 
General Dyess. How important is it to capitalize on commercial 
and academic developments in advanced technology? As the Army 
develops this command, what steps are you taking to make sure 
that you are closely tied to these outside innovators?
    Lieutenant General Ostrowski. Ma'am, I will start, and then 
I will turn it over to Bo, but the bottom line is is that it is 
absolutely critical that our communities within our organic S&T 
work with industry across the board. We have numerous programs 
that initiate that piece.
    One of the things that the Hill has given us in terms of 
capabilities is this thing called other transactional 
authority. As you know, ma'am, 90 percent of the businesses in 
the United States do not want to do business with the 
Department of Defense because it is too bureaucratic, it is too 
hard, especially small business and innovative companies. The 
use of other transactional authorities allows us to get around 
those FAR [Federal Acquisition Regulation]-based contracting. 
It allows us to work with these small units and small 
businesses and so forth. So it has been a critical step to 
that.
    The establishment of the DIUx, again, at the Department of 
Defense level, able to reach out to these industries that would 
not be willing to normally do business with us, again, breaking 
those barriers down. So there has been numerous efforts to try 
to get at that 90 percent of the population in terms of our 
companies that want to do business with us to be able to do 
that.
    Senator Warren. Good. So breaking down the barriers, DIUx, 
you sing my song when you talk about them. General Dyess, what 
would you like to add?
    Major General Dyess. Just that we need to know what 
technology is out there on the Department of Defense side when 
we write requirements and so that we do not write a requirement 
that is not attainable.
    Senator Warren. So how do you do that?
    How do you find out?
    Major General Dyess. So it is back and forth. It is 
exchange of information. It is here is the way we would like to 
have the requirement. Usually we are not at the technology 
readiness level that you desire, and then there is trades 
discussion that happens with all of us on this table here, 
General Murray on the resource side, General Ostrowski on the 
acquisition side, and me on the requirements side. So there is 
trades discussion that happens inside of that. It has got to be 
informed by the technology that is available out there in those 
small companies----
    That is key----
    Senator Warren. That takes some systemic interweaving as 
you go along. You know, I may be biased, I probably am, but I 
think Massachusetts is the most dynamic innovation economy 
linking world-class universities, federal labs, commercial 
startups----
    Senator King. We call it southern Maine.
    Senator Warren. Yes.
    [Laughter.]
    Senator Warren. Social climber.
    [Laughter.]
    Senator Warren. And that we have workforce that has the 
best STEM [Science, Technology, Engineering and Mathematics] 
education in the country. When I go home to the Commonwealth, 
there are a lot of people there who ask what can I do to serve 
my country? What can I do to be part of the defense of this 
nation? So I just want to make sure that this question about 
innovation as you are thinking about how better to integrate 
going forward is not only about the Army and what gets 
developed within the Pentagon but what we are developing out 
there in the rest of the world. They are opening up new 
horizons every single day, and it would be very much to our 
detriment if the Army missed that. So I hope we can continue to 
work together on that.
    Thank you all for being here. Thank you.
    Senator Cotton. I will begin round two.
    General Dyess, I want to ask two more big-picture questions 
and would appreciate the answer in the simplest most layman's 
terms. What is the Army's modernization strategy, and who is 
responsible for that strategy?
    Major General Dyess. Well, the Secretary and the Chief are 
going to approve the strategy, and they are going to submit 
that strategy in accordance with the NDAA by the 30th of April 
of this year. The strategy essentially lines up the 
modernization priorities that have already been, as you have 
talked about, Senator King and my colleagues here at the table, 
essentially tells you how we intend to get after those 
modernization priorities.
    There is an upfront piece that establishes the current 
state that we find ourselves in on modernization, but I would 
say the majority of the document are in annexes that describes 
the six modernization priorities, as laid out by the Secretary 
and the Chief in some detail.
    Senator Cotton. If I call Army leadership principles, the 
Secretary and the Chief are responsible for everything the Army 
does and fails to do? Is that----
    Major General Dyess. Well, title 10, manned, trained, 
equipped, assessed station is the responsibility----
    Senator Cotton. Who beneath the Secretary and the Chief is 
personally responsible for the Army modernization strategy?
    Major General Dyess. Well, there are a lot of people 
helping them, Senator, but I think I am helping writing that 
down at Army Capabilities Integration Center with the help of 
my colleagues here at the table.
    Senator Cotton. Thank you. Building on that, what are the 
key objectives of our modernization strategy in the near term, 
say, defined as the next 2 years?
    Major General Dyess. I think in the next 2 years--and you 
will see this I think when the PB19 comes over--is a thorough 
review of our science and technology dollars that are aligned 
to the modernization priorities. A lot of those modernization 
priorities, unless we do off-the-shelf of existing equipment 
that is out there, are going to deliver in at least 2021, 2022, 
and beyond time frame. So if you ask the question what is 
happening in the next 2 years, it will be a realignment of some 
of those dollars, which you will be able to see on the 12th, 
and then essentially the experimentation and demonstration of 
capabilities that those cross-functional teams will be doing, 
and then in the early to mid-2020s the delivery of capability.
    Senator Cotton. Thank you. General Ostrowski, sticking with 
the big picture, the Army future combat system was, let us just 
say, less than a tremendous success. General Milley 
acknowledged this in recent remarks to the Association of the 
U.S. Army, but he also stressed that we do need to have a 
significant leap ahead in the technology that we are fielding, 
10X in fact he said, and pointed out some examples from the 
1980s how we succeeded in that effort with systems like the 
Abrams, the Bradley, Patriot, the Apache, the Black Hawk. How 
do we model on that success from the 1980s and avoid the 
failures of the Future Combat System?
    Lieutenant General Ostrowski. Mr. Chairman, the key is to 
do the experimental and the prototyping up front and early with 
soldiers. General Murray mentioned this earlier. If we are 
going to fail, we need to fail early. So early prototyping is 
absolutely essential in getting after this piece. The problem 
that we have had in the past has been we have been too I would 
say hurried to rush into a program of record. Once we did, with 
technology that was never even ready for the technology 
readiness reduction phase of the program, so we have to spend 
more time understanding the technology first, writing the 
requirement to do so, and then once we understand the state of 
the art of technology, ensure that we prototype that and we fly 
before we buy before entering into a major effort.
    Lieutenant General Murray. I would just add, Mr. Chairman, 
we also have to be comfortable with the 80 percent solution as 
the initial development. I would just go back to the M1 tank, 
which you mentioned was originally fielded with 105 millimeter 
cannon. We knew we needed 120 millimeter. The technology was 
not there, so we fielded it with 105 with the space to upgrade 
it to a 120 as we went along, so that type of 80 percent is 
good enough--perfect is the enemy of good enough----and then 
get on with it and improve it over time.
    Senator Cotton. Thank you. I want to turn to more specific 
programmatic questions from the big-picture questions I have 
explored, but first, I will turn to Senator King for his second 
round of questioning.
    Senator King. General Ostrowski, I have some questions 
about the industrial base. I am concerned about the loss of 
smaller firms either because they cannot compete or--we have 
had testimony before the full committee that smaller firms, 
particularly in places like Silicon Valley, just will not even 
bid anymore they are so fed up with the Pentagon process and 
the burden and how long it is and the restrictions. I am 
worried about the consolidation of the industrial base and the 
loss of smaller, agile, creative companies. Talk to me about 
that. How can we be sure that we are not going to lose the 
innovation that comes from these smaller companies because of 
the cumbersome nature of the process? I am sure you understand 
what I am talking about.
    Lieutenant General Ostrowski. Senator, I do, and I 
understand exactly where you are coming from. The bottom line 
is that, as you know, 90 percent of the companies in the United 
States do not even want to do business with us because it is 
too cumbersome, and so the thing----
    Senator King. That is a really bad sign.
    Lieutenant General Ostrowski. Yes, sir, but the bottom line 
is that the things that you have been able to allow us to do, 
the other transactional authorities piece that I mentioned a 
little bit earlier allows these companies to be able to want to 
then do business with us because the burdens of the FAR are not 
placed on them. So that is a huge tool that we have been able 
to use as we go forward, especially with the smaller companies.
    The other piece of this is ensuring that we understand from 
a big supplier perspective. We need to know the second-, third-
, and fourth-tier level suppliers throughout everything that we 
are doing and being able to work with our primes to ensure that 
we have a status on each one of those because if any one of 
those are going to go out of business based on lack of orders 
or whatever the case may be, we have to be able to support 
those companies because they do provide a capability that no 
one else does.
    Senator King. Right.
    Lieutenant General Ostrowski. We have programs associated 
with the Army and the other services to be able to identify 
those companies and continue to support them because they have 
those critical components that nobody else will produce.
    Senator King. Let me change the subject from acquisition, 
which is mostly what we have been talking about, and talk about 
doctrine and hybrid war. Are we developing the doctrine to deal 
with an entirely different kind of incursion such as what we 
saw in Ukraine or Crimea? That is a difficult strategic and 
doctrinal question because you never really quite have that 
kinetic, you know, event that can trigger a conventional kind 
of response. General Dyess, what do you think about that? Is 
the Army thinking about this?
    Major General Dyess. I would be glad to talk about that, 
Senator, because I think that when we talked about the 
battlefield framework and the expansion of just not only 
geography but also time. Instead of the joint planning 
construct would have the phases, phase 0 through phase 5, we 
have essentially done away with that because in that construct 
you are either in armed conflict or not in armed conflict. You 
are either yes/no, black/white, on/off when in fact, short of 
armed conflict, we are in competition right now, and that is 
what we are calling it, a competition phase, an armed conflict 
phase and then a return-to-competition phase. So there is 
activity that is occurring----
    Senator King. But I think we need a term between--
competition sounds benign. If the Russians interfere in the 
elections in the Czech Republic and elect a pro-Russian as 
President, that is not competition. That is something else. It 
is between competition and conflict, but I think we need to 
find another concept. I see it as beyond just competition.
    Major General Dyess. I would not disagree with you, but 
that is our first cut on this to try to describe something that 
is short of armed conflict because if you just have yes/no, 
black/white, on/off armed conflict, no armed conflict or 2.9--
--
    Senator King. That will not do today.
    Major General Dyess. It is not good enough.
    Senator King. No.
    Major General Dyess. That is our first attempt at it. But 
we have incorporated some of that into our current doctrine and 
thinking especially in the area of space, cyberspace, 
electromagnetic spectrum, information operations, cognitive 
dimension of warfare. We are starting to develop things in 
those areas that answer that question.
    Senator King. It seems to me that this is an area where we 
have to really pay close attention to our allies because that 
is where this is going to happen. It is going to happen in the 
Baltics or it is going to happen--you know, it is already 
happening in the Ukraine. It is going to happen in other areas. 
We have got to have a very close relationship because they are 
on the ground and see it. That has been my observation. We are 
going to have to listen to how they expect to deal with it.
    Major General Dyess. So our first problem--and we have 
identified in the multi-domain battle those five problems I 
talked about. The first one is how do U.S. Forces deter the 
escalation of violence, defeat adversary operations to 
destabilize the region, and turn denied space into contested 
space should violence escalate? That is our first problem. I 
think it is very important to define the problem before you 
start chasing down solutions, and we identified that as one of 
the problems with this new framework in multi-domain battle.
    Senator King. Well, I am concerned that Russia can rebuild 
the Soviet empire without firing a shot by political 
manipulation and other kinds of I guess I call it subversion in 
some of these Eastern European countries. They are proving 
themselves pretty adept at that.
    Thank you, gentlemen. I appreciate it.
    Senator Cotton. Gentlemen, as I said, I would like to go 
through some more programmatic questions now, turning away from 
the big picture. Senator King, I will invite you to interject 
at any point where you might have anything to add. I will 
direct my question to one of the witnesses, but if anyone would 
like to volunteer for an answer, please feel free to jump in. 
If the question is directed towards you and you would like to 
volunteer one of your peers to answer, please do that as well.
    General Milley and Deputy Secretary McCarthy addressed a 
lot of the Army's top modernization priorities last year at the 
AUSA [Association of the United States Army] convention, so I 
will take my guidance in part from their remarks, the first 
among that is long-range precision fires. General Ostrowski, 
can you tell us where the long-range precision fires program 
stands today and when do we expect capability to reach the 
field?
    Lieutenant General Ostrowski. Yes, sir, I would be happy 
to. The long-range precision fires is in the technology 
maturity risk reduction phase. We have two competitors--
Raytheon, as well as Lockheed Martin--that will be providing us 
up to four missiles, for missiles exactly by the fourth quarter 
of 2019 in order to flight-test those missiles. We will flight-
test three of the four. From that point we will be able to 
determine just how close we are getting to the requirement of 
the 499 capability in terms of kilometers in the range. 
Depending on the maturity of what we get, the intent is to move 
into a milestone B on that program in second quarter of 2021 
and move forward from there. Again, it will all depend on where 
we stand in terms of the technology and how fast we can deliver 
this capability. Right now, worst-case scenario, 2027. The 
intent is to move that more towards 2025 or earlier, but it 
will all depend on how capable those missiles are in the fourth 
quarter of 2019.
    Senator Cotton. You mentioned 499. That is to remain 
compliant with the Intermediate Range Nuclear Forces Treaty?
    Lieutenant General Ostrowski. That is correct, sir.
    Senator Cotton. So it is now acknowledged openly by the 
United States Government that Russia is in violation of the 
treated. Of course, China is not a signatory to that treaty, 
nor is any other nation on earth, which means the United States 
is the only country that restricts its long-range missile 
development to under 500 kilometers. Do those restrictions 
inhibit the Army's ability to develop a long-range precision 
fire capability that can outrange Russian and Chinese threats? 
Does it put our forces at a disadvantage?
    Lieutenant General Murray. In terms of ballistic missiles, 
absolutely.
    Senator Cotton. Thank you. Let us move on, General Murray, 
since you volunteered for that question, to the next 
modernization priority. The next-generation ground combat 
vehicle, we are still, as I understand it, in a very early 
stage and unclear whether it would be a vehicle to replace the 
Bradley or the Abrams or both, is that correct?
    Lieutenant General Murray. Yes, sir, to be determined.
    Senator Cotton. So what is the Army leadership doing to 
analyze feasibility for foreign vehicle designs or component 
systems for suitability in this program?
    Lieutenant General Murray. Sir, right now, we are looking 
at all options to include foreign vehicle design and new 
development to be honest with you. You mentioned the Chiefs 
remarks not only at AUSA breakfast but in lots of other places, 
and he is very much focused on a 10X capability. He 
acknowledged some of the technologies do not exist, so some of 
the things we are looking for is alternative power, so get away 
from diesel turbine engines or piston engines. The Chief has 
been very clear on any future combat vehicle development will 
at least be optionally manned if not semiautonomous or 
autonomous so commanders at the point of contact will have the 
option to send the vehicle forward unmanned or manned.
    We are looking at the incorporation of probably simple AI 
at this point, so driver assist, 360 degree S.A., computer-
assisted targeting and acquisition functions within the turret. 
We are looking at absolutely an integrated active protective 
system on the next-generation vehicle, whichever one it is and 
both, enhance lethality, a lighter weight so we get away--the 
weight issues we have with the current generation of combat 
vehicles, and whatever we come up with, we have to account for 
operations in dense urban terrain, which I think the Chief has 
said.
    So that is a lot out there that may not exist right now, so 
what allies are developing, what Senator Warren said is being 
developed within the commercial industry, small business, 
universities, academia and the science and technology range, I 
mean, we have cast a wide net. But I go back to what I have 
said earlier; we cannot wait 20 years to develop this vehicle, 
so we have got to find a solution that we can develop fairly 
quickly that we can incorporate technologies as they mature in 
a relatively easy manner.
    Senator Cotton. If we turn to the contrast in the prior 
round of questioning to the modernization programs in the 
1980s, which by and large succeeded in the FCS [Future Combat 
Systems], which failed, one difference is that those 1980s 
programs were complementary and separate, not a single platform 
that was going to do all things for all people so that we if 
they failed like--I think there was an antiaircraft gun in the 
1980s that ended up failing. You still have your utility 
helicopter, your attack helicopter, so on and so forth. Would 
this next-generation combat vehicle put us at risk of something 
like the FCS again that we are trying to build a platform that 
can do multiple different roles? If it fails, then we fail 
across all those roles or functions?
    Lieutenant General Murray. Potentially, and I think that is 
something we have to keep in mind as we go forward. I think--
and I have read the report on the FCS. I think most of us have 
read the report on the FCS, and the Army senior leadership has 
committed not to make the same mistakes again. I think some of 
the mistakes we did is we bet on a technology and developed a 
platform around those technologies, and when those technologies 
did not deliver, the platform did not deliver.
    The intent is, as we have said before, Senator, is figure 
out what is physically possible from a technology standpoint to 
do today before we go into development and to make sure we 
build the space into the vehicle to incorporate technologies 
that we know are coming in the future. We do not want to 
deliver something the day you deliver it, it is obsolete.
    Senator Cotton. Let me turn to the third priority, active 
protection systems. Those are systems that are designed to 
protect vehicles from threats like RPGs or long-range antitank 
missiles. These are already fielded in Israel and Russia. The 
German army is beginning to acquire systems from one of its 
domestic producers. Sweden and Singapore are acquiring systems 
from Germany, and the United States Army has recently acquired 
three systems for testing for foreign and domestic designers, 
learning how to integrate their designs into Abrams, Bradleys, 
and Strikers. I think this is largely a good-news story, an 
example of how the Army can be more flexible and looking to 
foreign systems and commercially available systems. General 
Murray, can you discuss the status of this effort and the 
Army's recent position--or position on the recent DOT&E 
[Department of Operational Test & Evaluation] report that 
outlined some of the remaining technical challenges that we 
might encounter during the testing?
    Lieutenant General Murray. Absolutely, Senator. So we 
bought a very limited number of the Trophy system. You said 
integrated. It is really not integrated. It is installed on the 
Abrams tank. We took it through characterization. We took a 
through mobility testing, Yuma Proving Ground. We had some 
issues we have worked through, and we are fairly satisfied with 
where we are on the Trophy system. That was phase 1, the 
characterization phase. Phase 2, the testing phase is really 
what DOT&E pointed out in terms of working through everything 
else we have to in terms of testing. But we are fairly 
comfortable with where we are on the Trophy other than it is 
installed. It is not an integrated system on that tank. It is 
added weight, it is added width, and so it has really just kind 
of compounded our problem. But it is--through characterization 
we are very satisfied with it.
    Iron Curtain on the Striker and Iron Fist on the Bradley 
have had some issues over the last 6 months or so in terms of 
their characterization. It probably was to be expected. They 
are much less mature systems than Trophy was. Iron Fist is an 
Israeli system, and Iron Curtain is a domestically produced 
system. Iron Fist right now should--they have worked through 
their issues according to the engineers.
    We should start characterization on that system down at 
Redstone Test Center probably the end of this month, maybe 
beginning of March, and Iron Curtain is finishing up its 
characterization. Then we are going to fundamentally have to 
make a decision on really all three systems but in particular 
the last two. Part of, you know, failing and failing early is 
the willingness to walk away, and so basically, on what we have 
seen, are those the systems we want or are they not the systems 
we want? If they are not, some of the other systems you 
mentioned we would be willing to go look at before we make a 
decision.
    Then, ultimately at the end--and I just had a session on 
this yesterday--our integrated system, the MAP system (Modular 
Active Protection System), is our steppingstone of the future 
so that soldiers have common interfaces no matter what vehicle 
they are on. It gives a soft-kill, hard-kill capability. It 
gives a target acquisition capability so when you get shot at, 
you slew-to-cue. But it is the system that any effect or any 
radar, any EO/IR sensor can fit into, and it is completely 
integrated into the vehicle design.
    Senator Cotton. Thank you. Talking to a fourth priority, 
air defense, General Anderson, I will return to you since we 
discussed earlier. It has been at least since the Korean War 
since the United States ground forces have kind of, under 
sustained aerial attack--obviously the threats that we face 
from China and Russia, though, could mean that that kind of 
threat would return. You mentioned, you know, taking Stingers 
out of the warehouses. Stinger and Avenger have been in service 
for four decades I think. How confident are we in the ability 
of those weapons systems to effectively counteract threats from 
Russia and/or Chinese aircraft?
    Lieutenant General Anderson. That is why earlier there is 
no--we have never fought in this type of an environment, so 
what you are talking about, they are not capable, sir. So the 
issue becomes what is the next generation? Everything I talked 
to you about were additive things from sensors to radars and to 
provide some capability to give yourself a chance. But at the 
end of the day we have never faced something like that. So the 
issue becomes now, as we work the PAC-3 MSE, it has got to be 
in the munitions and it has got to be--and right now, it is a 
sheer function of--that is why when you talked about gaps 
earlier, we have got to restore BMD [Ballistic Missile Defense] 
capabilities at a much broader--we are short THAAD, we are 
short Patriot. We are moving--we are actually reallocating 
Patriots as we speak from one COCOM [combatant command] to 
another to deal with things on the Korean peninsula, and so 
that is the capability gap that we are focusing on in the near 
term as part of the modernization strategy. It is fires and BMD 
because we are shortchanged both by capability and capacity.
    Senator Cotton. So better than nothing, which is largely 
what we currently have?
    Lieutenant General Anderson. The Stinger thing was a 
purely--you know, it was amazing we pulled it off. It was a 
purely minimalistic approach to make sure that there was 
something. This also affects the Counter-UAS fight, so that is 
a whole different story, as you know, and there are about 19 
systems. That is a good news story how the Army went commercial 
off-the-shelf, used other existing systems from other countries 
and gave our soldiers about 19 options, so everything from 
lasers to drone defenders to LIDS to, you know, AUDS, all stuff 
that has worked. That was a game changer pretty quickly in 
Iraq. Now, the question becomes how effective are they going to 
be in places like the Korean Peninsula, Eastern Europe?
    Senator Cotton. Thank you. Let us turn to the fifth 
priority, which is kind of the opposite side of the same coin, 
future vertical lift and the vulnerability of our aircraft to 
enemy air defenses, in particular the Black Hawk replacement. 
There were some ambitious requirements that were laid out to 
travel twice as far and twice as fast compared to traditional 
helicopters in the same class. But at the same time, it is 
going to be facing a lot of new threats in terms of integrated 
air defenses and increasingly advanced manned portable air 
defense systems. What steps is the Army taking to make sure 
that that future platform can be survivable in that kind of 
environment?
    Lieutenant General Ostrowski. Mr. Chairman, I can take that 
particular question. You are very familiar with the joint 
multi-role tech demonstrator that we have going on right now, 
two different aircraft both with Boeing and Bell. We have had 
the flights go on with Bell in terms of the tilt rotor 
aircraft, and we have hope that by late this summer we will see 
the Boeing compound coaxial helicopter in flight. The efforts 
and the information that we will gain from both those tech 
demonstrators will allow us to be able to move forward in terms 
of our priorities of capability sets, whether it be 1, 2, or 
capability set 3, which these are based upon.
    Aircraft survivability with respect to that platform and 
our current fleet remains paramount to us. It is one of our top 
priorities within future vertical lift and the whole combat. So 
with respect to that, we are investing heavily with respect to 
the CMOS program, as well as getting after the ability to 
interdict the particular missiles while in flight. Now, this is 
tough because we are always shooting behind the duck. I think 
you know what I mean with respect to that. In order to defend 
an aircraft against a ground-based missile, you have to be able 
to confuse that missile. In order to do that, you must be able 
to take the steps necessary in order to create the software to 
execute that. That takes time and testing.
    We have to go after kinetic capability, one that is not 
dependent upon software in order to defeat or dazzle the 
particular surface-to-air missile. That is what we are trying 
to get after. That is the next step. Just like we have APS 
[Active Protection Systems] for our combat vehicle fleet in the 
future in terms of that, we have to have APS for our aircraft.
    Senator Cotton. What steps if any is the Army taking to 
promote the use of those future platforms across the joint 
force or with allied partners? I am always somewhat mystified 
when a multi-role, you know, workhorse is not as widely 
accepted outside of the Army as it ought to be.
    Lieutenant General Murray. The current program is a joint 
United States Marine Corps/United States Army program. I would 
say very limited interest right now from allies because they 
are kind of waiting to see where we go with this. As General 
Ostrowski mentioned, the CFT, the future vertical lift CFT 
obviously is very focused on this in terms of are we on the 
right path, are we on the right timeline, what are the critical 
capabilities we have got to look at? Because you mentioned, you 
know, we are looking for fundamentally different--we are 
changing the physics of rotary wing flight. To make sure we 
have got it right, that has become a focus, that we are on the 
right path to get there. I do think the joint multi-role 
demonstrator is potentially a way of doing things in the 
future. We have invested less than 50 percent, well less than 
50 percent of the money to develop these demonstrators. This is 
mostly an industry nickel, which is I think probably the right 
way to go as we get into the future for other major programs.
    Senator Cotton. How feasible would it be to have buy-in 
from the Navy or the Air Force for some of their rotary wing 
requirements? One constant question the subcommittee, in 
addition to the larger committee, explores, for instance, is 
the need for a rotary wing helicopter for the Air Force to 
maintain security and safety at its ICBM [Intercontinental 
Ballistic Missile] sites in the Western United States. Again, 
it is strange to me that a specialized helicopter is needed for 
that kind of mission.
    Lieutenant General Murray. I would agree with you, Senator, 
but right now, I think it is very much--the other services, 
much like our allies, are waiting for us to kind of figure out 
where we are going to take this. I do think, you know, if we 
are successful, obviously it would be a very capable aircraft 
that would be obviously a multi-role aircraft. I think they are 
waiting to see how much the aircraft will cost, what the 
capabilities of the aircraft are because each service has 
unique capabilities that we require in our aircraft. For us, it 
is about mobility on the objective, to get soldiers on and off 
the objective. The Marine Corps have a slightly different 
priority, the Navy has a different priority, and of course the 
Air Force has a different priority for their aircraft. But I do 
think it will be a very capable aircraft that potentially could 
be utilized by all four services.
    Lieutenant General Ostrowski. Senator, I would just add 
that this wheel has been created. The Black Hawk today the Air 
Force flies, the Black Hawk today the Navy flies, different 
variants and so forth. It was never a joint program to begin 
with, but the other services have adopted our material 
solution.
    Senator Cotton. Sixth, networks, especially mobile 
networks, WIN-T [War Fighter Network-Tactical] and DCGS 
[Distributed Common Ground System], I think you are all aware 
that this is something on which I focused for many years. 
General Ostrowski, what is the plan to repair the mobile 
network?
    Lieutenant General Ostrowski. Sir, again, our strategy is 
to halt those efforts in terms of WIN-T Increment 2 that we 
know are not going to work in a contested environment. We will 
build upon increment 1B, as we have. That is our system at the 
hull. We will buy modified pieces of Increment 2. In other 
words, what we have right now is for our NOSC [Network 
Operations Support Center] Light--our NOSCs and our TCMs, we 
have mobile capability, but it is capability placed on the 
family of medium tactical vehicles. We can shrink those down. 
We have been able to do so. That was just reported out in the 
DOT&E test that was released just recently with respect to NOSC 
Light and TCM Light. We owe that capability on the move to our 
SBCTs [Stryker Brigade Combat Teams] and our IBCTs [Infinity 
Brigade Combat Teams]. We will more forward with the purchasing 
of that.
    The rest of the money with respect to the network is going 
to go after the pivot and the fixed piece with respect to where 
we are going. I believe that you are aware that obviously we 
know what we have to do in terms of a network of the future. We 
have to find the transport mechanism, the transport layer 
first. That was clear in the IDA [Institute for Defense 
Analysis] report, and that is where we are going after. We have 
to modernize that piece. Once we get a transport layer and we 
decide what that is going to be in the future, we can then 
ensure that industry that wants to participate in our network 
of the future is able to link in to those standards and that 
architecture.
    In the meantime, between that network of the future and 
now, we have to continue to be able to fight tonight, so that 
means fixing what we have, which is our current strategy, and 
then buying incremental capabilities that we are finding with 
respect to the soft community because we have teamed greatly 
with them, as well as the Marine Corps, and have several 
solution sets for the individual soldier and battalion and 
below that we are going to move forward to in terms of 
experimenting and prototyping to get at a medium or an interim 
capability while we wait for that next-generation network.
    Senator Cotton. It seems like an area that is ripe for 
commercial off-the-shelf solutions.
    Lieutenant General Ostrowski. That is absolutely correct, 
Senator. The bottom line is that is exactly where we are going. 
Eventually, we would like to hopefully get to a point where we 
can buy this as a service. Now, that is the Chief's vision. 
That is where we are trying to push this things towards, and 
that is why we want to continue to give problem statements to 
industry as opposed to being very specific with respect to our 
requirements. Allow them the freedom to be able to offer 
solution sets based on what they know in terms of the capable 
and reasonable in terms of technology.
    Senator Cotton. General Anderson, I saw you nodding 
vigorously. Would you like to add anything?
    Lieutenant General Anderson. No, sir. Watching this for a 
couple years and all the testing which you just said, it is as 
plain as day. The stuff is out there, and we are trying to 
reinvent the wheel. The Net Warrior is the perfect example, a 
phone with apps. Soldiers love it.
    Senator Cotton. So if we could go back in time, we could 
just buy every soldier a smartphone and put some apps on it?
    Lieutenant General Anderson. Just like your AT&T bill, do 
it for our soldiers, a personal device.
    Lieutenant General Murray. That is one of the big 
initiatives, right? So they did not love it when it was a 
classified network, so one of the things we are looking at is 
how far down do classified networks need to go so the secure 
but unclassified network opens up all kinds of possibilities. 
You talk about commercial purchases. I mean, the key piece of 
Net Warrior is a mobile phone you can buy, you know, in the 
kiosk on the corner. I mean, that is the key piece of 
technology that is in that Net Warrior system.
    Senator Cotton. Okay. A seventh priority, let us get down 
to the frontlines, soldier lethality. General Murray, there has 
been a proliferation of body armor, specifically Russian and 
Chinese, specifically designed to defeat traditional 5.56 NATO 
ammunition, which is of course what our soldiers fire from 
their M4s. What are we doing to address what is a very serious 
issue for the soldier on the frontlines?
    Lieutenant General Murray. So we have several efforts 
ongoing, Senator. The first one would be the squad designated 
marksman rifle, which is the near-term gap. So that has a 7.62 
capability that gives us the ability to penetrate the most 
advanced body armor in the world, along with the advanced armor 
piercing round that is in development. We are accelerating the 
SDMR [Squad Designated Marksman Rifle] or the squad designated 
marksman rifle to 2018, so we will start fielding that in 2018. 
We had hoped to accelerate the ADVAP round, the advanced armor 
piercing round, to 2018 as well to line up with that, but we 
are about a year off, so we will develop that ammo, field it in 
2019. You can still fire 7.62 and you can still penetrate. You 
just cannot get quite the range you will with the next-
generation round. That is phase 1.
    Phase 2 is the development of what we are calling the next-
generation squad weapon. The first iteration will probably be 
an automatic rifle to replace the SAW, which is also a 5.56. We 
have been pushed on the M27, which the Marine Corps has 
adopted. That is also a 5.56, which does not penetrate, so we 
are going to go down the path of next-generation squad weapon 
automatic rifle first to be closely followed, I am hopeful, for 
either a rifle or a carbine that will fire something other than 
a 5.56. It probably will not be a 7.62. It will probably be 
something in between. Case telescoping round, probably polymer 
casing to reduce the weight of it.
    We have in the S&T community a demonstration weapon right 
now. It is too big; it is too heavy. But we have recently 
opened it up to commercial industry for them to come in with 
their ideas about how they would get to that. We have offered 
them some money to come in and prototype for us that type of 
weapon. We believe with that weapon with the new ammo we can 
achieve probably weights similar to the M4 5.56 ammo. The 
weapon will probably weigh a little bit more, the ammo will 
probably weigh a little bit less, and we can get penetration of 
the most advanced body armor in the world, probably well beyond 
even the max effective range of the current M4. That is what we 
see as a replacement for the M4 in the future, not the SDMR.
    Senator King. What is the time frame on that?
    Senator Cotton. I think he said 2018 for the SDMR.
    Lieutenant General Murray. When we started off--and, Paul, 
you can correct me--I think we were out around 2025 or 2026, 
and I think we are back to about 2023 now.
    Lieutenant General Ostrowski. Yes, I would just say that 
between the S&T effort that we have ongoing with Textron and 
the OTA, other transaction authority, that we are going to 
offer to other vendors in 2018, the intent is to try to do a 
fly-off between those particular companies by the end of 2021 
in order to provide some kind of capability by 2022 or 2023 at 
the latest.
    Senator Cotton. What was 2018? Was that the new squad 
designated marksman rifle?
    Lieutenant General Murray. Correct.
    Senator Cotton. How does that differ from the rifle that 
was carried the last decade in Iraq and Afghanistan I think was 
in 2014?
    Lieutenant General Murray. The EBR [Enhanced Battle Rifle]. 
It is a much better--the EBR was a modified and adopted M14, 
which was--it never got--I mean, it looked significantly 
different than anything else in the squad, so if you carried 
it, you looked like a target. This rifle was basically a 
variation of a sniper rifle so it is very accurate, but it is 
also capable of automatic fire.
    Lieutenant General Ostrowski. It certainly looks a lot like 
an M4.
    Senator Cotton. Okay. General Dyess, any thoughts beyond 
simply this question about penetrating Russian and Chinese 
armor, any broader thoughts about standard infantry squad kit 
and changes that might be coming to it?
    Major General Dyess. There are a couple things, Senator. 
Night vision devices, I think that there is some activity that 
could go on there. Expanding the combat footprint of whatever 
size unit, let us say a squad or a platoon. The use of a small 
micro or quadcopters for air, which is a much less complicated 
environment than on the ground. I think that there will be most 
likely some ground robotics that are out there, but it is a 
much more complicated area than in the air. So I think that you 
will see maybe some expansion of the battle space and maybe 
awareness of small units and night vision are two other areas 
that I think on the soldier lethality part.
    Senator Cotton. Putting the second one in layman's terms, a 
little drone with a camera on it?
    Major General Dyess. That is correct.
    Lieutenant General Murray. That is the equipment piece. I 
mean, there is also a significant effort going on in terms of 
treating the rifle squad as a weapons system. So we have 
continued to improve our own body armor, to lightweight it, to 
make it better. The weapons you have talked about, not only 
small arms but automatic weapons, antitank weapons, the Carl 
Gustaf, lightweighting that, and then probably as importantly 
is the nonmaterial solution, so how do we provide holistic 
fitness to, you know, what the Army exists to do, close with 
and destroy the enemy? How do we provide, you know, a--get the 
best and brightest and then provide them the holistic health 
and fitness and training materials? So in terms of simulations 
and synthetic training environments and how do you allow them 
to do multiple reps in some sort of very realistic synthetic 
environment so they get 100 reps before they go to battle for 
the first time?
    Senator Cotton. If I could just dig a little bit more on 
that because it was my last question on this topic about 
outfitting the infantry squad, infantry platoon for enemy tanks 
and enemy attack aircraft. Obviously, that is not a 
consideration that has been foremost on our minds over the last 
17 years on the modern battlefield. I mean, AT4s have been more 
about thinking who has to carry it in the STX lane. But if we 
are facing Russian and Chinese threats, they are obviously 
going to have main battle tanks and attack aviation, so could 
you just be a little more detailed about that, General Murray?
    Lieutenant General Murray. Yes, sir. I would start off by 
saying that no rifle squad fights by itself, and, you know, our 
experience in Iraq and Afghanistan I would never hesitate to 
send out a platoon by itself, but I never would send out a 
squad by itself just because of the combined arms effects of 
larger formations. If we are fighting that type of foe, I would 
guess in an ABCT [Armored Brigade Combat Team] I have got lots 
of antitank weapons, ways to deal with enemy tanks, SBCT less 
so but I have still got javelins and other ways of dealing with 
it. So really, the focus is the IBCTs, and that was part of the 
reason, although not designed to be toe-to-toe with a Soviet 
tank, is the mobile protective firepower to give the light 
IBCTs some ability to deal with targets that they are not 
organically equipped to do.
    Senator Cotton. It is going to be down to the platoon level 
or----
    Lieutenant General Murray. It depends on how the commander 
organizes them. It is one company per brigade, so it would 
depend on where that platoon was. Then there are other things 
like attack aviation that obviously can deal with----
    Senator Cotton. Okay. General Anderson, one final 
modernization priority I would like to turn to you on--it was 
not addressed to my knowledge at the AUSA [Association of the 
United States Army] by Secretary McCarthy or General Milley--
that is electronic warfare, Russian doctrine that is publicly 
available, say they view that as key asymmetric advantage 
against their adversary, namely us, both offensive and 
defensive. So, first, correct me if I am wrong but I do not 
think it was addressed by General Milley or Secretary McCarthy. 
If I am not wrong, why it was not, but also just give us an 
update on what the Army is doing to reconstitute electronic 
warfare forces and capabilities.
    Lieutenant General Anderson. It is all things multi-domain, 
sir, and trying to get a strategy, you know, all things 
electromagnetic spectrum. So we have still got a couple 
stovepipes here between the E.W. community, the cyber 
community, the signal community, you know, and how do we 
achieve effects, and that is why this I.Q. as we establish an 
intel, cyber, electronic warfare space cell that we are going 
to task-organize with 17 fire so you have got the lethal piece, 
and then you are going to attack this new--different icons to 
get synergy between those capabilities, and then we will go 
test it, as Bo was talking about, out in Pacific pathways and 
the exercises to figure out what we can do. You know, but all 
we are doing right now in Europe is through the Rapid 
Capabilities Office is taking different electronic warfare kit, 
putting it together, and trying to again--it is a jamming 
capability. But the reason why electronic warfare is so 
important, if you cannot find where the stuff is emitting from, 
it does not matter because the jammer will not be able to 
figure that out. That is why the synergy between the two are so 
critical.
    Senator Cotton. Okay.
    Lieutenant General Ostrowski. I would just add, Senator, 
that the Rapid Capabilities Office has put situational 
understanding capability in Europe now, okay? What we have is 
one platoon per brigade with respect to the second ACR [Army 
Calvary Regiment], two on ABCT and 173rd Airborne Division. But 
what we have, sir, is a couple of different items. One is a 
VROD/VMAX which is a ground-based, soldier-based dismounted 
system that is able to D.F. signals of interest.
    Sabre Fury is another capability. It is a mounted platform 
on a Striker, for instance, that also has line of bearing. 
Through that, the combination of those two efforts, along with 
Raven Claw, which basically is the computer that puts it all 
together, we have commanders able to have the situational 
understanding of signals of interest in their area. They then 
have the opportunity to do two things, either strike that 
particular capability with respect to indirect fires or they 
have the ability to jam it, a limited jamming capability. 
However, it is limited in terms of its jamming capability. That 
is the concern that we have. It does not stand up to what our 
foes, our near-peer and peer competitors, have in terms of 
their inventories, and that is the crux of the problem. We have 
taken risk in this area for too long.
    Lieutenant General Murray. I think to add on to General 
Ostrowski, so none of that is the program of record. I think 
that is a great example, and it is really our Rapid Capability 
Office that is doing the prototyping and the demonstrating 
before we write a requirements document so we fully understand 
what is available and what it is we need.
    Senator Cotton. Okay. Senator King?
    Senator King. One other question, as we were talking about 
all these systems, do you have any systematic red-team approach 
to trying to find flaws? In other words, somebody whose job it 
is to say why this will not work and to attempt to prove it, is 
that built into the system? I think that is often a valuable 
approach.
    Lieutenant General Murray. There are plenty of people who 
say this will not work, and our Chief of Staff is probably, you 
know, first and foremost----
    [Laughter.]
    Senator King. That is----
    Lieutenant General Murray. But I am actually honest, 
Senator. So, you know, the one thing that has changed since I 
think it was NDAA '16 that the Chief back, you know, into the 
acquisition process----
    Senator King. In the process.
    General Murray.--is that there is one person in the Army 
that questions our requirements and questions, you know, how 
fast we are going, whether what we do will actually work. It is 
the Chief. I mean, he is very involved. So if that was the 
intent of Congress to get the Army senior leaders involved in 
the requirements, in the acquisition process, it absolutely 
worked.
    In terms of a formal red team, I mean, there is nothing I 
am tracking----
    Major General Dyess. Just the experimental stuff, sir, that 
we do, where we put things in the hands of soldiers, and they 
have no restrictions in telling us what they think, and thank 
goodness for that.
    Lieutenant General Anderson. If I could add, Senator, that 
was one of the benefits of not having a dedicated brigade for 
testing. The last summer we did a test, we used a nonstandard 
brigade, and the soldiers were not afraid to say--they were not 
used to doing NIEs [Network Integration Education] every year. 
It was not the same unit, so when you introduced a new unit, 
they gave a lot more different perspectives than the unit at 
Fort Bliss did because they had seen this stuff multiple times, 
so there are benefits to rotating who the test unit is to get 
new hands on the equipment, new eyes on the kit, et cetera.
    Senator King. I think that is an important part of the 
process.
    Lieutenant General Anderson. We did not see it that way at 
first, but it fell out that way.
    Senator King. Thank you. Thank you, Mr. Chairman.
    Senator Cotton. The Chief has been very focused on these 
problems, and I think he has brought a very dynamic leadership 
to them. I remember when he first came on and we were speaking 
about the new Army pistol RFP, which was 350 pages, and he 
suggested that maybe we should just go to Fort Bragg and get a 
few gun lovers there to ask them what the best ones are and 
then go to Walmart or Cabela's and buy 50,000 of them. So we 
did not exactly do that----
    Senator King. We can get a deal, too.
    Senator Cotton. Yes, we did not exactly do that, but it was 
much better than the 350-page RFP.
    So I will close with the lesson that you can take away from 
that, I think. You know, Army doctrine says that leadership is 
the most dynamic element of combat power. Secretary Gates in 
his memoir of his time at the Department of Defense wrote about 
the relationship between Congress and senior department 
managers. Congress can only do so much. We can provide you the 
budgetary resources you need and some legal authorities, but 
usually, when Congress tries to solve a problem, is solves it 
with a meat cleaver, not a scalpel. In the end there is no 
substitute for leadership from the Secretary on down to the 
general officers and the programmatic leaders, and we really do 
depend on all of you and the men and women who work alongside 
you in the Department. So I want to commend you for the efforts 
that you have undertaken and encourage you to continue to do so 
to make sure that our modernization needs are fully met.
    General Dyess, I assume this is your final testimony in 
front of the Congress?
    Major General Dyess. Sir, I have not received any other 
notices yet.
    [Laughter.]
    Senator Cotton. General Murray, General Anderson, will this 
be your final appearance for some time?
    Lieutenant General Anderson. My fate is undetermined, 
Senator.
    Lieutenant General Murray. Mine as well, but if I have 
anything to do with it, yes, sir.
    [Laughter.]
    Senator Cotton. I will ask, so you are undetermined but 
General Dyess is not. I will ask you what is preferable, a day-
one Ranger School recycle or congressional testimony?
    Major General Dyess. I would rather come over here and talk 
to you, Senator.
    [Laughter.]
    Senator Cotton. All right. Gentlemen, thank you very much 
for your service to the country. Thank you for your appearance 
and your testimony. This hearing is adjourned.
    [Whereupon, at 5:16 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Dan Sullivan
            jparc for advanced air and ground joint training
    1. Senator Sullivan. Lieutenant General Anderson and Major General 
Dyess, in the hearing I mentioned the lack of advanced air-land battle 
and training exercises and that General Milley has been talking about 
much bigger training exercises as a way to integrate the entire force 
with combined arms. There's an NDAA provision that takes a look at 
that. I asked if you considered the Joint Pacific Range Complex (JPARC) 
in Alaska, which has a land space the size of Delaware, airspace for 
fifth generation aircraft the size of Florida and naval sea space the 
size of Virginia.
    You responded that you are conducting an exercise in May in Germany 
with participation from some of allied partners from the U.K., France, 
and Germany.
    But this is a joint fight and you can't do that in Army-only ranges 
with just Army units. Would you agree that the JPARC is an ideal 
location for the type of advanced integrated training we will need to 
counter high-end and near-peer threats? How do you plan to utilize this 
amazing training space?
    Lieutenant General Anderson and Major General Dyess. The Army 
recognizes the unique and important training opportunities at the Joint 
Pacific Range Complex (JPARC). The facilities and infrastructure within 
the JPARC can enable scenarios supporting advanced integrated training 
to counter high-end and near-peer threats. Readiness of joint 
formations to fight large-scale integrated battle campaigns is 
primarily the responsibility of combatant commanders and accomplished 
through joint exercises. The Army participates in integrated training 
at JPARC when Army Forces are required to support combatant commander 
or joint staff exercises. The Army has also used the JPARC footprint to 
carry out the United States Army Pacific's (USARPAC) Joint Pacific 
Multinational Readiness Capability (JPMRC) training events.
                  evolution of missile defense mission
    2. Senator Sullivan. Lieutenant General Anderson, Lieutenant 
General Murray, Lieutenant General Ostrowski, for the past 60 years, 
U.S. Army Space and Missile Defense Command/Army Forces Strategic 
Command and its predecessors have served the nation advancing missile 
defense capabilities. The National Defense Strategy clearly prioritizes 
``missile defense'' stating, ``Investments will focus on layered 
missile defenses and disruptive capabilities for both theater missile 
threats and North Korean ballistic missile threats.'' In a new 
strategic environment where the ``reemergence of long-term, strategic 
competition'' with nations like Russia and China dominates on a ``ever 
more lethal and disruptive battlefield,'' how do you see the U.S. 
Army's missile defense mission evolving and how will the U.S. Army work 
to ensure that critical defense capabilities--to include homeland 
missile defense sites and strategically located airfields--are fully 
defended against adversary aggression or coercion?
    Lieutenant General Anderson, Lieutenant General Murray, Lieutenant 
General Ostrowski. First and foremost, the Ground Based Midcourse 
Defense (GMD) system provides the active defense component of our 
Homeland Defense against limited ICBM attack from rogue nations. The 
National Security Strategy and National Defense Strategy rely on our 
strategic nuclear forces as the foundation of a comprehensive 
deterrence against nuclear and non-nuclear strategic attacks from 
adversaries such as North Korea and Iran. Missile defense, an important 
component of this deterrence, addresses a limited conflict scenario and 
reduces the effects of a limited attack without encroaching on the 
strategic balance between near-peers. While current policy relies on 
deterrence to avoid conflict with near peer nations, we maintain our 
ability to develop and operate regional defense to protect our forces 
and reassure our allies and partners. The Army is looking at the 
missile defense mission using a holistic approach--one that addresses 
the entire life cycle of the threat. This could reduce the cost of 
engagement by better leveraging offensive and defensive options, 
thereby increasing our survivability and interceptor capacity. 
Regionally, the Army is investing in cruise missile defense 
capabilities (Indirect Fire Protection Capability--IFPC), increased 
capacity in PAC-3 Missile Segment Enhancement (MSE) interceptors, and 
upgrading the Patriot force with both hardware and software, including 
development of an upgraded sensor (LTAMDS). The highest priority within 
the Army AMD force is the protection of the maneuver force. The Army is 
developing a capability to defend the maneuver force against unmanned 
aircraft and fixed/rotary wing aircraft.
                     extreme-cold weather training
    3. Senator Sullivan. Lieutenant General Anderson, Lieutenant 
General Murray, and Major General Dyess, given the volatility on the 
Korean Peninsula, what actions does the United States Army need to take 
to ensure that the brigades operationally-controlled by USPACOM 
received the needed cold-weather equipment and training that allows 
them to survive, maneuver, fight, and win in potential contingency on 
the Korean Peninsula?
    Lieutenant General Anderson, Lieutenant General Murray, and Major 
General Dyess. Combatant commanders and Army Force Providers determine 
unique equipment and training requirements for the theater and any 
specific operational tasks. ECWCS is a standard issue. The Army 
provides ECWCS New Equipment training to soldiers during fielding, 
including instruction and equipment fact sheets. Unit leaders are 
responsible for conducting sustainment training after initial fielding. 
The cold-weather found on the Korean Peninsula is just one of many 
conditions of the operational environment. Army commanders consider 
cold weather, mountainous terrain, urban environments as well as 
austere conditions as they plan training in support of deployments to 
the U.S. Pacific Command area of responsibility. The Army has pre-
deployment training guidance to commanders to ensure brigades are 
prepared to maneuver, fight and win in varied conditions. U.S. Forces 
Command pre-deployment training guidance requires unit preventative 
medicine personnel or medical providers to conduct cold and hot weather 
injury prevention training for all soldiers prior to deployment.

    4. Senator Sullivan. Lieutenant General Anderson, Lieutenant 
General Murray, Major General Dyess, does the U.S. Army have plans to 
look into sending platoon/squad leaders to the Northern Warfare 
Training Center (NTWC)--or a similar school--to ensure that, at a 
minimum, its leaders are trained in the basics of using the Extended 
Cold Weather Clothing System (ECWCS)?
    Lieutenant General Anderson, Lieutenant General Murray, and Major 
General Dyess. The Army provides training opportunities for platoon, 
squad and other leaders and soldiers at the Northern Warfare Training 
Center (NWTC). At the NWTC they are trained in the knowledge and skills 
required to successfully conduct small unit operations in a cold, snow-
covered environment. There are two courses offered there--a Cold 
Weather Leaders Course and a Cold Weather Orientation Course. Both 
place emphasis on the use of cold weather clothing and equipment. 
Training specific to the Extended Cold Weather Clothing System (ECWCS) 
is mission specific unit training. Army leaders at all levels are 
trained to identify factors that will leave soldiers more vulnerable to 
cold weather injuries. Proper wear and use of the ECWCS is one way to 
mitigate cold weather risks. Training on proper use of the ECWCS is an 
application of general principles of cold weather survival training and 
how to dress using layers of clothing to match the environment. Some 
Army Forces can conduct cold weather training at their home station, 
where they have cold weather climates, such as Fort Drum, New York, 
Fort Carson, Colorado, Fort Lewis, Washington, and at the Army Mountain 
Warfare School in Vermont. When units conduct cold weather training in 
below-zero temperatures, the training serves the additional purpose of 
providing soldiers an opportunity to practice wear of extreme cold 
weather gear. Wearing the gear while operating in sub-zero temperatures 
assists in increasing soldiers' confidence in their equipment.
                               __________
                Questions Submitted by Senator Ted Cruz
                          future vertical lift
    5. Senator Cruz. Lieutenant General Murray, in 2011, the Department 
published Future Vertical Lift: A Strategic Plan for United States 
Department of Defense Vertical Lift Aircraft which made a compelling 
case for replacing the current fleet of vertical lift aircraft with new 
and advanced capabilities through 2050.
    The report went on to say that most decision points for the DOD 
vertical lift fleet to either extend the life, retire, or replace with 
a new platform would occur by the mid-2020s.
    I am encouraged by the Army's commitment to such a strategy through 
your Joint Multi-Role Technical Demonstrations (JMR TD) designed to 
investigate real design possibilities and technologies. I am also 
encouraged by the inherent joint nature of the program to date and the 
direction I see the Future Vertical Lift family of aircraft going in 
the future.
    With the vast majority of DOD's vertical lift fleet, residing 
within the medium lift category, the Strategic Plan called for early 
decisions on Capability Set 3 aircraft. Are the Army's priorities still 
aligned with the DOD Strategic Plan for Future Vertical Lift with 
regard to Capability Set 3?
    The JMR TD effort appears to have been a successful government-
industry partnership to investigate new technologies and capabilities. 
Please describe JMR TD lessons learned and their applicability to the 
Army's future modernization efforts and FVL.
    Lieutenant General Murray. The Army's current priorities are 
aligned with the Department of Defense (DOD) Strategic Plan for future 
of Vertical Lift with regard to Capability Set 3 and have been 
thoroughly intertwined in DOD's Executive Steering Group (ESG) chaired 
by the Office of the Under Secretary of Defense (Acquisition and 
Sustainment) and the Joint Staff J8, with General Officer membership 
from all of the Services. To support the ESG, the Army leads three of 
the four Integrated Product Teams (Science and Technology; 
Requirements; and Acquisition) developing the framework and 
documentation to support the Future Vertical Lift (FVL) Family of 
Systems (FOS). The Joint Multi-Role (JMR) program is an Army-led 
Science and Technology effort designed to demonstrate innovative 
vertical lift technologies to inform the FVL effort. The JMR air 
vehicles were designed to demonstrate critical technologies anticipated 
for Capability Set 3. The JMR Technical Demonstrations will reduce the 
overall risk to Capability Set 3, inform requirements development, 
reduce the time to mature technology during the Technology Maturation 
and Risk Reduction phase, and support critical program decisions, to 
include the Analysis of Alternatives completion and Milestone 
decisions. The FVL Cross Functional Team (``CFT'') is also evaluating 
additional options and capabilities to address future peer/near peer 
threats and capabilities.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                       future vertical lift (fvl)
    6. Senator Blumenthal. Lieutenant General Anderson, Lieutenant 
General Murray, Lieutenant General Ostrowski, and Major General Dyess, 
can you provide an update on how the Army's Future Vertical Lift (FVL) 
Program is progressing? What are you doing to develop the next 
generation of aviation platforms through the Future Vertical Lift 
Program? How can Congress best support these efforts?
    Lieutenant General Anderson, Lieutenant General Murray, Lieutenant 
General Ostrowski and Major General Dyess, The Future Vertical Lift 
program will provide a family of vertical lift platforms that deliver 
next generation capabilities at the tactical, operational, and 
strategic levels. The FVL FOS currently consists of Capability Set (CS) 
1 (Recon/Attack), Future Unmanned Aircraft Systems (FUAS), and 
Capability Set (CS) 3 (Utility/Lift). The FVL program is preceded by 
the Joint Multi-Role Technology Demonstration (JMR-TD) Science and 
Technology initiative with flight demonstrations scheduled to take 
place during fiscal year 2018 to fiscal year 2019.

    <bullet>  Capability Set 1 is an Armed Scout able to dominate 
maneuver and execute recon, attack and electronic warfare in peer/near 
peer conflict. The critical system attributes focus on increased Speed, 
Combat Radius, and Endurance while enhancing Survivability.

    <bullet>  FUAS is the next generation family of UAS focused on 
survivability, advanced teaming, multi-functionality, and optimized for 
Anti-Access/Area Denial.

    <bullet>  Capability Set 3 is the next generation Lift, Assault and 
MEDEVAC asset that integrates new technology, materials, and designs 
that increase speed, range and payload.

    <bullet>  FVL will integrate a common ``Digital Backbone'' across 
multiple platforms to provide rapid integration of future advanced 
capabilities to reduce the time it takes to field new capabilities to 
the warfighter.

    <bullet>  FVL will focus on affordable life cycle early and 
emphasize reliability and maintainability with the goal of increasing 
Operation Availability and reduce logistics footprint. In November 
2016, the Army identified FVL as one of its key modernization 
priorities and was chartered as part of the eight agile cross-
functional teams (CFT). The FVL CFT will leverage the expertise of 
industry and academia as needed to accelerated vertical lift 
capabilities requirements and disruptive technologies. Congress can 
best support the FVL effort by providing positive and stable support as 
well as fully funding FVL well into the future.

    7. Senator Blumenthal. Lieutenant General Murray and Lieutenant 
General Ostrowski,the Army's new Futures and Modernization Command is 
on track to stand up this summer, with the current plan to appoint a 
General Officer for each of the Army's Cross-Functional Teams (CFTs) 
across the six modernization priorities, with the exception of the 
Future Vertical Lift (FVL) team. Should the Army appoint a General 
Officer to oversee the FVL CFT?
    Lieutenant General Murray and Lieutenant General Ostrowski. A 
general officer is assigned to lead the FVL CFT. Brigadier General (BG) 
Walter Rugen is the Director; he was in the process of being promoted 
to BG when he was assigned to the FVL CFT.
                army europe: operation atlantic resolve
    8. Senator Blumenthal. Lieutenant General Anderson and Lieutenant 
General Murray, can you provide us an update on Army Europe's Operation 
Atlantic Resolve efforts to deter Russia? What are the Army's plans for 
continued security cooperation exercises and interoperability training 
efforts with NATO allies and partners?
    Lieutenant General Anderson and Lieutenant General Murray. The Army 
continues its heel-to-toe rotations of an Armored Brigade Combat Team 
(ABCT) and a Combat Aviation Brigade (CAB) which enhances deterrence 
capabilities, and increases the ability to respond to potential crises 
and defend our Allies and partners in the European community. The 
continued build of Army equipment sets for Army Prepositioned Stocks 
(APS) in the Netherlands, Belgium, and Germany, which will contain a 
division headquarters, two ABCTs, fires brigade, sustainment brigade, 
and other capabilities, provides United States Army Europe (USAREUR) 
additional combat power to quickly respond to potential crises in NATO 
sovereign territories. Through exercises such as Dynamic Front 18, 
Saber Strike 18, and Saber Junction 18, elements of the 2nd ABCT, 1st 
Infantry Division and 1st Cavalry Division CAB are conducting bilateral 
and multilateral training exercises in the Baltic States, Poland, 
Hungary, Bulgaria, and Romania to improve partner capability and 
interoperability, and assure Allies and partners. Collectively, these 
activities improve the confidence of our Allies and partners by 
demonstrating U.S. military capability and intent to compete against 
Russia's malign influence and indirect action in the region.

    9. Senator Blumenthal. Lieutenant General Anderson and Lieutenant 
General Murray, as the Army plans on conducting rotations for armored 
and aviation brigades into the foreseeable future, how do operations 
like Atlantic Resolve impact Army Modernization efforts? How are your 
efforts contributing to strengthening our deterrence capabilities? How 
can Congress best assist these efforts?
    Lieutenant General Anderson and Lieutenant General Murray. The 
heel-to-toe rotations of Atlantic Resolve contribute significantly to 
our deterrence posture in Europe and continues to inform future 
modernization efforts across the Army. Through the use of European 
Deterrence Initiative (EDI) funding, operations like Atlantic Resolve 
highlight an increased demand for modernizing our long range fires, air 
defense, and other critical capabilities to counter Russian aggression. 
In addition to informing modernization efforts, the Army is placing its 
most modern equipment in Europe in support of Atlantic Resolve (e.g. 
Tanks, Bradley Fighting Vehicles, Self-Propelled Howitzers, Multiple 
Launch Rocket System (MLRS) Launchers, and Air Defense platforms) to 
further deter Russian aggression. Although the recent two year budget 
passed by Congress is an important step at more stable funding, 
Congress can best assist the Army by providing both predictable and 
consistent funding levels.
                                 cyber
    10. Senator Blumenthal. Lieutenant General Anderson, Lieutenant 
General Murray, and Major General Dyess, in addition to Secretary 
Esper, General Neller has stressed proficiency in traditional methods 
and skills by mastering basics in communication and navigation off the 
network to counter advanced adversaries. How is the Army balancing the 
need to train off the grid, while also developing and deploying new, 
advanced technologies?
    Lieutenant General Anderson, Lieutenant General Murray, and Major 
General Dyess. Based on the nature of today's threats, the Army 
continues to train and practice basic skills in communications and 
navigation while also providing soldiers advanced electronic systems 
and training. All Army Centers of Excellence instruct soldiers to 
develop and practice a communication Primary, Alternate, Contingency, 
and Emergency (PACE) plan. A PACE plan facilitates a soldier's ability 
to communicate in the event that one or more communication systems 
fail. With respect to navigation, at all basic, commissioning, and new 
officer and noncommissioned officer courses, soldiers are trained and 
tested on navigation without the aid of electronic devices. During 
other courses, such as Ranger School and Reconnaissance and 
Surveillance Leaders Course, additional periods of navigation 
instruction and testing without the aid of electronic devices are 
provided. In addition to training on degraded communications and 
navigation systems, institutional training on weapons that are .50 
caliber and below begin without the aid of any electronic optical 
devices. Larger weapon systems, such as the M1A2 Abrams Main Battle 
Tank or M109A6 Paladin, rely significantly on electronics to engage 
targets. Courses at the Fires Center of Excellence and Maneuver Center 
of Excellence teach soldiers to identify and engage targets with their 
main gun in a degraded mode, or when there is a loss of electrical 
power. Additionally, the Army practices the concept of mission command. 
The purpose of mission command is to enable disciplined initiative 
within the commander's intent, and empower agile and adaptive leaders. 
Empowered leaders may make timely adjustments in response to changes in 
their operational environment in the absence of orders. Mission command 
allows the mission to continue in an environment where access to 
networks or electronics are degraded or denied.

    11. Senator Blumenthal. Lieutenant General Anderson, following 
reports of Russia targeting personal smartphones of NATO troops, what 
is being done to protect our soldiers and counter Russia's intrusions? 
What is being done to educate our soldiers?
    Lieutenant General Anderson. United States Army Europe (USAREUR), 
as well as Commands across our Army, have produced briefs and training 
aids to assist commands in educating soldiers that there are both 
tremendous opportunities and vulnerabilities that accompany the 
convenience and capabilities associated with today's cell phones and 
personal electronics. Servicemembers are being educated to understand 
that they are vulnerable to four major threats in the cyber domain: 
cyber-attack, cyber espionage, cyber targeting, and cyber theft--
including identity theft and criminal activity. Servicemembers realize 
that the threat from terrorist groups with global reach and ambitions, 
and the threat from criminal syndicates and nation-states in cyberspace 
is very real. Commanders at every echelon have the discretion to impose 
a prohibition on the use of personal electronic devices in conjunction 
with any and all official activities, including training and 
deployments. USAREUR soldiers, in particular, receive both Pre-
deployment and Re-deployment Operations Security (OPSEC) training which 
includes vulnerabilities and threats to cell phones and other personal 
electronics.

    12. Senator Blumenthal. Lieutenant General Anderson and Lieutenant 
General Murray, while Russia's targeting of servicemembers for 
intelligence is not new, personal smartphones provide significantly 
more knowledge about a person than was easily accessible in the past. 
In what ways are you ensuring this vulnerability is not having an 
impact on our soldiers in Eastern Europe?
    Lieutenant General Anderson and Lieutenant General Murray. United 
States Army Europe (USAREUR) maintains a robust Operations Security 
(OPSEC) program which requires both annual OPSEC training and 
continuous OPSEC awareness briefings. All rotational units receive both 
Pre-deployment and Re-deployment OPSEC training. The same OPSEC 
training is provided to soldiers permanently assigned to the European 
theater. OPSEC training is also provided to Family Readiness Groups. 
USAREUR has produced briefings and training aids to assist commands in 
educating soldiers on the tremendous vulnerabilities associated with 
personal electronics and to assist soldiers and family members with 
maximizing their personal electronics security settings.
                 improved turbine engine program (itep)
    13. Senator Blumenthal. Lieutenant General Ostrowski, does ITEP 
remain the Army's number one aviation modernization priority? What is 
the near and long term development timeline for ITEP? Are you planning 
to fully fund ITEP in fiscal year 2019 and beyond?
    Lieutenant General Ostrowski. The Army's Improved Turbine Engine 
Program (ITEP) remains one of Army Aviation's top modernization 
priorities. The ITEP will provide the current fleet of H-60 and AH-64 
helicopters with a new turbine engine that provides significantly more 
horsepower, lift capability, endurance, and greater reliability. This 
will extend the viability of our current fleets as we transition to 
future capabilities. In the second quarter fiscal year (FY) 2019, the 
program is scheduled for a Milestone (MS) B decision. The Engineering 
and Manufacturing Development (EMD) phase includes the award of a 
contract to one vendor, and followed by platform/engine integration 
design. fiscal year 2020 continues both the EMD effort and platform/
engine integration, A-kit development. fiscal year 2021 provides for 
First Engine To Test (FETT), and begins physical airframe integration. 
fiscal year 2022 will provide Preliminary Flight Rating testing, 
leading to an Air Worthiness Rating. In fiscal year 2023 we will 
conduct aircraft flight/qualification testing for both Apache and Black 
Hawk. In fiscal year 2024, the program is scheduled for a MS C decision 
with the award of the Low Rate Initial Production contract. In fiscal 
year 2026, the program will seek a Full Rate Production decision and 
achieve Initial Operational Capability in fiscal year 2027. The ITEP is 
meeting cost and schedule expectations and requirements remain stable. 
It is fully supported by Army leadership and fully funded through the 
POM.
                  f-35 integration in missile defense
    14. Senator Blumenthal. Major General Dyess, as the Army modernizes 
toward a more lethal force, how does the Army plan on integrating the 
capabilities of the F-35 into its air and missile defense 
architecture--specifically ballistic missile defense? What actions will 
the Army take with the other services, who all field the F-35, toward 
incorporating the F-35 into missile defense?
    Major General Dyess. The Army fights as part of a Joint Integrated 
Air and Missile Defense Architecture of which F-35 is already a part. 
In November of 2017, the U.S. Navy successfully integrated the F-35 
with the Aegis Combat System and took a significant step toward 
enabling multi-domain capabilities among the Services. We anticipate 
the Services will be able to leverage the F-35's robust sensor suite 
capabilities to increase interoperability and enhance operational 
effectiveness. In particular, the Army will be able to leverage this 
recent and future F-35 integration with other DOD assets operating in 
the multi-domain battlespace to support cross-domain fires. Today the 
technical integration for ballistic missile defense is being led by 
Missile Defense Agency as the Technical Authority for the Joint 
Integrated Air and Missile Defense and within their responsibility for 
Joint engineering and integration. The Army will continue to ensure we 
learn and account for Joint contributions to air and missile defense in 
our requirements, architecture, prototyping and system development, in 
our learning venues such as experimentation and wargaming, and in our 
other supporting processes.
                 army short range air defense artillery
    15. Senator Blumenthal. Lieutenant General Anderson and Lieutenant 
General Ostrowski, how does the Army plan on modernizing its capability 
gaps with short-range air defense artillery?
    When will the Indirect Fire Protection Capability be operationally 
ready and deployable? Should the Army consider near-term options given 
the operational success of the Israeli Iron Dome, and could the Army 
utilize the United States variant of the Iron Dome system--known as Sky 
Hunter--to serve as an immediate stop-gap solution?
    Lieutenant General Anderson and Lieutenant General Ostrowski. The 
Army is addressing the Short-Range Air Defense (SHORAD) capability gaps 
through Indirect Fire Protection Capability (IFPC) and Maneuver-SHORAD 
(M-SHORAD), providing a complimentary tiered and layered air defense. 
First, Maneuver-SHORAD is focused on defending a maneuvering force from 
Rotary Wing (RW), Fixed Wing (FW), and large Unmanned Aerial Systems 
(UAS) threats. In the early 2000's, the Army divested this capability 
and its Air Defense Artillery (ADA) due to the lack of credible air 
threat. In the near-term, we are planning to field four battalions by 
fiscal year 2022; the first battalion will be activated in fiscal year 
2019. We are also now training Stinger teams to support Brigade Combat 
Teams, as well as modernizing the Stinger missile to increase 
capability against small UAS threats using a proximity fuse. IFPC is 
focused on defending more vulnerable fixed and semi-fixed assets from 
cruise missile (CM), RW, FW, UAS, Rocket, Artillery, and Mortar (RAM) 
threats. The first IFPC battery will be deployable in fiscal year 2021. 
In the mid-term (fiscal year 2025), we envision combining the 
capability of IFPC and M-SHORAD into a composite battalion construct. 
We are also conducting Avenger modernization to extend the service life 
until IFPC is fielded to all seven Army National Guard (ARNG) 
battalions and three Regular Army (RA) battalions. The Army is 
currently conducting a Capability Based-Assessment (CBA) comparing 
IFPC, Iron Dome, and Norwegian Advanced Surface-to-Air Missile System 
(NASAMS) capabilities, in response to Congressional inquiries. More 
analysis is needed to determine the impacts of purchasing a non-U.S. 
weapon system and creating compatibility with our own networks/systems. 
As a foreign-designed, and largely foreign-built system, Iron Dome / 
SkyHunter does not have a viable near-term path for integration onto 
U.S. networks due to cyber security and compatibility challenges. It is 
also not compliant with United States Military Standards, including 
U.S. Insensitive Munition requirements, and is untested in alternative 
environments and for operations within the joint force Link 16 
architecture. The primary capability gap that Iron Dome would solve is 
in defeat of the Rocket, Artillery and Mortar threat. The Army is 
currently mitigating this threat with the Land-Based Phalanx Weapon 
System (LPWS) which is operationally supporting deployed forces. IFPC 
will add an initial Counter Rocket, Artillery and Mortar capability in 
fiscal year 2023 with the Expanded Mission Area Missile (EMAM) (which 
includes SkyHunter as a candidate solution).
                               __________
               Questions Submitted by Senator Gary Peters
                              stryker ecp
    16. Senator Peters. Lieutenant General Ostrowski, the Engineering 
Change Proposal for Stryker restores off-road mobility, increases 
electrical power, and improves the suspension and communications. This 
ECP provides enhanced capability and better serves soldiers. Will the 
Army continue to invest in these critical improvements for the Stryker 
fleet and ensure they are fielded rapidly?
    Lieutenant General Ostrowski. Yes. The Army recognizes the 
advantages of the Engineering Change Proposal (ECP) for the Double-V 
Hull (DVH) Stryker. We are currently exploring options to apply the ECP 
to our current DVHs and the older flat-bottom Strykers that we are 
converting to DVHs. The overall intent is to ensure that all Stryker 
Brigade Combat Teams are equipped with DVH vehicles--as fast as 
resources will allow.
                           stryker lethality
    17. Senator Peters. Lieutenant General Murray, the Fiscal Year 2018 
National Defense Authorization Act authorized an additional $177 
million for the Stryker lethality upgrade from the Army's Unfunded 
Requirements list. If funding to provide for a full set of 81 Strykers 
with the 30mm cannon upgrade is not provided in fiscal year 2018, would 
the Army support funds to complete that effort in fiscal year 2019?
    Lieutenant General Murray. The requirement for Stryker lethality 
upgrades remains valid. If the fiscal year 2018 NDAA authorization 
levels for Stryker lethality are not appropriated, the Army would 
consider this requirement again for fiscal year 2019 relative to other 
high-priority unfunded requirements. The Army is currently awaiting 
feedback from the first Stryker Lethality fielding in Europe before 
determining a final lethality solution and procurement quantity. With 
two primary lethality Courses of Action available--30mm Medium Caliber 
Turret, or a Remote Weapon Station with Heavy Machine Gun and Javelin 
Missile--the Army's intent is to ensure that the appropriate lethality 
solution for the Stryker fleet is informed by all available means 
before committing to a specific lethality solution or mix of solutions.
                                 shorad
    18. Senator Peters. Lieutenant General Murray, has the Army made a 
decision on increasing SHORAD capability, including basing it on an 
existing platform such as the Stryker of Bradley?
    Lieutenant General Murray. The Army has made a decision on quickly 
increasing SHORAD capability. For the past two years the Army has 
emphasized the critical need to increase SHORAD capability, and the 
Army's CFT focusing on AMD has included Interim M-SHORAD modernization 
as its first priority line of effort. The Army will be leveraging the 
Stryker platform and has also increased the amount of SHORAD force 
structure to help fill this high priority capability gap.
                             hmmwv rollover
    19. Senator Peters. Lieutenant General Ostrowski, I remain 
concerned about the propensity for rollover accidents of HMMWVs, 
particularly when important safety technologies like Antilock Brake 
System (ABS) and Electronic Stability Control (ESC) are readily 
available for these vehicles. In my communications with the Army, I had 
been told that the Army was scheduled to begin incorporating these 
technologies in 1QFY18 but have recently been briefed that fielding 
these technologies has not yet begun and is not anticipated until July 
2018. To date over 1,500 M997A3 Ambulances have been produced without 
ABS/ESC and I am concerned as production continues without addressing 
the risk of vehicle rollovers. How does the Army plan to award a 
contract to include ABS/ESC capability in production of HMMWVs?
    Lieutenant General Ostrowski. Improving soldier safety in the 
Army's tactical vehicle fleet remains a priority, and the Army has 
qualified an ABS/ESC solution for the HMMWV. We received a proposal 
from the HMMWV manufacturer on 10 November 2017 for the inclusion of 
the Army-approved ABS/ESC Kits on the current HMMWV ambulance chassis 
production line. The rebuild will address current obsolescence issues 
with the power pack and other components, and will also add an Anti-
lock Braking System and Electronic Stability Control (ABS/ESC) to 
improve safety by mitigating vehicle rollovers and other driving 
incidents. The Army is currently negotiating the award of this 
proposal, and we look forward to anticipated implementation in 
production in July 2018 and fielding to begin in November 2018 
(consistent with available funding).

    20. Senator Peters. Lieutenant General Ostrowski, what are the 
plans for retrofitting HMMWVs produced without ABS/ESC and is the Army 
considering utilizing the qualified ABS/ESC solution which was 
originally designed as a retrofit kit?
    Lieutenant General Ostrowski. The Army expects to pursue two 
approaches to equipping existing HMMWVs with the currently qualified 
ABS/ESC kit solution: (1) through a centrally-funded Maintenance Work 
Order (MWO) effort and (2) through unit-funded retrofit kits. A MWO 
would centrally fund and manage the retrofit of all HMMWV models to be 
retained as part of the enduring Light Tactical Vehicle fleet, although 
the proposed effort is not currently funded. The program office is also 
planning to make ABS/ESC retrofit kits available as an option for 
individual units, other services, and Foreign Military Sales customers-
with kit purchase and installation funded at the unit level. We 
anticipate being prepared to execute both activities, subject to the 
availability of funding, NLT the end of fiscal year 2018.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                        AIR FORCE MODERNIZATION

    The subcommittee met, pursuant to notice, at 3:31 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Tom Cotton 
(chairman of the subcommittee) presiding.
    Subcommittee Members present: Senators Cotton, Tillis, 
Sullivan, Cruz, Sasse, King, McCaskill, Warren, and Peters.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. Good afternoon.
    On the Airland Subcommittee, we have been doing a series of 
hearings on modernization this year. Last time, we had the 
Army. Today we will focus on the Air Force.
    There is no question that the ability to surveil and strike 
any target on earth is vital to our national security. We 
simply could not deploy our soldiers, sailors, airmen, and 
marines all around the world without the support of all of our 
airmen. That is why some cost overruns and time delays in 
modernization programs are troubling.
    The F-35 recently finished its flight tests in the system 
development demonstration phase, but only after long delays.
    We are also still waiting to receive the first KC-46 
tanker, and we probably will not get it until later this year, 
which is over a year late.
    I will say the B-21 has been coming along well so far, but 
given the track record, we obviously need to keep a close eye 
on it.
    I will be particularly interested to hear our witnesses' 
thoughts on these three key programs. We have to get them right 
because as the National Defense Strategy (NDS) has put it, the 
biggest threat to the United States today is the emergence of 
long-term strategic competition by revisionist powers. What 
they all hope to revise, of course, is our role in the world 
despite their differences. Russian aggression, Chinese 
expansionism, North Korea's nuclear program, Iranian backed 
terrorism--what they all have in common is they would like to 
stick it to the United States.
    The only way we can keep the peace then is to prepare for a 
wide spectrum of contingencies. That means the Air Force needs 
to stay ahead of our potential adversaries, especially China 
and Russia, all while working under the continued constraints 
of the Budget Control Act (BCA).
    I look forward to hearing from our witnesses on what 
capabilities the Air Force needs to maintain our lead, as well 
as how they plan to prioritize modernization given the 
constraints of the Budget Control Act.
    I am also interested in hearing their thoughts on improving 
pilot retention, whose recent trend downward is a serious cause 
for concern.
    Of course, the easiest solution to many of these problems 
would be to repeal the Budget Control Act in its entirety. The 
2-year budget deal Congress passed earlier this year did some 
good, but under current law, Budget Control Act levels return 
in fiscal years 2020 and 2021. Congress has proven itself 
incapable of adhering to these caps. I do not think we should 
keep them on the books given the havoc they do to all of our 
modernization programs. I will say it again. Until Congress 
finally acts, the BCA must be repealed.
    Now I would like to welcome our witnesses: Lieutenant 
General Arnie Bunch, Military Deputy, Office of the Assistant 
Secretary of the Air Force for Acquisition; Lieutenant General 
JD Harris, Deputy Chief of Staff for Strategic Plans, Programs 
and Requirements; and Major General ``Smokey'' Robinson, 
Assistant Deputy Chief of Staff for Operations. Thank you, 
gentlemen, for your many years of distinguished service and for 
joining us here today.
    Senator King?

            STATEMENT OF SENATOR ANGUS S. KING, JR.

    Senator King. Thank you, Mr. Chairman.
    I want to welcome and thank our witnesses for their 
appearance today. I look forward to hearing your testimony 
about these important issues.
    As the chairman mentioned, earlier this year we had Army 
witnesses to discuss the Army modernization portfolio, and 
today I want to see what you all have to say about the 
challenges facing the modernization of the Air Force.
    I am especially interested in hearing how the Air Force 
plans to manage these multiple modernization programs to 
deliver the capabilities our warfighters need in a timely 
manner--I emphasize a timely manner--and defeat our most 
capable adversaries while protecting taxpayer resources. The 
recent track record in this is not good. Our job in Congress is 
to oversee the Department to ensure that we pursue these 
modernization programs in a more efficient and effective 
manner.
    Our witnesses this afternoon face huge challenges as they 
strive to balance the need to support ongoing operations--and 
the chairman mentioned the problem with pilot retention, for 
example--and sustain readiness with the need to modernize and 
keep the technological edge, which is so critical to successful 
military operations.
    Specifically, the Air Force will bear a large share of the 
burden of implementing the National Defense Strategy announced 
by Secretary Mattis earlier this year that identifies state 
strategic competition with increasingly capable adversaries as 
the primary U.S. national security concern. We are, in effect, 
shifting gears from one very different type of warfare to 
another.
    These challenges have been made particularly difficult by 
the spending caps imposed by the Budget Control Act. 
Fortunately, we have a budget agreement on the defense top line 
for fiscal years 2018 and 2019, but additional challenges loom 
on the horizon with the Budget Control Act back in full force 
in 2020.
    There are a number of other issues we need to discuss, but 
in the interest of time, I will stop here, wait for our 
discussion.
    Again, I want to thank our witnesses and thank you, Mr. 
Chairman, for holding this hearing.
    Senator Cotton. General Bunch?

  STATEMENT OF LIEUTENANT GENERAL ARNOLD W. BUNCH, JR., USAF, 
 MILITARY DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR 
FORCE FOR ACQUISITION; ACCOMPANIED BY LIEUTENANT GENERAL JERRY 
D. HARRIS, JR., USAF, DEPUTY CHIEF OF STAFF FOR STRATEGIC PLANS 
  AND REQUIREMENTS, HEADQUARTERS UNITED STATES AIR FORCE; AND 
 MAJOR GENERAL BRIAN S. ROBINSON, USAF, ASSISTANT DEPUTY CHIEF 
   OF STAFF, OPERATIONS, HEADQUARTERS UNITED STATES AIR FORCE

    Lieutenant General Bunch. Yes, sir. Good afternoon and 
thank you, Chairman Cotton and Ranking Member King and the 
distinguished Members of the subcommittee for the opportunity 
to appear before you today to talk about the Air Force 
priorities for fiscal year 2019. We appreciate your service and 
the support this subcommittee provides the United States Air 
Force, our airmen, and their families.
    Today, as you said, I am accompanied by Lieutenant General 
JD Harris, Deputy Chief of Staff for Strategic Plans and 
Requirements, and Major General Brian ``Smokey'' Robinson, 
Assistant Deputy Chief of Staff for Operations. We have 
prepared a joint statement, and I will provide opening remarks 
for the team. But I would ask that the full statement be 
entered into the official record.
    Senator Cotton. Without objection.
    Lieutenant General Bunch. For the past 70 years, your Air 
Force has been breaking barriers as a member of the finest 
joint warfighting team on the planet and has secured peace by 
providing decisive warfighting advantage in, through, and from 
airspace and cyberspace. Today's demand for Air Force 
capabilities continues to grow as the United States now faces a 
more competitive and dangerous international security 
environment than we have seen in generations. The fabric of Air 
Force weaves multi-domain effects and provides joint 
warfighters the blanket of protection and ability to power 
project America's full range of combat capabilities. We are 
always there meeting the rising challenges by defeating our 
adversaries, deterring threats, and assuring our allies 24 
hours a day, 7 days a week, 365 days a year.
    With global trends and intensifying pressure from major 
challengers, our relative advantage in air and space is eroding 
in a number of critical areas. We are supporting combatant 
commander requirements in response to growing challenges from 
Russia, China, North Korea, and Iran, in addition to the ever-
present counterterrorism mission in the Middle East and around 
the world.
    In accordance with the new National Defense Strategy, this 
year's budget request prioritizes long-term competition with 
China and Russia. The Air Force must build a more lethal and 
ready force, strengthen alliances and partnerships, and deliver 
greater, more affordable performance. Future wars will be won 
by those who observe, orient, decide, and act faster than 
adversaries in an integrated way across all domains.
    With your support of our fiscal year 2019 budget request, 
the Air Force will drive innovation, reinforce budget 
discipline, and deliver capabilities with greater affordability 
at the speed of relevance.
    The demand for air, space, and cyber capabilities continues 
to grow, and our Chief is committed to ensuring that America's 
airmen are resourced and trained to fight alongside our sister 
Services to meet all national security obligations. The Air 
Force seeks to balance risk across capacity, capability, and 
readiness to maintain our Nation's advantage.
    I would like to thank the Members of this committee for the 
passage of the fiscal year 2018 budget and the relief of the 
Budget Control Act restrictions for fiscal years 2018 and 2019. 
This allows us to relook at some of the tough tradeoffs made 
between force structure, readiness, and modernization.
    Today's modernization is tomorrow's readiness, and that 
readiness is not static. While our forces have been heavily 
engaged in deterring or addressing counterterrorism, other 
adversaries have taken the opportunity to invest in and advance 
their own capabilities. To address ever-narrowing capability 
advantages, we need your support in the form of steady, 
predictable, and timely appropriations that fulfill our annual 
budget requests.
    The Air Force budget request for fiscal year 2019 builds on 
the progress we are making in 2018 to restore the readiness of 
the force, increase lethality, and cost effectively modernize 
our top priorities. This is critical to ensure we can meet 
today's demand for capability and capacity without sacrificing 
modernization for tomorrow's high-end fight against the full 
array of potential adversaries, allowing us ability to 
modernize faster, be ready sooner, be capable of achieving of 
our National Defense Strategy tasks in a timely manner.
    As critical members of the joint team, the Air Force 
operates in a vast array of domains and prevails in every level 
of conflict. However, we must remain focused on integrating 
air, space, and cyber capabilities across the domains through 
our core missions of air superiority, space superiority, global 
strike, and rapid global mobility to continue to provide our 
Nation with the security it enjoys.
    We look forward to working closely with the committee to 
ensure the ability to deliver combat air power for America when 
and where we are needed. General Harris, General Robinson, and 
I look forward to answering questions from the committee this 
afternoon. Again, thank you for your continued support of the 
greatest Air Force on the planet.
    [The joint prepared statement of Lieutenant General Bunch, 
Lieutenant General Harris, and Major General Robinson follows:]

 Joint Prepared Statement by Lieutenant General Arnold W. Bunch, Jr., 
  Lieutenant General Jerry ``JD'' Harris Jr. and, Major General Brian 
                                Robinson
                              introduction
    Chairman Cotton, Ranking Member King and distinguished Members of 
the subcommittee, thank you for having us here today to continue our 
discussion on Air Force modernization. Additionally, thank you for your 
leadership and bringing fiscal stability back to our Government, 
departments, and agencies. Stable, predictable and timely funding 
levels are critical to arrest the readiness decline across the Air 
Force as we look forward to our future national security interests.
    Today's demand for Air Force capabilities continues to grow with 
global trends and intensifying pressure from major challengers. The 
United States faces a more competitive and dangerous international 
security environment not seen in generations. Our relative advantage in 
air and space has atrophied in a number of critical areas and the 
projected mismatch between demand and available resources has widened. 
We require the right size and mix of agile capabilities to compete, 
deter, and win in this environment.
    To ensure we maintain the advantage, the Air Force is increasing 
our fighter and tanker procurement with the intent to modernize the 
force. Additionally, we are moving towards the production of the B-21 
to modernize our long-range strike fleet. We are also in the early 
stages of replacing a portion of our training aircraft, which will 
enable shorter training timelines and better trained aircrew. Efforts 
to modernize and extend the durability of some of our older aircraft 
and to provide increased capability to kill and survive in combat are 
currently underway. Finally, we are accelerating our efforts to deter, 
defend, and prevail against anyone who seeks to deny our ability to 
freely operate in space. Our fiscal year 2019 Budget proposal 
prioritizes long-term competition with China and Russia and moves the 
Air Force in the direction of multi-domain battle. It is focused on 
Readiness (people, munitions, FHP, WSS); Nuclear Deterrence (Bomber, 
ICBM, NC3); Cost-Effective Modernization (F-35, KC-46, B-21, T-X, UH-1 
replacement); Air / Space Superiority (Air Superiority 2030, defendable 
Space, Electronic Warfare); Multi-Domain Command and Control (modernize 
E-3 AWACS, begin transition to Advanced Battle Management System); 
Light Attack (continue experiment, rapid prototyping); and Science and 
Technology (complete S&T strategy, long-term innovation).
    For more than 70 years, your United States Air Force has secured 
peace by providing decisive warfighting advantage in, through, and from 
air, space, and cyberspace. Today's 670,000 Active Duty, Guard, 
Reserve, and civilian airmen meet these challenges by defeating our 
adversaries, deterring threats and assuring our allies 24/7/365.
                       defeating our adversaries
    Last year, your Air Force accelerated the campaign to defeat ISIS' 
physical caliphate by conducting more than 172,000 sorties and 98,000 
precision air strikes--over 70 percent of the total in the campaign--to 
support Iraqi and partner forces in Operation Inherent Resolve. These 
strikes were enabled with Intelligence, Surveillance and Reconnaissance 
(ISR) missions. In 2017, the Air Force provided nearly 25,000 ISR 
missions and produced 2.55 million intelligence products that close 
intelligence gaps and support target analysis and development; almost 5 
products every minute.
    The Air Force's command and control missions ensures that the right 
info gets to the right person at the right time. Our E-8C Joint 
Surveillance Target Attack Radar System flew over 5,000 hours, enabling 
a range of support for Combatant Commanders from command and control in 
the ISIS campaign to the interdiction of over 12,500 kilograms of 
illicit drugs before they entered our Nation's borders.
    Airmen transported nearly 1 million joint warfighters across the 
globe personnel and delivered over 738 million pounds of equipment and 
humanitarian supplies. Our tanker force extended joint power projection 
at intercontinental distances by passing more than 1 billion pounds of 
fuel in-flight, while aeromedical evacuation airmen airlifted more than 
5,000 patients to safety. Closer to home, airmen helped combat multiple 
wild fires in the western United States and delivered 13,600 short tons 
of relief supplies following the string of record-setting hurricanes in 
the North American hemisphere.
                           deterring threats
    Last year, airmen conducted 16,425 intercontinental ballistic 
missile alert tours and 248 missile convoys across five states. Our 
bombers flew 580 missions (over 2,500 flight hours) in the Indo-
Pacific, strengthening security and stability in the region and 
reassuring our partners. Reinforcing NATO's eastern flank, American 
bombers flew 70 assurance and deterrence missions (67 deployment 
missions and 3 global missions). In space, the Air Force operates six 
constellations and 12 satellite systems vital to national security that 
provide communications, command and control, missile warning, nuclear 
detonation detection, weather, and GPS for the world.
                          assuring our allies
    In the NATO-led mission in Afghanistan, the Air Force executed a 
sustained air interdiction campaign of over 4,000 sorties to support 
Afghan partners, decimating Taliban so-called safe zones, command and 
control nodes, illicit revenue-generating ventures, and logistical 
networks. In 2017, the Air Force engaged in more than 85 exercises with 
international partners, including five focused on high-end combat. We 
furthered the international role of the F-35, training with partners in 
both Europe and South Korea, and began delivery of F-35s to Israel, 
Norway, and Italy. Increasingly, we are conducting these missions with 
allies and partners.
                               readiness
    This steadfast watch, however, comes at a price. Continuous, 
worldwide combat operations since 1991 have taken a toll on our airmen, 
equipment, and infrastructure and the overall readiness of our Air 
Force. The relentless pace of non-stop global counter-violent extremist 
organization (VEO) operations for nearly thirty years affected high-end 
readiness for the Active Duty, National Guard, and Reserve forces. At 
the same time, our strategic competitors have closed gaps in capability 
and capacity. The new National Defense Strategy is clear: inter-state 
strategic great power competition, not terrorism, is now the primary 
concern in U.S. national security. Today's world requires an Air Force 
ready for great power competition. It is our top priority to restore 
readiness to win any fight at any time.
    Readiness is first and foremost about having enough trained people. 
We continue to address the aircrew shortage through a multi-pronged 
approach. This budget boosts pipeline training capacity, expands pilot 
training and addresses experience shortfalls, continues incentive pay 
and bonuses, improves administrative support at the squadron level, and 
funds flying hours to executable levels. It also addresses gaps in 
space, nuclear, cyber, and intelligence career fields, and supports 
battlefield airmen, our air-to-ground integration force.
    Thank you for your leadership in passing the fiscal year 2018 
budget. Stable predictable funding is critical to addressing readiness. 
The fiscal year 2018 budget adds 2,300 Active Duty airmen and raises 
Air Force levels to 325,100. We will also add an additional 1,000 
reservists and 900 guardsmen. We are focused on quality of life 
improvements for our airmen and their families: a 2.4 percent increase 
in military pay, a 2.2 percent increase in basic allowance for housing, 
and a 3.4 percent increase in subsistence. Growing our end strength to 
fill existing manpower requirements is the most important step to turn 
the corner and accelerate the climb to readiness recovery.
    Training is another component critical to turning the corner on 
readiness. Through the fiscal year 2018 budget we will utilize $6.2 
billion to which funds 87 percent of the Total Force Flying Hour 
Program minimum training requirement and $12 billion to fund key 
enabling weapons system sustainment (parts, maintenance and logistics) 
to near maximum executable levels. We continue to modernize our 
Operational Training Infrastructure with a blend of live, virtual, and 
``synthetic'' platforms. This synthetic capability provides 
opportunities to test and train against the world's most advanced 
threats at a reduced cost and avoid unnecessary wear and tear on 
advanced platforms.
    The Fiscal Year 2019 President's Budget, informed by and 
synchronized with the new National Defense Strategy, will accelerate 
our multi-year climb to full-spectrum readiness. The fiscal year 2019 
budget will increase our Active, Guard and Reserve end strength by 
4,700 airmen. We will address imbalances in critical fields like 
aviation, maintenance, ISR, cyber, and unmanned aircraft while also 
expanding our training capacity.
    It is also critical that we increase pilot production and seasoning 
through expanded flying hour and weapons system sustainment programs. 
By extension, operational training infrastructure is needed to provide 
relevant and realistic training for multi-domain, full-spectrum 
readiness. The budget proposal funds aircraft depot maintenance, parts, 
logistics support, and invests $2.8 billion in operational training 
infrastructure needed for relevant, realistic training for the multi-
domain environment.
    Those trained airmen will need munitions on hand. To support 
current operations and prepare for future requirements, this budget 
fully funds preferred munitions at industry capacity. This includes 
Hellfire missiles, Joint Direct Attack Munition bombs, the Small 
Diameter Bomb, and the Advanced Precision Kill Weapon System.
    The Air Force is also significantly changing the way we collect 
operational tempo metrics. Prior methods underreport how much time 
airmen are away. By now accounting for temporary duties away from home 
station for training exercises or mission-related requirements in 
addition to deployment time, we more accurately capture the true impact 
of service demands on airmen, families, and home units.
    The Air Force recruits airmen, but we retain families. In fiscal 
year 2019 budget we will continue supporting Air Force families with a 
military pay raise of 2.6 percent, increased housing and subsistence 
allowances, and bolstered family support programs. To improve family 
support, the budget funds expanded childcare hours, increases off-base 
childcare support, and funds more respite care and support coordinators 
for special needs families. We are improving the assignment system so 
families can better plan for future assignments, sustaining our morale 
and resilience programs, and implementing initiatives that support unit 
cohesion in our squadrons.
    Today's modernization is tomorrow's readiness. Readiness is not 
static. It is inherently in decline or on the rise. These iterative 
efforts in fiscal year 2019 and beyond will accelerate the climb to 
full spectrum readiness and provide a force that is ready, lethal, and 
efficient in this era of great power competition.
                       fifth generation fighters
    Fighter fleet capacity is predicated on the capabilities of the 
aircraft that make up that fleet and thus, finding the right balance of 
fifth and fourth generation aircraft will remain fluid as we 
continually assess evolving threats. The ``fourth/fifth'' generation 
balance discussion is quickly becoming a ``fifth/sixth'' generation 
balance discussion and the fiscal year (FY) President's Budget (PB) 
2019 adds $2.7 billion over the Future Years Defense Program (FYDP) to 
fund the next generation of air dominance (NGAD) capabilities. Known as 
NGAD, this program will utilize an agile acquisition strategy in order 
to facilitate parallel development and prototyping activities that puts 
the Air Force on a timeline needed to close air superiority capability 
gaps identified in the Air Superiority 2030 Flight Plan. The Air 
Superiority Family of Systems will provide a complementary capability 
to the F-35A and will not impact JSF program objectives.
    The F-35 program continues development of capabilities to ensure 
lethality and survivability against emerging high-end threats. The 
program recently delivered full (Block 3F configuration) warfighting 
capability and system development and demonstration is on track to 
complete this calendar year. The price per copy of an F-35A is now less 
than $100 million and the fiscal year 2019 President's Budget procures 
48 aircraft for the Air Force as the program readies to jump to 54 a 
year in fiscal year 2021. Fiscal year 2019 will also see the F-35 
modernization program begin to shift to a Continuous Capability 
Development and Delivery (C2D2) acquisition strategy that will deliver 
continuous modernization, enhancements, and improvements that will 
deliver Block 4 capability.
    The F-22, currently the only U.S. fighter capable of operating in 
highly contested environments, is also an integral piece of the Air 
Force's force structure modernization plan. Its stealth, super cruise, 
integrated avionics and sensors combine to deliver the Raptor's unique 
capability. We plan to retain the F-22 until the 2060 timeframe, and 
the fiscal year 2019 President's Budget reflects this commitment as we 
look to increase its capabilities and mission effectiveness through a 
myriad of modernization efforts. These efforts include sensor 
enhancements, datalink upgrades, open software architecture, enhanced 
GPS and the integration of a new helmet mounted display cueing system.
    In fiscal year 2017, the Air Force continued experimentation 
efforts, including executing Phase I of the Light Attack Experiment. 
This was a live-fly event conducted at Holloman Air Force Base, New 
Mexico in August 2017 which assessed the military utility of various 
non-developmental, light-attack platforms. This first phase of the 
experiment allowed the Air Force to assess the potential of these off-
the-shelf, light attack aircraft to accomplish various permissive, 
close air support missions. The Air Force leveraged Other Transaction 
Authority (OTA) agreements, including industry cost-share agreements, 
to execute the experiment within five months of authorization. The Air 
Force plans to hold Phase II of the Light Attack Experiment in fiscal 
year 2018 as we develop the acquisition strategy for a potential 
procurement in the coming years.
    Air Superiority, or the ability to control the air without 
prohibitive interference from an adversary, underwrites the full 
spectrum of joint operations. Increased threat capabilities, as well as 
the enemy's ability to engage in space and cyberspace, highlighted gaps 
in the Air Force's projected force structure. As a result, the Chief of 
Staff of the Air Force chartered the Air Superiority 2030 (AS 2030) 
Enterprise Collaboration Team (ECCT). The purpose of the charter was to 
develop capability options to enable joint force Air Superiority in the 
highly contested environment of 2030 and beyond. The charter examined 
and quantified needs, and explored materiel and non-materiel, multi-
domain solutions to mitigate these gaps. Ultimately, recognizing that 
no ``silver bullet'' solution existed, the charter recommended the USAF 
develop a family of systems within five capability development areas: 
Basing and Logistics; Find, Fix, Track and Assess; Target and Engage; 
Command and Control; and Non-Materiel (Doctrine, Organization, 
Training, Materiel, Logistics, Personnel, Facilities, and Policy 
[DOTMLPF-P]). Developing next generation systems along these lines of 
effort is vital to ensuring Air Superiority in 2030 and beyond.
                       fourth generation fighters
    In addition to pursuing new capabilities and modernizing fifth 
generation fighters, the Air Force also seeks to extend the service 
life and modernize critical capabilities of key fourth generation 
aircraft. Doing so will help maintain Service capacity and readiness to 
meet the needs of the Warfighter while ramping up the F-35 production 
line and developing the Air Superiority Family of Systems.
    The Air Force continues to assess fleet sustainability and 
alternatives for meeting warfighter close air support (CAS) demands, 
particularly in permissive environments. The A-10 has been the backbone 
of the CAS mission for more than 40 years and has proven to be the most 
cost-effective fourth generation fighter platform but has exceeded its 
original service life. This year the original A-10 re-winging program 
completes as the 173rd wing set will be installed later this summer. 
Additionally, a new re-winging program is on track to begin third 
quarter of fiscal year 2018 with the release of an RFP for up to 109 
additional wing replacement sets. The new wing program will aim to 
avoid any further groundings beyond 2025 and will ensure a minimum of 
six combat squadrons remain in service until 2032.
    To ensure the F-16's lethality and air prominence in permissive 
environments, we are pursuing an active electronically scanned array 
(AESA) radar upgrade that offers advanced capabilities and improved 
reliability and maintainability. We are also upgrading the mission 
computer, display generator, electronic warfare components, and the 
ALQ-131 self-protection jamming pod to enable advanced technology 
jamming techniques. Additionally, the legacy service life extension 
program (SLEP) will extend the F-16 airframe structural service life 
from the current 8,000 hours to 12,000+ hours, adding fifteen to twenty 
years of service for selected
                                 f-16s.
    Along with the F-16, the Air Force expects the F-15E to be an 
integral part of our fighters through at least 2040, and we are 
pursuing a new electronic warfare self-protection suite, the Eagle 
Passive/Active Warning Survivability System (EPAWSS) for the Strike 
Eagle fleet. The F-15C/D fleet is funded through the FYDP and will 
undergo multiple offensive and defensive upgrades to ensure its 
warfighting effectiveness until any recapitalization plans are 
completed.
                                bombers
    As with the fighter force, the total bomber inventory has also been 
significantly reduced. To provide perspective, in 1991 we had 290 
aircraft available within the bomber fleet versus 158 B-1s, B-52s, and 
B-2s today. The current number is insufficient to meet Defense Planning 
Guidance and nuclear guidance while sustaining current operational 
demands and maintaining sufficient training and readiness capacity.
                                  b-21
    The B-21 program remains one of the Air Force's top priority 
programs with regards to investment in research, development, test and 
evaluation with $2.3 billion for Engineering and Manufacturing 
Development in the Fiscal Year 2019 President's Budget. The B-21 
continues to make measured, positive progress and remains on track to 
deliver its initial capability in the mid-2020s.
    The program successfully completed a Preliminary Design Review in 
2017 demonstrating that the Air Force, along with its industry 
partners, are continuing to develop the design maturity of this 
platform. The development phase of the program is well on the path to 
detailed design.
    The Air Force remains committed to a fleet size of a minimum of 100 
B-21s. This fleet will provide capabilities necessary to meet future 
Combatant Commander requirements. The B-21 remains an absolute national 
defense priority, and we are grateful for your continued support of 
this critical program.
                                 legacy
    Until the B-21 is fielded, it is equally important that we continue 
the commitment to modernize our legacy bomber fleet to maintain the 
ability of our Air Force to provide Nuclear Deterrence Operations, 
Nuclear Response, Global Strike, and Global Precision Attack. The 20 
remaining B-2 aircraft, currently the only low-observable, Anti-Access/
Area Denial asset capable of penetrating advanced enemy defensive 
systems, are approaching 30 years of service and require engine, 
avionic, communications and defensive systems upgrades to maintain 
viability in the face of advancing enemy capabilities.
    Similarly, the 62 remaining B-1s have been in service for nearly 35 
years and are receiving upgrades to their avionics and flight systems, 
as well as an engine service life extension program. These upgrades 
will ensure the B-1's viability into the mid-to-late 2030s. The B-52H 
will continue its proud tradition of service through 2050, putting the 
remaining fleet of 76 at nearly 100 years of service. To sustain this 
venerable capability there are a number of modernization efforts 
currently in work to include new engines, replacement radar, improved/
integrated avionics, weapons management, and communication upgrades.
                               munitions
    Over the past year, the demand for munitions has continued to grow. 
To meet this demand, the Air Force continues to work with the other 
services and industry partners to efficiently ramp production capacity 
across the preferred munitions programs. The fiscal year 2019 Budget 
Request continues to leverage overseas contingency operations (OCO) 
funding to replenish the vast number of munitions expended to date in 
operations around the globe. The budget request also incorporates more 
Air Force base funding to build munitions inventories to support the 
National Defense Strategy and meet future operational requirements. As 
we work to expand the munitions industrial base, the Services continue 
to balance today's immediate needs with a long-term, sustainable 
capacity, ultimately fueling a more resilient industrial base for the 
future.
    Hellfire missiles continue to provide a time-sensitive, direct-
strike capability for our remotely-piloted vehicles and remain in high 
demand. Partnering with the Army, production capacity was ramped from 
9,500 missiles per year in fiscal year 2018 to 11,000 missiles per year 
starting in fiscal year 2019. The Air Force plans to procure 4,338 
missiles in fiscal year 2019. With the other Services' and critical 
foreign military sales (FMS) partners, the production line will remain 
funded to maximum production capacity for the foreseeable future.
    The Joint Direct Attack Munition (JDAM) is also a weapon of choice 
for today's operators with an average of 50-70 expended daily to 
support ongoing operations. JDAM production capacity increased to 
45,000 tailkits per year in fiscal year 2018 to meet the needs of the 
Services and FMS partners. The Air Force plans to procure 36,000 
tailkits in fiscal year 2019 with Navy and FMS partners procuring the 
remaining 9,000 tailkits available in fiscal year 2019.
    In another significant achievement, the Air Force teamed with the 
Navy and industry to rapidly procure and field the Advanced Precision 
Kill Weapon System (APKWS). The Services have teamed with industry to 
ramp production from roughly 2,700 guidance kits per year to 20,000 
guidance kits starting in fiscal year 2019. The Air Force plans to 
procure 7,279 kits in fiscal year 2019.
    Small Diameter Bomb I (SDB I) continues to provide precision, 
lethal strike capacity with reduced collateral damage effects and 
increased load-out per sortie for our warfighters. The Air Force has 
ramped the production line from 3,000 weapons per year in fiscal year 
2015 to 8,000 weapons in fiscal year 2018. The Air Force plans to order 
6,826 weapons in fiscal year 2019, with 1,174 weapons for partner 
nations. All of these production increases expedite the inventory 
replenishment of our critical munitions and build stockpiles.
    As the Air Force responds to current operational demands, we are 
also looking toward the future to ensure we are prepared to defeat more 
advanced threats as directed in the National Defense Strategy. Advanced 
weapons capabilities are necessary to address sophisticated threat 
systems. The fiscal year 2019 Budget request reflects the Air Force's 
plan to continue investing in advanced weapon capability, specifically 
with the Advanced Medium Range Air-to-Air Missile (AMRAAM), Joint Air-
to-Surface Standoff Missile-Extended Range (JASSM-ER) and SDB II. These 
weapons provide unique capabilities in a more contested, anti-access/
area denial (A2/AD) environment.
    Production of AMRAAM missiles, a critical air dominance weapon, 
remained consistent with fiscal year 2018 procurement levels as 
industry partners continue to work through parts obsolescence issues 
through the Form Fit Function Refresh (F3R) effort. JASSM-ER is the 
premier A2/AD weapon for striking advanced ground threat systems, and 
production will remain at maximum capacity in fiscal year 2019 and 
beyond. The Air Force plans to procure 360 missiles in fiscal year 2019 
while also improving the weapon's capabilities and addressing upcoming 
parts obsolescence issues. Finally, SDB II enters its fifth and final 
low-rate initial production lot in fiscal year 2019, and in conjunction 
with the Navy, the Air Force's order of 510 weapons maximizes the 
production capacity as it prepares to ramp up in fiscal year 2020. 
Though not yet fielded, the SDB II will soon provide a key air-to-
ground capability to kill mobile and fixed targets through adverse 
weather from standoff ranges.
                  intelligence, surveillance and (isr)
    The RQ-4 Global Hawk provides a continuous, high altitude, long 
endurance, all weather, day/night, wide area reconnaissance and 
surveillance unmanned aircraft system. The Office of Secretary of 
Defense approved the RQ-4 modernization approach in September 2015 to 
include the MS-177 sensor integration, a Ground Segment Modification 
Program and a Communication System Modification Program. The MS-177 
development and integration work began in November 2015 and the sensor 
is on track for Initial Operating Capability (IOC) in Third Quarter 
fiscal year 2018. The MS-177 will utilize the Block 30 Integrated 
Payload Adapter (IPA) that has been fully tested and can be applied to 
future modifications. The fiscal year 2019 President's Budget request 
is for $309.5 million in investment dollars for this program.
    The Ground Segment Engineering & Manufacturing Development (EMD) 
contract was awarded in July 2016. Installation of cockpits at Grand 
Forks AFB and Beale AFB will begin in Second Quarter fiscal year 2019. 
The Communication System Modification Program (CSMP) effort is in the 
Requirements Definition/Market Research phase. This program is 
finalizing requirements for modernization of Ground and Air Vehicle 
communications equipment, which will both improve communications 
capability and alleviate Diminishing Manufacturing Sources (DMS) issues 
with the equipment. We expect to release the Request for Proposal for 
CSMP in second Quarter fiscal year 2019.
    The funding request for the MQ-9 investment dollars in fiscal year 
2019 is $1.2 billion. This program continues to modernize it's fleet 
and capabilities it provides to Combatant Commanders. It accomplishes 
this by sustaining the MQ-9 program of record and incorporating planned 
modernization efforts, while a separate program of record develops and 
tests those modernizations making them ready for the program at large. 
This process keeps the MQ-9s current and able to meet Combatant 
Commanders demands, while keeping an eye on the future for emerging 
requirements. Such efforts include the new Ground Control Station--
Block 50 that is actively being developed, the new DAS-4 sensor package 
that will fly on the MQ-9 platform and the Extended Range enhancement 
to the MQ-9 Block 5 aircraft. Additionally, the MQ-9 program is 
actively engaged in a study to determine the actual service life of the 
MQ-9 platform. The first phase of that study will be completed in 
Summer 2018, with phase two being completed by fiscal year 2021. The 
results of this study will better inform the Air Force's decision on 
long-term sustainment of the MQ-9 program.
    Gorgon Stare has been delivering Wide Area Motion Imagery (WAMI) in 
support of Operation Freedom Sentinel and Operation Inherent Resolve 
areas of responsibility since 2012. The Air Force has no plans to fund 
additional capability at this time but will sustain this MQ-9 podded 
WAMI capability in its current state. The fiscal year 2019 request is 
for $76.7 million in Operation and Maintenance funding for this 
sustainment effort. The Air Force is migrating its primary ISR 
Processing, Exploitation and Dissemination (PED) weapon system, the 
Distributed Common Ground System (DCGS), to an open architecture. To 
support this effort $454.8 million has been requested in the fiscal 
year 2019 President's Budget. The previous architecture required 5-7 
years of development, test, and fielding per major release. Open 
architecture will support software releases in weeks and months instead 
of years. This accelerated development and fielding timeline will 
enhance our ability to get inside the adversaries decision cycle, 
enable our ISR analysts to leverage cutting-edge analytic tools, and 
allow increased access to more intelligence sources and Intelligence 
Community capabilities.
                multi-domain command and control (mdc2)
    An MDC2 capability generates effects that present the adversary 
with multiple dilemmas at an operational tempo that cannot be matched. 
The Air Force is focused on creating feasible investment options 
throughout its Battle Management Command and Control (BMC2) portfolio 
that drive towards the attainment of an advanced MDC2 capability for 
the joint force. To achieve this evolutionary shift, the Air Force is 
transitioning from a primarily aircraft centric to a net-centric 
approach using sensors across the battlespace linked by agile, 
resilient communications to provide the warfighter persistent 
capabilities across the full range of military options, uncontested and 
highly-contested, to meet the Nation's future needs. The key for future 
success is to establish a family of systems capable of integrating and 
fusing sensor information from all domains and bridging resilient 
communications across multiple pathways at all security levels.
    To that end, the Air Force did not request funding in the fiscal 
year 2019 President's Budget for the Joint Surveillance Target Attack 
Radar System Recapitalization program. A recapitalized JSTARS platform 
will not be viable in future contested environments, putting the Battle 
Management Command and Control (BMC2) and Ground Moving Target 
Indicator (GMTI) missions at risk in a peer engagement. Therefore, the 
Air Force will embark on an alternative approach to fulfill the Combat 
Commander requirements for Ground Moving Target Indication and Battle 
Management Command and Control. The Air Force is pursuing a three-
phased ``incremental approach'' to regain a strategic advantage and 
strengthen long-term lethality for the joint force. Increment 1 builds 
up resilience by incorporating technologies assessed at low technical 
risk and will continue to employ the current E-8C JSTARS fleet in the 
manner in which it operates today, and begins investment in agile 
communications and advanced sensors. The fiscal year 2019 President's 
Budget requests $24.9 million in fiscal year 2019 and $74 million 
across the FYDP to maintain the current E-8C JSTARS fleet.
    Additionally, Increment 1 efforts include the Airborne Early 
Warning Contol (AWACS) weapon system as it evolves to integrate multi-
domain inputs to provide air, land, and sea Battle Management and 
Command and Control (BMC2). The fiscal year 2019 President's Budget 
includes a request for $471 million for the AWACS program. The Air 
Force is reversing its decision to divest seven AWACS and restoring the 
fleet to 31 aircraft. Additionally, multiple AWACS modernization 
activities are underway with the most notable being the upgrade to the 
Block 40/45 mission system which is the foundation for all future AWACS 
capability improvements. To ensure the United States maintains multi-
domain dominance, the Air Force is initiating and integrating multiple 
communications upgrades such as improved Link 16, enhanced SATCOM, and 
resilient UHF radios.
    Follow on Increments 2 and 3 in future budget requests will 
culminate in the full operational capability of the Advanced Battle 
Management System (ABMS). Increment 2 builds upon capability 
improvements by integrating advanced sensors and Open Mission System 
software into ground and air-based BMC2 platforms. This increment also 
fully incorporates joint and coalition sensors, as well as fifth 
generation aircraft sensors, which provide the ability to sense targets 
in highly contested environments. Finally, Increment 3 realizes the 
full potential of the proposed incremental approach with full 
operational capability of the ABMS. The ABMS system is envisioned to be 
an evolutionary leap in capability intended to achieve Initial 
Operational Capability in accordance by the the end of AWACS' projected 
service life in 2035.
    The Air Force envisions the ABMS as an open architecture system, 
capable of ingesting new sensors and leveraging communications 
capabilities as the science and technology communities deliver them. 
Ultimately, the Air Force anticipates a more robust, resilient, 
reliable, and survivable architecture than currently exists. This open 
architecture will provide the means to integrate new technologies and 
create a more lethal force capable of operating in all environments. If 
we continue down last year's path, we will spend billions of dollars 
and end up with today's capability and capacity that will only be 
effective in small portions of the world.
    The Air Operations Center (AOC) Weapon System (WS) interoperability 
with the MDC2 vision remains essential to the AOC way ahead. The 
fielded AOC WS 10.1 legacy system will not support the vision for MDC2 
without significant improvement/modernization and the Air Force is 
still committed to fielding a modern architecture for the AOC that 
enables MDC2. The AOC WS 10.1 program is a sustainment effort fielding 
hardware and software to replace end-of-life or end of support 
components to keep the AOCs interoperable, supportable, and cyber 
security compliant while the Air Force continues to modernize the AOC 
enterprise. In response to Combatant Commanders' needs for rapid 
development of new capabilities in the current fight and to outpace our 
near-peer competitors, the Air Force initiated the AOC Pathfinder 
effort in August 2017, and subsequently terminated the AOC WS 10.2 
program in January 2018. AOC Pathfinder seeks to rapidly deliver a 
subset of the AOC WS 10.2 requirements using industry software 
development best practices. These best practices include using cloud-
native computing technologies, lean agile software development 
methodologies, and an entrepreneurial management structure. If the AOC 
Pathfinder proves successful, which it is showing great progress to 
date, its development approach will become the model for continued AOC 
modernization, and provide a system capable of being the foundation of 
MDC2 operations. The legacy AOC 10.1 infrastructure would then sunset 
by the end of fiscal year 2020, three years earlier than originally AOC 
WS 10.2 acquisition program. The fiscal year 2019 President's Budget 
request includes $106.1 million in the AOC WS program element to 
support the AOC WS Modifications project which includes the AOC 
Pathfinder modernization efforts.
                                 cyber
    The Air Force continues to build its contribution to joint cyber 
mission forces (CMFs) by developing the next generation cyber warrior, 
adding manpower for offensive and defensive cyber operations (OCO & 
DCO), and equipping them with the right capabilities to ensure 
effective operations. The Air Force is shifting from a 20th Century 
network-centric infrastructure to a 21st Century data-centric 
infrastructure. This transition will enable power projection through 
information integration and reallocation of critical Information 
Technology manpower towards emerging cyber warfighting missions.
    The ability to effectively operate in cyberspace is vital to 
deliver airpower and conduct the Air Force's core missions. We are 
fielding and sustaining cyber resilient capabilities, which provide 
mission assurance against adept and continually evolving adversaries. 
The Air Force's strategic vision, which reflects Congressional 
direction, implements a multi-pronged approach providing assurance, 
resilience, affordability, and power projection within and through the 
cyberspace domain. These pillars enable the Air Force's assured cyber 
advantage to ensure our ability to fly, flight, and win in air, space, 
and cyberspace.
    As Executive Agent for both Unified Platform (UP) and Joint Cyber 
Command and Control (JCC2), the Air Force is leading the growth of 
cyberspace capabilities for the DOD. UP and JCC2 are partnerships 
across all Services and with USCYBERCOM. UP integrates disparate cyber 
platforms to conduct full-spectrum (OCO & DCO) cyberspace operations, 
whereas JCC2 integrates joint, coalition and inter-agency command and 
control to enhance multi-domain operations. Rapidly delivering initial 
capability in fiscal year 2018 through Developmental Operations 
(DevOps), these programs directly enable the CMFs support to Combatant 
Commander requirements resulting in a shorter kill chain. Furthermore, 
the Air Force continues development of the Distributed Cyber Warfare 
Operations (DCWO) portfolio. This portfolio provides organic Air Force 
offensive cyberspace capabilities to hold adversary systems at risk, 
thereby enabling Air Force mission execution.
    Signed in November 2015, our Air Force Cyber Campaign Plan (CCP) 
has two goals: 1) to ``bake in'' cyber resiliency in new weapon systems 
and 2) mitigate critical vulnerabilities in fielded weapon systems. It 
consists of seven Lines of Action (LOAs) which are designed to be the 
``engine'' behind increasing the cyber resiliency of all Air Force new 
and legacy weapon systems. The CCP addresses the first goal by 
integrating cyber resiliency into the system engineering processes to 
`bake in' resiliency before systems are fielded. It also 
institutionalizes adaptable subsystem architectures for enterprise 
technology baselines and business processes, when designing and 
building new weapon systems. Concurrently, the plan addresses the 
second goal by pursuing top-down and bottom-up methodologies to find 
and mitigate mission `critical' cyber vulnerabilities. Other LOAs 
include cyber workforce development, creation of a cross-cutting common 
security environment, the development of counter cyber intelligence 
capability, and robust defensive cyberspace operations. AF DCO provides 
defensive cyber capabilities to protect Air Force missions against 
unwanted influence by an adversary.
    We are committed to building out the Air Force's contributions to 
USCYBERCOM's CMF to support the Nation and the Department of Defense's 
Joint Information Environment (JIE) framework.
                                 space
    The Air Force re-capitalized almost every satellite system in the 
space portfolio in the early 2000s. As those satellites transition to 
operations and space emerges as a warfighting domain, the Air Force is 
focused on fielding defendable, resilient, and more capable systems as 
soon as possible. Our National Security Strategy clearly states that 
unfettered access and freedom to operate in space are vital interests 
of the United States. The fiscal year 2019 Budget Request marks a bold 
pivot to support space warfighting and represents the Air Force's 
commitment to making wise, risk-informed, space superiority 
investments. The fiscal year 2019 President's Budget request for space 
investments of $8.5 billion reflects a 7.1 percent increase over the 
fiscal year 2018 President's Budget and the Air Force's continued 
dedication to provide critical space-based capabilities to Joint and 
Allied warfighters. Our investments in these capabilities continues 
over the FYDP, an increase of over 18 percent from last year's FYDP 
will continue to improve space situational awareness, increase our 
ability to defend our Nation's most vital space assets, build more jam-
resistant GPS satellites, improve missile warning, and expand 
partnerships to shape the strategic environment.
    To counter adversary advances, the fiscal year 2019 President's 
Budget request transitioned the Space Based Infrared System (SBIRS) 
seven and eight procurement to funding the Next-Generation Overhead 
Persistent Infrared (OPIR) program to rapidly field a strategically 
survivable missile warning architecture by the mid-2020s. Next-
Generation OPIR will serve as the core of an enterprise that uses space 
sensors to monitor space, air, land, and sea for infrared signatures. 
The delegation of Milestone Decision Authority back to the Air Force 
allows us to maintain flexibility in order to move fast to acquire this 
vital next generation capability.
    The Air Force is also simultaneously modernizing all segments of 
our unparalleled Positioning, Navigation, and Timing capability through 
the acquisition of new space-based systems, the transition to a new 
ground segment, and the development of Military-code capable user 
equipment. GPS continues to be the world's gold standard for 
Positioning, Navigation, and Timing, delivering these vital 
capabilities to America's warfighters, civil users, and our allies 
around the world. The first GPS III space vehicle will launch later 
this year and will provide greater accuracy, new civil signals 
compatible with the European Galileo system, and enhanced military 
signal power. Earlier this year, the Air Force released a request for 
proposals for our future GPS satellites, known as the GPS III Follow-On 
(GPS IIIF).
    The Air Force is also continuing its efforts with the GPS Next 
Generation Operational Control System (OCX), the ground system to 
command and control the next generation of the Air Force's GPS 
satellites. The OCX program will provide greater cybersecurity for the 
GPS enterprise, protecting a capability that is critical to the United 
States Armed Forces, the American economy, and billions of civilians. 
The OCX program is currently on track, most recently evidenced by the 
Air Force's acceptance of Block 0 capability, which will support GPS 
III launch and checkout, in October 2017. The Air Force is continuing 
to monitor the progress of the Block 1 and 2 system closely. Finally, 
the Air Force is leading the multi-service effort to provide more 
accurate and reliable PNT capability through the Military GPS User 
Equipment program.
    The Air Force is modernizing the SATCOM architecture through the 
acquisition of the both the ground and space segments--to include both 
free-flyer and hosted payload opportunities. We're also exploring new 
and innovative acquisition approaches and leveraging the acquisition 
authorities granted by the NDAA to procure these capabilities faster. 
We're working to partner with Norway on a hosted payload arrangement to 
provide a critical protected Polar SATCOM capability in 2022. Our 
partnership with Norway will allow the Air Force to provide a critical 
capability two years earlier and with an estimated $900 million in 
savings over a free-flyer option. The Air Force is working to address 
future risks in our protected SATCOM enterprise with next-generation 
systems that meet both protected strategic and tactical requirements. 
For wideband communications, the Air Force is currently examining 
innovative acquisition approaches and partnering with commercial 
providers to ensure worldwide SATCOM coverage and capability.
    While the Air Force continues to modernize our space- and ground-
based assets, we are also committed to our unparalleled record of 
mission success in providing National Security Space assets a ride to 
space through our Evolved Expendable Launch Vehicle program. The 
Evolved Expendable Launch Vehicle program purchases launch services 
from certified commercial providers to lift medium, intermediate, and 
heavy Department of Defense and Intelligence Community payloads into 
their intended orbits. In accordance with the law, the Air Force is 
moving to instill competition in our launch procurements while 
simultaneously working to transition away from the use of the Russian-
built RD-180 engine through our Rocket Propulsion System Other 
Transaction Authority agreements. In our Launch Service Agreements 
strategy, we are working with industry through public-private 
partnerships to ensure the United States possesses assured access to 
space--that is, maintains two or more families of commercially-
available launch vehicles--that satisfies National Security Space 
launch requirements.
    The Air Force is committed to providing the Joint Force with 
critical space-based capabilities that will allow us to fight and win a 
war that extends to space. To enable this shift in warfighting posture, 
we are making investments in more resilient and survivable space 
architectures and employing unique acquisition approaches like Other 
Transaction Authority agreements, increasing the speed of acquisition 
decisions thanks to the newly-delegated milestone decision authorities, 
and partnering with industry to take advantage of technological 
advancements and best practices. We believe the fiscal year 2019 
President's Budget request marks a turning point ensuring our space 
assets are defendable, resilient, and more capable and, we hope to 
continue our modernization and resiliency efforts with your support.
                               conclusion
    The demand for air, space and cyber continues to grow and our 
competitors continue to close technology gaps and negate our 
traditional advantages. In the midst of the challenges ahead, we will 
aim to keep these programs on track and deliver these systems--not only 
as a vital capability to our forces--but also as a best value to the 
taxpayer. The Air Force seeks to balance risk across capacity, 
capability, and readiness to maintain an advantage, however 
persistently unstable budgets and fiscal constraints have driven us to 
postpone several key modernization efforts such as UH-1N 
recapitalization and Long Range Stand-off Weapon. We are grateful for 
the recent fiscal relief, but we still face uncertainty. Sustainable 
funding across multiple fiscal year defense plans is critical to ensure 
we can meet today's demand for capability and capacity without 
sacrificing modernization for tomorrow's high-end fight against a full 
array of potential adversaries.
    As critical members of the joint team, your U.S. Air Force operates 
in a vast array of domains and prevails in every level of conflict. 
However, we must remain focused and maintain our advantage in order to 
continue providing our Nation the security it enjoys. We look forward 
to working closely with the Committee to ensure the ability to deliver 
combat air power for America when and where we are needed.

    Senator Cotton. General Harris, General Robinson, General 
Bunch spoke for both of you in that statement? Okay.
    General Bunch, let us return to something you said in your 
opening statement about the need for certain and predictable 
funding. Obviously, the 2-year budget and the spending bill for 
this fiscal year has given you the money you need through the 
end of September, but does part of that need for certain 
funding mean a defense appropriations bill later this summer 
for the next fiscal year, fiscal year 2019?
    Lieutenant General Bunch. Sir, we always want 
appropriations on time so that we can wisely execute the 
contracts that we put in place and take the steps we need to 
make sure we can deliver the Nation's needs.
    Senator Cotton. Thank you.
    I also assume that the need for certain and predictable 
funding includes preventing the return of sequestration for 
fiscal year 2020 and fiscal year 2021, which is current law 
under the Budget Control Act?
    Lieutenant General Bunch. Sir, we are still recovering. We 
have started turning the corner, but we are still recovering 
from the sequestration readiness impacts that we faced in the 
past.
    Senator Cotton. Thank you.
    General Harris, let us turn and look at the big picture for 
the Air Force. It is an early stage of an extensive 
modernization and recapitalization effort, including the F-35A, 
the KC-46, the B-21 bomber, the new trainer, the new Air Force 
One, all of which will require significant research and 
procurement dollars. Investments in next generation air 
dominance capabilities have also begun to ramp up 
significantly, not to mention recapitalization of the nuclear 
enterprise.
    How is the Air Force balancing all of these competing 
priorities?
    Lieutenant General Harris. Sir, we do have a new National 
Defense Strategy to go with this budget, and while that 
document itself is classified, it allows us to take some risk 
in some areas.
    With the budget that was awarded in 2018 and then moving 
out through 2019, what we are expecting based on the submission 
that we have, we are looking for a balance of continuing to 
improve our readiness but focusing more on the high-end fight 
against our peer adversaries rather than the focus of the last 
several years at the low-end fight for a counterinsurgency. 
That is a long list of things we have to get after.
    We started with our nuclear mission to make sure that that 
is number one. We have funded and covered as much of that as we 
can. We continue to make progress and making sure that it is 
connected and ready for the fight that we are trying to deter, 
but our focus is on that high end across with the B-21, the F-
35, our next generation air dominance, to make sure that we are 
ready to fight our adversaries the way we would expect to from 
a highly contested war.
    Senator Cotton. You somewhat anticipated and preempted my 
next question, which was how is the National Defense Strategy 
going to affect your modernization and recapitalization plan. 
It sounds like that focus on the high end is one change. It is 
the last National Defense Strategy.
    Lieutenant General Harris. Yes, sir, it has. The National 
Defense Strategy told us to take some risks in areas where it 
was either not cost effective to modernize some of our 
capability, to look at other ways to do things and to certainly 
make sure that we are focused for that high-end fight against 
some of the adversaries that are listed in the NDS. It was 
helpful in that it gave us areas to take risks. You saw that in 
space with one of our big moves with our SBIRs [Small Business 
Innovation Research Program] effort where we have restructured 
our final two SBIRs seven and eight to make sure that we could 
both defend the assets we have on orbit and make sure that we 
could hold an adversary's capability in space at risk also. You 
see that in the JSTARS [Joint Surveillance and Target Attack 
Radar System] effort that we have done to make sure that it was 
a survivable capability for the mission that we need, and where 
we are headed with the recap was not necessarily in support of 
the National Defense Strategy in the task we have.
    Senator Cotton. How are you managing all those priorities 
with the prospect that BCA sequestration levels may return in 
fiscal year 2020, which is now no more than 18 months away?
    Lieutenant General Harris. Sir, to be honest, a return to 
BCA sequester from that perspective would be devastating to our 
plans. I think the Chairman of the Joint Chiefs of Staff said 
it well. To execute and continue on where we are at, we need 
about a 3 percent increase. To execute the NDS strategy, it 
needs about a 5 percent increase. We are planning for a flat 
line budget not a return to BCA, and that is what is 
handcuffing us getting after some of the readiness and 
modernization and the capability that we need and the capacity 
that is expected of our joint teammates.
    Senator Cotton. One final question in this round. The Air 
Force leadership has stated on numerous occasions that the Air 
Force requires a minimum of 100 B-21 bombers. Has the National 
Defense Strategy done anything to change that requirement?
    Lieutenant General Harris. I would not say it has done 
anything to change it, sir. It has probably reinforced that 
requirement that 100 is the minimum based on what we are going 
to need out of that capability.
    Senator Cotton. Thank you.
    Senator King?
    Senator King. Thank you.
    General Bunch, let us talk about the F-35 for a minute. I 
understand that there is a dispute about priming some of the 
drains on the entire fleet of aircraft. This was not done on 
the production line. It has been identified as a problem. 
First, give me an update on what the situation is with 
accepting F-35 deliveries.
    Lieutenant General Bunch. Sir, Senator King, what we have 
done is put a pause. I would not call it a complete stop. Some 
of the lot 10 aircraft have been accepted, 14 to be exact. 
There are five that are in hold right now. Three of those are 
Air Force. One of those is from Norway and one of those is from 
Australia. We have taken this step as we negotiate and work 
with Lockheed Martin on how we do the remediation of that 
error.
    Senator King. Do all the planes that have been produced 
have this problem?
    Lieutenant General Bunch. No, sir, not all. We found it on 
a lot of the ones, though, that are in the fleet, and it is 
something that we need to go retrofit.
    Senator King. So the ones that are in production are 
being----
    Lieutenant General Bunch. Yes, sir. The ones that are in 
the line are being fixed, Senator.
    Senator King. I see. Okay. We are talking about 14 
airplanes?
    Lieutenant General Bunch. No, sir. We are talking more 
aircraft than that that have gone to the field. I cannot give 
you the exact number right now, and if I need to give you a 
number, we can go back and work that with the program office. 
But it is an escape, quality escape, on taking those steps in 
putting that corrosion protection in that area. It was found on 
an aircraft that was in the field. It is something we found in 
other places, and it is something we are right now working. 
Admiral Winter is working with Lockheed Martin to negotiate how 
we get that resolved.
    Senator King. I understand just in the last couple of days 
that Lockheed Martin may be refusing to do this work without 
reimbursement from the Government. What is the Air Force's view 
on that?
    Lieutenant General Bunch. Sir, right now our position is I 
need Admiral Winter to be the program executive officer and 
stand up and take this step to make sure we are getting a 
quality product and make sure we are getting something that we 
can afford.
    Senator King. I am not sure what you just said.
    Lieutenant General Bunch. What I really said is Admiral 
Winter is working this for us to work the remediation so that 
the contractor has to step up, which we support.
    Senator King. So it is your position that this is the 
responsibility of the contractor?
    Lieutenant General Bunch. That is my position, sir.
    Senator King. Thank you.
    Let us talk about the KC-46. I understand there are further 
delays there. Can you give us an update on where we are with 
the certification process?
    Lieutenant General Bunch. The certification process 
continues. It is delayed from what we had expected. We have run 
into issues with getting the FAA [Federal Aviation 
Administration] certifications through the process, and we have 
had delays in flight test execution.
    Senator King. Is this a contractor delay, an Air Force 
delay, or an FAA delay?
    Lieutenant General Bunch. It is a contractor delay because 
they are responsible for getting it through the certification 
process and delivering an aircraft, sir. So that FAA 
certification is a process they have to go through with the FAA 
to get approved, and they have not been able to accomplish 
that.
    The test delays are a program that we have not executed as 
a team to the level that we are supposed to execute. That is 
something that we are in discussions about how we prioritize 
and how we resource to make sure that it gets executed as 
quickly as possible. The latest estimate right now is the end 
of this year for the first aircraft delivery. We continue to 
have regular meetings and work with Boeing to see what we can 
do in parallel. We continue to work what we can do in the test 
program to expedite. Can we add additional resources? Can we 
rephase how we do certain tests? But our end game is we need an 
aircraft that when it is delivered is capable of the mission 
and we have something we can put our airmen in and our 
maintainers working on so that we can execute missions day one.
    Senator King. You are looking toward deliveries beginning 
at the end of this calendar year?
    Lieutenant General Bunch. Yes, sir. That is our estimate. 
We are trying to pull it left, but that is our estimate today, 
sir. I apologize for interrupting.
    Senator King. Do you think that is realistic, you can make 
that?
    Lieutenant General Bunch. Sir, we are still executing the 
test program. We still have a long way to go. I am optimistic 
today. I need to see the program continue to execute, and I 
need to see the performance continue to improve with a number 
of test points we are executing on a regular basis.
    Senator King. Now the other big project, the B-21.
    Lieutenant General Bunch. Yes, sir.
    Senator King. There may be material that we have to talk 
about in a closed session, but what can you tell me about the 
progress and the Air Force's understanding of where we are and 
if you are satisfied with progress to date both in terms of 
timeliness, capability, and cost?
    Lieutenant General Bunch. Sir, I am satisfied today with 
our progress. We continue in the MD [missile defense] program. 
I think we have reported before we completed preliminary design 
review. We have now completed a first software drop to go 
through the process, and we have software out that we are 
looking at now. They are already working on the second drop. We 
continue to have regular meetings with them and measure the 
progress, give regular updates to senior leaders, but right now 
I am very happy with how the program is progressing.
    Senator King. And it is falling within the parameters of 
the contract in terms of cost?
    Lieutenant General Bunch. It is falling within the 
parameters of what we estimated the cost would be because, if 
you recall, we did our independent cost assessment. We 
estimated what we thought it would be, and it is falling within 
those parameters today.
    Senator King. Good. Thank you.
    Lieutenant General Bunch. Yes, sir.
    Senator King. Mr. Chairman, thank you very much.
    Senator Cotton. Thank you, Senator King, touching on 
several of the key questions that every member of this 
committee has.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, welcome. Thanks for your service.
    I want to continue on with the KC-46. How long has it been 
delayed? What was the original target date?
    Lieutenant General Bunch. Our original target date for the 
first aircraft, we were actually going to get required assets 
available by August of 2017. That was what we had put on 
contract. That was going to be 18 aircraft, 9 work ship sets--
that is wing, air, fuel, and pod ship sets--and 2 spare 
engines. Currently we estimate that in February of 2019 at 
best.
    Senator Sullivan. So a 2-year delay at minimum?
    Lieutenant General Bunch. That is about an 18-month delay, 
sir, but it has been significantly delayed. We actually are 
expecting first aircraft delivery late this year.
    Senator Sullivan. You gave us a little bit of generalities. 
Can you get more specific on the source of the delay?
    Lieutenant General Bunch. Sir, the requirements to get 
through the certification process has taken significantly 
longer than we originally scheduled and what Boeing thought 
they were going to be able to execute working with the FAA and 
doing those certifications. That has taken significantly 
longer.
    We have discovered things in flight tests. Over a year ago, 
we had a boom load issue. That has been rectified. Right now, 
we have three category 1 deficiency reports that we are working 
through. We have a category 1 deficiency report on the 
centerline drogue system and how it refuels the F-18. We have a 
category 1 deficiency report----
    Senator Sullivan. Category 1 is?
    Lieutenant General Bunch. I apologize, sir. I went into 
acquisition speak.
    That is a deficiency that is significant enough that we 
need to see it fixed and we need tactics, techniques, and 
procedures or mitigations work before we will be able to accept 
that capability.
    Senator Sullivan. Who bears the financial burden of these 
delays?
    Lieutenant General Bunch. On this program, sir, the cost is 
capped at $4.9 billion. We have already far exceeded that. So 
all of this expenditure is being done on Boeing.
    Senator Sullivan. Okay. We had a lot of lessons learned, I 
am assuming, from the F-35 acquisition and delays and how long 
that took. Are we applying any of those to what is going on 
with the KC-46 right now?
    Lieutenant General Bunch. The KC-46 is a different 
contracting strategy, and it is a different asset.
    Senator Sullivan. There are no lessons learned from the F-
35 to this situation?
    Lieutenant General Bunch. There are probably some lessons 
learned about how you build your strategy from the very 
beginning, who you have involved, and how you make your 
assumptions. The difference on the two programs, the F-35 
program was a cost-plus program that has caused us to continue 
to invest money in that program. On the KC-46 program, that was 
a fixed price, incentive firm contract, and when we reached the 
cap for that, we no longer are expending funds. We are paying 
for some of our test force and other things, but all of the 
overruns Boeing is paying for.
    Senator Sullivan. In my State we are going to have over 100 
fifth generation fighters when the F-35's get there and the F-
22's and JPARC [Joint Pacific Alaska Range Complex]. I will 
talk to you in a minute about that.
    In both the Secretary and General Goldfein's confirmation 
hearing, they committed to me to take a hard look at the OCONUS 
[outside the continental United States] decision on the KC-46 
basing in Alaska. Can I continue to get your commitment on 
that, General, to take a look at that?
    Lieutenant General Harris. Yes, sir. We have made no 
change, and we will continue to look at it.
    Senator Sullivan. Let me ask on the JPARC. With the fifth 
generation aircraft and the need for bigger training, a number 
of the senior Air Force leadership has referred to that 
training space as the crown jewel given its size and the joint 
training and the combined arms training.
    But the one thing that I think a number of you--and it was 
even in Secretary Wilson's confirmation, the QFRs--what we lack 
there in terms of the most realistic training is up to date 
equipment. Emitters, in terms of the threat emitters are more 
representative of the Vietnam era and the first Gulf War. 
Secretary Wilson stated that she believed there are plans to 
add joint threat emitters and advanced radar threat systems to 
JPARC to make that the top, most realistic. Is that ongoing? 
Can you confirm her commitment that she made during her 
confirmation hearing on that? General Robinson, it looks like 
you got this one.
    Major General Robinson. Yes, sir, Senator Sullivan. A great 
question. The short and the long is we actually have an 
operational training infrastructure road map that we have spent 
quite a bit amount of time researching the best way to optimize 
training for our fifth generation platforms in terms of the 
right threat emitters and replicating the threats that you 
talked about physically, as well as virtually. We are 
aggressively looking at how we can do that.
    Senator Sullivan. So is that a yes?
    Major General Robinson. Yes.
    Senator Sullivan. Would you agree, given the importance of 
fifth gen--I know we have notional training but actual air-to-
air, real steel up in the air that having much larger air 
spaces is so important given the standoff ranges on fifth 
generation fighters that we need to make sure we are training. 
Would you agree that is important as well?
    Lieutenant General Harris. Yes, sir, we do. The JPARC is 
one of those crown jewels that provides a magnitude in what we 
need for a lot of that.
    Senator Sullivan. Air space bigger than Florida. You knew 
that but I am not sure my colleagues did.
    Lieutenant General Harris. Yes, sir. I enjoyed my time at 
Eielson Air Force Base for 2 years, so I am familiar with it.
    We are supportive and will continue to work to make sure 
that we get the training that we need. But as you know, the F-
35 and the F-22 are very sophisticated capabilities that they 
see through a lot of the threat that is not an actual piece. We 
are having to work through that on our training also.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator McCaskill?
    Senator McCaskill. I know that you all would like to go 
back and change the decision. I am so proud of the Navy pilot 
that was piloting the Southwest flight and was able to land 
that plane. She tried to be in the Air Force first, and you 
guys were not taking women pilots at the time. I am glad that 
we have rectified that throughout our military since, 
obviously, she showed tremendous skill and poise at one of the 
most critical moments a pilot could ever face. I had to tease 
you a little bit about that before I began my questions.
    Have any of you had a chance to read the DOD IG [Inspector 
General] report on F-22 modernization that came out last month?
    Lieutenant General Harris. Yes, ma'am. We have the report.
    Senator McCaskill. Could you tell me if the issue that they 
identified about implementing agile software development 
methods on weapon system acquisitions--if those issues that 
they point out--have they been addressed?
    Lieutenant General Bunch. Ma'am, we had already identified 
those issues and had started taking steps. We are implementing 
agile developmental ops procedures in that platform to try to 
accelerate capabilities to the field. Those steps were taken 
before the report was ever published.
    Senator McCaskill. Do you believe that all of the issues 
that are identified in that report have now been taken care of? 
Can I go through my IG list and check all of those off?
    Lieutenant General Bunch. I believe, ma'am, we have 
addressed those issues. There were certain things they had in 
we did not concur with exactly the wording they had there, but 
I am very comfortable and I have emails even on it this week as 
to how we move forward to be more agile and how we do that 
software development to move forward and provide those 
capabilities more quickly at the speed of relevance into the 
field.
    Senator McCaskill. As always when you have a disagreement 
with the way a finding is--as an old auditor, I am picky about 
this. If you disagree with the way the finding was written but 
not the substance of the finding, I think it is important for 
us to understand that. Would you mind if my staff followed up 
to find out those findings that you did not concur with, what 
the basis of that was to make sure that we are not overlooking 
the forest for the trees?
    Lieutenant General Bunch. I am happy to have that, ma'am.
    Senator McCaskill. Thank you.
    Let us talk just for a minute about B-2 modernization and 
transition to B-21. As you might imagine, I care a lot about 
the B-2. But I understand that time marches on and I want to 
ask a couple of questions. I know that there is funding in the 
fiscal year 2019 budget to continue the B-1 and B-2. I am under 
the impression--and I want you all to confirm this--that they 
will not be retired until there are a sufficient number of B-
21s. Is that correct?
    Lieutenant General Harris. Yes, ma'am. To say sufficient 
number, we intend to hold our bomber fleet at the minimum 
numbers that we have now and then grow as we add B-21s to the 
fleet to 175 total: 100 B-21s, 75-76 B-52s.
    Senator McCaskill. I am assuming that both bomber wings 
that are equipped with B-1 and B-2 bombers will be re-equipped 
with B-21s?
    Lieutenant General Harris. Right now, the approach, ma'am, 
is yes. If you are flying bombers today, you will be flying 
bombers in the future.
    Senator McCaskill. Okay.
    Our current bomber level is 158. We had 290 in 1991. Your 
written testimony says the current level is insufficient. As 
you just mentioned, your intent is to maintain 78 B-52s and 
keep going until 2050 and grow the B-21 to a minimum of 100. Is 
178 sufficient?
    Lieutenant General Harris. From a war plan perspective, 175 
to 178 is better than what we have now. So there is improvement 
in that. We would like to fix the nine bomber squadrons we have 
to give them more airplanes per squadron and then continue to 
grow to somewhere in the neighborhood of about 14 to 16 bomber 
squadrons that are ready for the mission. So sufficient for the 
fight that we are looking at in the NDS. We would have to say 
yes. We would be more effective if we had more.
    Senator McCaskill. Will we maintain bomber wings within the 
Air National Guard, and will they be equipped with B-21s?
    Lieutenant General Harris. The National Guard will continue 
to be associated with the bomber wings that they are associated 
with now. That will not change with the B-21s.
    Senator McCaskill. Is there a plan to phase out B-1s prior 
to B-2s, or will they be phased out at the same time?
    Lieutenant General Harris. It is a balance, ma'am. The B-21 
is going to be our penetrating bomber of the future. The B-2 is 
our most expensive bomber even though the numbers are small. 
The bomber road map from my understanding is going to start 
with initially B-1s phasing out. Once we have capability with 
the B-21, then we will look at the B-2 fleet and then move back 
to finish the B-1 fleet. So you will see both of them phasing 
out in the 2030s.
    Senator McCaskill. Okay.
    Thank you, Mr. Chairman.
    Senator Cotton. Thank you, Senator McCaskill.
    General Harris, I have to say Senator McCaskill asked if 
the 178 bombers were sufficient, and you gave what seemed to be 
a diplomatic answer of no. Is that accurate?
    Lieutenant General Harris. We say 175, I think is the 
number, is our minimum number. We are below that now, and I 
would be loathe to say in the future that that would be 
sufficient. But to match the NDS, growing to that number is an 
important task for us.
    Senator Cotton. I heard the phrase ``fight the NDAA 
[National Defense Authorization Act] fight''.
    Lieutenant General Harris. No. I am sorry. The NDS.
    Senator Cotton. NDS, okay. You are saying we fight Russia 
and China, not the NDAA politics.
    [Laughter.]
    Senator Cotton. Thank you. I just wanted to clarify that 
because I understand you have to operate under constraints, but 
we can make decisions about what we think is vital to our 
national security in the long run.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    Gentlemen, I was watching the testimony back in my office, 
and I believe, General Bunch, it was you who was talking about 
the KC-46 and some of the delays. Do you have any idea how that 
shifting to the right also affects the downstream deployment to 
bases, I believe Seymour Johnson being one of them?
    Lieutenant General Bunch. Sir, if we are delaying the 
acceptance of aircraft, it is going to have to have an impact 
until we start getting aircraft----
    Senator Tillis. It is pretty much day to day.
    Lieutenant General Bunch. We are going to look to see if we 
can accelerate maybe some. One of the things we have been 
approached on is can we accept more aircraft per month than 
what we have currently planned. We will have to look at the 
throughput of that. There are certain things we have to do. It 
may not be day for day, sir, but it is going to be a slip.
    Senator Tillis. You mentioned that the slippage is the 
contractor's inability to get the FAA certification. Do you all 
as a Department have insight into the bases for those delays to 
know if it is just--you would think they would be highly 
motivated to get through the certification, or if there are 
kinks over in the FAA, or do you even concern yourself with the 
root causes? You just expect them to produce an outcome.
    Lieutenant General Bunch. Sir, we expect them to produce an 
outcome, but we do get concerned when they are having issues. 
They are continuing to go back and forth. They are having the 
dialogue. We have asked how they are addressing that and how 
aggressively they are working that with the FAA. We are 
concerned about that.
    I do want to say that is not the only thing that is 
hindering us. I talked about some performance things, and also 
we are still having difficulties getting through some of the 
test program.
    Senator Tillis. General Harris, I did not keep the tick 
marks, but I was watching your testimony as well and then 
answers to some of the comments or questions from Senator 
McCaskill. And you used ``minimum multiple times, as this at 
least satisfies our minimum requirement. In an open setting 
like this, can you tell us what sort of cumulative gap exists 
between us and our near peer competitors when all we do is 
achieve the minimum?
    Lieutenant General Harris. Thank you, sir for the question.
    Our industrial base, working with some of our advanced 
companies, keep us ahead of our competitors with a capability 
that they are yet to deliver from our adversaries. We are 
seeing their ability to project forces again: Russia, 
resurgent; China starting to work on that. All of our 
adversaries are wishing to have the capability we have.
    The minimum numbers we are talking about is because we are 
having to focus on a balance. We did get a plus-up for 2019 
with the budget that has been submitted, but it was not 
everything. We have to balance our nuclear, our space, and our 
conventional forces. That is why we are still working at the 
minimums.
    But looking with the National Defense Strategy, not the 
NDAA, we are intending to be able to fight and win against any 
of our adversaries, whether it is today, it is in 5 years, or 
it is in 10 years.
    Senator Tillis. This actually may not be a question you all 
can answer in this setting, but can you give me a sense of some 
of our partners who are involved with manufacturing operations 
of the F-35, the Joint Strike Fighter? I know Turkey is one of 
them. For example, what is the extent of their involvement in 
that program?
    Lieutenant General Bunch. We can go into more detail. I do 
not have the full list, but the way that that program has been 
run, we have competitions. Turkey is a contributor of a 
significant amount of parts. They also have some repair 
facilities there for engines and other aspects that we deal 
with. We also have those in Italy. We have those with Japan, 
and we have others. Almost every international partner has 
certain components of the aircraft that are built in their 
areas.
    Senator Tillis. Okay.
    In Seapower, we have this magic number of 355 for our 
fleet, the ship number. I, for one, think that it is nice to 
have some numbers so you can tick off when you are 
accomplishing things. But when we talk about numbers, we kind 
of get away from capabilities. As you are going from 20th 
Century to 21st Century data-centric, new strategies within the 
Air Force, what mistake do we make if we just come back and 
tick off the number of B-21s or F-35s or KC-46s versus that 
inherent capability you are looking for? In other words, are 
our adversaries strictly focused on hitting whatever their 
production targets are for comparable systems, or are they 
looking at things differently and being more dynamic in terms 
of what they are fielding? I know in sea power, for example, 
Russia has a different maybe approach to how they are going to 
go about projecting power on the seas. How are we doing with 
that, and how are our adversaries looking at that, capabilities 
versus units?
    Lieutenant General Bunch. Senator Tillis, I cannot say 
exactly how our adversaries view it. What I can say is we are 
looking at ways that we can prototype and get more capabilities 
into the field in a more timely manner. Can I prototype and 
demonstrate a capability and not agree that I am going to buy 
500 or 1,000? If it is better than what I have, can I go buy a 
certain number to get a capability out in the field to give 
more warfighting capability? That is an approach that Dr. Roper 
is bringing in and we have been trying to do to try to get more 
capabilities in the field, which kind of goes against here is a 
magic number I got to get to, what do I do to speed this up.
    Lieutenant General Harris. Senator, if I can add. We are 
also looking at it from a network perspective. We would not 
compare one of our ships against one of their ships. You bring 
a fleet to that with our Navy. We bring a system with that from 
an airman's perspective. It is not just a single platform. It 
is what we can put together in air, space, and cyber. We 
continue to make advances in all three of those to make sure 
that we can dominate our adversary at a time of our choosing.
    Senator Cotton. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here today.
    Last year, the Air Force announced that it was considering 
retiring our fourth generation F-15 fighters. When I asked you 
all about this last year, the Air Force cited internal 
deliberations and said at that time no decision had been made. 
Where are we this year? General Bunch, General Harris? Who 
would like to answer that?
    Lieutenant General Harris. Ma'am, I will start with that. 
The study is still ongoing, and we are looking at the F-35 that 
we are buying now and the beddown options that we can do. The 
National Defense Strategy is where we have been putting our 
focus for the last 6 months to a year, and now that it is 
published, it tells us to modernize what is most cost effective 
and capable for getting the mission done. That brings our F-15C 
and some of our assets back into the mix. There is nothing off 
the table. We are looking at, as we bring F-35s in, can we grow 
our capacity rather than just replace one for one. We are also 
looking to see if we cannot do that, what is our best asset, 
our least capable asset to retire based on the value that it 
would provide for us for the money----
    Senator Warren. Does that mean we are likely to have our F-
15s, say, through the 2020s, or you just cannot say at this 
point still?
    Lieutenant General Harris. Through 2020s, yes.
    Senator Warren. Through the 2020s, yes.
    Lieutenant General Harris. If you are saying the next 2 
years when we get into 2020. If you are saying for the next 12 
years, the end of the 2020s, I do not know. We are looking at 
our F-16s, our A-10s, and our F-15s to make sure that we have 
the best capable Air Force from that, and the F-35, as a multi-
role airplane, is very capable of some of the things that the 
F-15C, the F-16, and the A-10 do.
    Senator Warren. I get that you all are still trying to work 
this out, and obviously, you are trying to maintain coverage at 
all times. I certainly understand that.
    But the part I am struggling with is if we do not have a 
replacement in place, then what are we going to do? We are 
using these F-15s every single day, and it takes us to the 
question of this is an aircraft that has already exceeded 90 
percent of its useful life. So the question I have, is there a 
variety of proposals for how it is we might extend the life of 
the platform? I want to know how it is that you are thinking 
about this. Are you thinking about extending it? What is the 
approach?
    Lieutenant General Bunch. Ma'am, I will address the 
extension and the acquisition parts of this.
    Senator Warren. Sure.
    Lieutenant General Bunch. On the first part, one of the 
things we are doing, we have got an EPAWSS [Eagle Passive 
Active Warning Survivability System]. That is a new defensive 
system that is going on the F-15E. We are continuing to do our 
testing on that for the F-15C such that if we make the decision 
to retain those platforms, that integration will be easier to 
do and we will have already done the tests and we can put it in 
the field in a more timely manner. We have not closed the door 
on that. That is something that we are doing to make sure we 
have that flexibility.
    Senator Warren. Do you have some kind of timeline on that 
decision? Can you just help me understand that better?
    Lieutenant General Bunch. I cannot tell you the timeline on 
the decision, ma'am. What I can tell you is one of the factors 
that we are looking at is those aircraft has been around for an 
extended period of time. There are service life extension 
programs that have gone in a lot of ways. We are doing some of 
the lower cost service life extension programs on that 
platform. Some of those become very expensive before very long 
to the point that it may not be cost effective to do a service 
life extension program for the cost that it would take to 
modernize that aircraft and continue to use forward. That is 
part of what is going into the analysis that we are doing to 
make sure we are making the best trade for the taxpayer dollar 
on the capability that we are trying to provide and balance 
that against can I get that mission done with the F-35s.
    Senator Warren. Then let me ask, there is an existing 
program of record to modernize the current F-15 fleet. For 
example, the Air Force previously planned to upgrade the active 
electronically scanned array, AESA, radar on the F-15s 
beginning in 2019. Is there funding in the 2019 request to do 
those upgrades?
    Lieutenant General Harris. Again, ma'am, there is. We are 
focused primarily on the fleet we know we will keep in our F-
15E. So EPAWSS Inc 1 and 2 is continuing to move forward with 
that.
    Senator Warren. You do have funding, though, in the 2019 
because I thought you did not for that.
    Lieutenant General Harris. For the F-15E fleet, yes, ma'am. 
If you are talking F-15Cs and our air defense, air superiority 
role, we do not at this time because we expect this year with 
the National Defense Strategy and I think it is a 
congressionally directed study on our future fighter force that 
should align with our Air Combat Command's lead on the beddown 
of our fighters as we bring in F-35s--and you will also notice 
in the fiscal year 2019 an increase in our funding for our next 
generation air dominance. We are looking at the air superiority 
mission and what is the best way to do that. The near term may 
also include F-35s going to those F-15C units for that role.
    Senator Warren. Okay. I take it that means that you do not 
have a 5-year funding plan for upgrades to the F-15s. Is that 
right? Is that on hold while you deliberate about what to do 
next, or are you rolling that forward?
    Lieutenant General Harris. I would say it is on hold at 
this time until we understand where it is going to go. If we 
decide that we are going to keep the F-15C, then we will go 
execute and keep it to be safe platform to accomplish the 
mission.
    Senator Warren. The reason I ask about this today is 
because the majority of the F-15 fleet is used for the Guard, 
and I just want to make sure the Guard does not get the short 
end of the stick on this one. You know, on 9/11, the F-15s, 
including from the 104th Fighter Wing in Massachusetts, were 
some of the first aircraft in the sky. These are our citizen 
airmen, and they have protected the Nation from the skies 24 
hours a day, 365 days a year. I just do not see a scenario 
where they get retired anytime in the near future. If they are 
not going to be retired, then I think we owe it to those who 
are flying these planes that they have equipment and resources 
that they can depend on.
    Lieutenant General Bunch. Ma'am, I just want to say one 
thing. We are a total force. We are not going to ignore the 
Guard and Reserve. That is not part of what we are doing. Okay? 
I cannot tell you it is going to be F-15Cs. I am going to tell 
you that it is a total force. That is the only way that we can 
execute our mission.
    Senator Warren. I appreciate that and I am going to hold 
you to it.
    Senator Cotton. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Thank you for your 
service.
    The Air Force has reported a shortage of approximately 
2,000 pilots, including a shortage of about 950 fighter pilots, 
which is essentially unchanged since last year. Much of the 
training occurs in Texas from Joint Base San Antonio, Randolph, 
and at Shepherd Air Force Base. I know they are working every 
day to resolve the issue.
    Would you please update the committee on current efforts to 
address this critical problem?
    Major General Robinson. Senator Cruz, thank you for that 
question.
    Absolutely, the Air Force is laser-focused on that problem.
    The update I would offer is we have narrowed the very 
focused study and analysis on root cause of the situation and 
how to fix it. We have narrowed it down to three main lines of 
effort. One, requirements. What are the total requirements for 
the pilot force from squadron all the way up to staffs?
    Two, production. Do we have the production that we need in 
terms of producing pilots through the entire ecosystem, so 
initial training and graduate level training all the way 
through to the military-ready pilot?
    Then three, retention. We have the most control over the 
requirements in terms of influencing the decisions on that, 
very much fiscally informed control over production, but we 
have figured out that production is really the main effort. We 
have to set the production. Right now our current target is 
1,400 pilots per year total force. We have to set it there and 
leave it there. That is part of the problem, the root cause of 
where we find ourselves in the position we are in now. We have 
changed the production over the last 10 to 12 years up and 
down, mostly tending downward.
    The retention. We have a number of programs that are 
underway to influence retention to make our airmen want to stay 
and do this job. It is not just aviation bonuses, if you will. 
It is things like we have a talent management system that we 
call which essentially is way to give the member a bigger 
choice in their assignment selection and a voice where they 
would like to go for their next assignment, all the way through 
to things where they can volunteer for long tours overseas. We 
have cut over half of our 365-day tours overseas down to 6-
month tours to, again, make that more enticing for them to want 
to stay and affect their quality of service, as well as their 
quality of life for their families. A number of efforts there. 
Other assignment options, second assignment in place policy 
changes to allow them to have more stability for their 
families, particularly for someone who has a professional 
spouse or very concerned about the quality of education that 
their children are getting with where they are.
    Senator Cruz. Of the different steps you mentioned, what 
are you seeing is having the most positive impact on retention?
    Major General Robinson. Right now, the most positive impact 
that we are seeing are the things that are not necessarily 
monetarily related. It is these options for choice in how they 
would like to serve their country. We are also looking at a 4 
to 6-month study that we are about to undertake with regard to 
a pilot-only or aviation-only technical track to see how that 
would actually pan out for the Air Force, and if we can achieve 
the proper outcomes, it is a win-win for the Service, as well 
as for the members.
    Senator Cruz. What else is needed from Congress in terms of 
authorities or otherwise to help address this problem?
    Major General Robinson. Senator Cruz, right now we have 
gotten tremendous support from Congress up to this point. We 
appreciate that greatly.
    The effort that we just finished at the direction of the 
Secretary of the Air Force, which was to get our fighter pilot 
crisis to a 95 percent manning level and then total pilot 
requirement up to 95 percent by the end of fiscal year 2023 is 
the goal she gave us. We are pursuing that quite heavily. As we 
work our way through the options that we are going to offer to 
our senior leadership, we may come to Congress for some 
assistance and policy changes and/or perhaps some legislative 
relief if we find an alternative way perhaps to do monetary pay 
versus aviation bonuses versus another way. We are looking at 
our coalition partners that have air forces like ours that are 
as capable and as advanced as ours, as well as our joint 
partners, for how they handle those difficult challenges for 
those highly needed mission areas.
    Senator Cruz. Thank you.
    General Bunch, let me shift topics. In the Department's 
budget request, it included $2.3 billion for the development of 
the B-21 bomber. In fiscal year 2018, it was $2 billion. Could 
you describe to this subcommittee what is planned to be done 
with that $2.3 billion request?
    Lieutenant General Bunch. Sir, I will go into a lot detail 
given the nature of the work that we are doing there. What I 
will say is we are continuing the engineering, manufacturing, 
and development. We are continuing some of those risk reduction 
areas. What we are also doing is we finished preliminary design 
review. We are on our way to critical design review. We have 
manned up a good portion of what we need to do. We are making 
everything ready to begin our test program in the future, and 
we have delivered the first set of software for that platform 
and we are going through that. Then we are getting set up for 
the next set of software to come in. We are making good 
progress. I am comfortable today with where we are at in the 
progress that Northrup Grumman is making on the program.
    Senator Cruz. One final question, shifting to the F-35. Are 
you concerned about the cost of F-35 sustainment? If so, what 
efforts is the Air Force making to deal with that? What do you 
see of the consequences if that cost is not reduced?
    Lieutenant General Bunch. Sir, we are worried about the 
cost. The production costs are coming down along the lines that 
we predicted from the program office, that the production costs 
are coming down, the procurement cost of the assets. The 
sustainment costs have been higher than what we would like. We 
are working with the program office to look at what are the 
high time drivers of cost. What are the areas that we can 
attack? How can we work with Lockheed Martin? Can we stand up 
our depots faster? What do we do to get more people involved in 
the production of parts? How do we make that work? All of those 
are efforts that are ongoing.
    The program office has a room where they have multiple 
charts to show what activities they are trying to do. We have 
small groups that have been stood up with all the Services and 
the acquisition executives of the services and Ms. Lord's staff 
that we are working on those and coming up with ideas. We have 
a full court press on that area.
    We do need to drive those costs down. We need to get that 
to the point that it is not just cost effective to buy, it has 
to be cost effective to operate and maintain as well, sir.
    Senator Cruz. Thank you, General.
    Senator Cotton. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you all for your service to the country.
    I want to return to an issue I have discussed with senior 
Air Force leadership before, the future of the 122nd Fighter 
Wing in Fort Wayne, Indiana. They have made it clear to me that 
the Air Force will maintain a manned air combat mission in Fort 
Wayne and will continue to identify opportunities for mission 
conversion going forward.
    As you noted in your written testimony, the Air Force has 
reinitiated the A-10 rewinging program to prevent further 
groundings and ensure a minimum of six combat formations remain 
in service until 2032. Unfortunately, these efforts will not 
entirely prevent some of your A-10 units from aircraft 
grounding due to wing issues while the wing box procurement 
program gets up to speed.
    Fort Wayne's mission conversion to F-16s or F-35s would 
allow the divestment of its 16 A-10s with enhanced wing 
assemblies to other units in order to stabilize the A-10 fleet 
until the winging program catches up with the need. Not only 
that, if done promptly, the Air Force could take advantage of 
the unit's scheduled dwell time for conversion.
    I understand that a site activation task force, or SATF, 
will be necessary to validate the 122nd's mission for an F-16 
or F-35 conversion. When will you be able to begin these 
processes in keeping with the commitments that I have been 
given?
    Lieutenant General Harris. Sir, unsure of when the process 
itself will begin, but the commitment that the Chief and 
Secretary have made to the unit about flying F-16s from the 
Burlington transition is still solid. We expect that to happen. 
What we intend to do--the pace of the A-10 rewinging will not 
keep up with stopping future groundings. There will be future 
groundings, but there will be enough aircraft available to fly 
the squadrons that we need for our combat operations and the 
capabilities. From that perspective, we will take the best of 
the A-10s that leave and push them around to other units to 
make sure they have flyable aircraft.
    Senator Donnelly. When will there be documentation that 
confirms an official conversion plan?
    Lieutenant General Harris. As we complete our fighter force 
study--and part of that is tasked by Congress--I expect to have 
that out in fiscal year 2019, which will lay out our F-35 
beddown plan and what we are doing with the rest of our fighter 
assets.
    Senator Donnelly. I am sure you know there is nothing 
standing in the way legislatively. Congress explicitly 
clarified in section 134 of the fiscal year 2017 NDAA, that the 
Air Force has authority to transition the 122nd to a new 
mission, F-16s or F-35s, stands regardless of whether the A-10 
is retired.
    Lieutenant General Harris. Yes, sir. We are aware of it.
    Senator Donnelly. The 2014 report of the National 
Commission on the Structure of the Air Force recommended 
expanding the number of Air Force associate units. In the 
coming years, as you make basing decisions on new platforms and 
shape the future force structure of the Air Force, do you 
foresee the Air Force expanding the number of associate units 
nationwide?
    Lieutenant General Harris. We do, sir. There is a lot of 
advantage that we get from that expansion.
    Senator Donnelly. Actually my next question was going to be 
what advantages do the associate units offer you. So please.
    Lieutenant General Harris. Sir, as we go through the 
retention that we talked about, it is a total force issue, and 
to be further clear, the pilot shortage we are having in the 
Air Force also impacts our Navy and Marine Corps teammates, but 
it is a national problem. Our airlines are hiring 5,000 pilots 
a year, and when we get up to our max capacity, we as a DOD 
will probably only generate about 2,500 pilots a year. Even as 
we are improving and fixing our numbers, it is not going to be 
a national solution yet.
    A lot of the experience that we are lacking right now--we 
fix much of our maintenance issues with bringing in 4,000 new 
maintainers over the last 12 to 15 months. But they are all 
young and they are not ready to maintain aircraft alone and 
they need supervision. A lot of that supervision resides in our 
Guard and Reserve with those experience levels. So bringing 
together more associate units will actually help us experience 
and provide the supervision we need to continue to have an 
effective and efficient force.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Cotton. Senator Peters, you are in the chute if you 
would like to. Otherwise we can give you a few minutes to 
collect your thoughts. I have more questions.
    Senator Peters. If you want to ask a quick question, that 
would be great.
    Senator Cotton. I mean, we are ready for you to go if you 
are ready.
    Senator Peters. I can be ready quickly.
    My main question I understand was already asked and 
answered, which dealt with A-10 rewinging. But I understand 
that that has already been dealt with, an important question 
for me in Michigan and Selfridge Air National Guard Base and 
the A-10 squadron that is there. I appreciated your response 
there.
    I just have one question. The Air Force Research Lab (AFRL) 
has issued a 5-year phase I contract to develop and demonstrate 
a new cruise missile called the Gray Wolf. The missile includes 
network swarming behavior to counter integrated air defense 
threats and provides flexibility in highly contested 
environments.
    I think frequently when people think of autonomous systems, 
they think of remotely piloted aircraft or drones, and when 
they think of autonomous weapons, they sometimes think of 
terminator robots. But a munition like a Gray Wolf could 
include both semiautonomous capability operating in a swarm 
with collaborative algorithms and make the final decision about 
what to hit once a strike is launched at a target. I know part 
of the Gray Wolf program's goal is to ensure that munitions are 
cheap enough so that swarming will be cost effective.
    I think this reflects a technological trend in warfare that 
the Air Force is certainly well positioned to take advantage 
of, but it will also require a shift in thinking as well. Low-
cost swarms of munitions or platforms can be an effective 
response to the proliferation of anti-access/aerial denial 
systems.
    But my question to you is could you please provide an 
update on the Gray Wolf, as well as discuss the potential for 
using network swarms, munitions, or platforms to defeat air 
defense threats. Basically where do you see that going?
    Lieutenant General Bunch. Sir, I will take the first hit 
and what I will do is say we will come and give you a more in-
depth brief on the Gray Wolf program and what we are doing. I 
do not have those details with me today, so I apologize for 
that. But that is an area that we will come back.
    Senator Peters. I appreciate it.
    Lieutenant General Bunch. What I will say is we are looking 
at swarming technologies and autonomy. Those are areas that we 
are very focused on as to how we are working with the research 
laboratory, what can we demonstrate, how we would be able to 
implement those as maybe a lower cost solution to some of the 
problems. That is an area that we are looking at, we are 
working on, and we believe has great promise for something we 
can do in the future. But it is a mindset change that we have 
to work our way through.
    Senator Peters. Right.
    Major General Robinson. Senator Peters, if I may add to 
that. Our Chief has us very, very focused on network aspects of 
warfare and thinking about that through disaggregated 
connectivity, multi-domain command and control and battle. The 
Chief always asks with every new platform that we get, that we 
attain, can it connect, can it share, most importantly, can it 
learn. That is where we are headed with regard to how we put 
the network and the systems of systems and employ them to be 
successful against those near peer and peer adversaries.
    Senator Peters. Right, great.
    Yes, please.
    Lieutenant General Harris. Sir, thank you for the 
opportunity to speak.
    This is important to us. It is part of our air superiority 
2030 system, family of systems. We recognize that it is not 
going to be only a high-cost penetrating capability that we 
need. We do need to have some standoff capability, others that 
penetrate, and a different thinking for those weapons. To that 
point, in the AI [artificial intelligence] effort, through AFRL 
in the next 5 years, we spend roughly $1 billion, and we expect 
that to only increase to get after systems like this. So we are 
on that road.
    Senator Peters. Great. Appreciate that.
    Lieutenant General Bunch. We will come and give you 
specifics on that specific program. I just do not have those 
details, sir.
    Senator Peters. I appreciate that as well. Thank you for 
your answer.
    Thank you, Mr. Chairman.
    Senator Cotton. Thank you, Senator Peters.
    The buzzer was a vote on the floor, which means Senator 
King and I will have about 10 minutes before we need to leave 
to a vote.
    I want to touch on two issues we have not touched yet in 
this wide-ranging hearing.
    First, remotely piloted vehicles. General Robinson, would 
you please provide the committee an update on the Air Force's 
RPA [remotely piloted aircraft] Get Well Plan?
    Major General Robinson. Yes, Mr. Chairman. Thank you for 
that question.
    Where we are right now in our Get Well plan for RPAs is we 
are essentially on track, and it is going very well.
    One of our objectives was to establish a 10 to 1 crew-to-
combat line ratio to make the tempo sustainable for the 
squadrons and what they do when they are deployed in place in a 
deployed-in-place mission. As well, we have the MQ-1 and MQ-9 
formal training units up to 100 percent manning, which we did 
that by the first quarter of fiscal year 2017. In fact, we 
actually exceeded that with regard to our combat crew ratio or 
crew-to-combat line ratio. We are actually at 11.3 to 1 in that 
regard.
    Now we are taking that effort that we have done there to 
see what we can learn, lessons learned, and apply that to RQ-40 
and RQ-170s going forward.
    Senator Cotton. Second, the fiscal year 2017 NDAA directed 
the Air Force to transition a significant number of RPA pilots 
to enlisted personnel by the end of fiscal year 2020. What is 
the status of that transition, and do you expect to complete it 
in compliance with the fiscal year 2017 NDAA?
    Major General Robinson. Yes, sir. If I may correct one 
comment I made. I said MQ-1/MQ-9. The MQ-1s are about done and 
retired. So now it is a focus on the MQ-9s.
    But to your more current question, again we are on track 
there. We expect that we will achieve 100 regular Air Force 
enlisted pilots by September 2020. Right now, we have 11 
enlisted pilots that are all flying operational missions that 
have completed training. We have 30 in this fiscal year's 
pipeline and 30 have been identified for fiscal year 2019's 
pipeline as well.
    Senator Cotton. Thank you.
    Senator King?
    Senator King. Since we do have to go and vote, I am going 
to run through some very quick thoughts and perhaps follow up 
with questions for the record.
    I am interested in the JSTARS replacement, the Compass Call 
situation. The fundamental question is if survivability is an 
issue for the JSTARS, which I understand is one of the reasons 
the Air Force is thinking of canceling that RFP [request for 
proposal], are those issues not going to be consistent for 
Compass Call as well or for whatever replacement, or is that 
part of the idea of designing the replacement?
    Lieutenant General Harris. Sir, there are similarities, but 
the mission is a bit different in the Compass Call where it is 
part of the kill chain that is in a different way than the 
JSTARS. Yes, some of the threat systems that can impact the 
JSTARS have some bearing on the Compass Call but because we are 
further ahead in that, where we are headed with the Compass 
Call recap and the transport of that over to basically a 
commercial platform is still in our best interest or from a 
JSTARS recap perspective, we feel it is better to get after 
this effort in a different domain with different capacity and 
capability by networking centers that are already in the 
airspace.
    Senator King. Is that technology mature? Are we ready to go 
with it, or is that going to generate a delay, the fact that we 
are going to new capabilities, new technologies?
    Lieutenant General Harris. The technology is maturing as we 
go.
    Senator King. That worries me. That statement makes me 
nervous. I want mature technologies before we go.
    Lieutenant General Harris. It is a three-increment process 
for our proposed plan in the fiscal year 2019 budget. We have a 
decision time, space in fiscal year 2023 that allows us, if we 
are behind with increments 2 and 3, that technology concern, it 
is a low risk from our perspective at this time. But in 2023, 
if we decide that we are still behind in late delivering 
increment 2 or increment 3, we can extend our current 707 fleet 
additional years after to continue to provide that capability.
    Senator King. Let us move quickly to light attack aircraft, 
the OAX. I understand we are talking about developing a new 
aircraft. The funds are in the budget for further 
experimentation. We thought maybe we would be in a selection 
stage, but you feel that more work is necessary before you go 
in this direction?
    Lieutenant General Bunch. Sir, we made the decision that we 
did not need to do the combat demonstration because of the 
valuable data and enough of the information we got on some of 
the areas during the first phase of the experiment.
    Senator King. Will this new plane have capabilities that 
the A-10 does not? I have been sitting through hearings now for 
5 years, and the Air Force seems to hate the A-10. Congress 
seems to like it. What are we gaining by discontinuing the A-
10?
    Lieutenant General Bunch. Sir, this is not relative to 
discontinuing the A-10. This is additive capability for the 
United States Air Force. What we are trying to do is do a cost 
shift. What we are trying to do is buy something that is lower 
cost and lower to operate and allow us to pull our higher-cost-
to-operate fourth and fifth generation platforms out of the 
permissive environment and do that in a more cost effective 
manner and still be able to get the mission done and allow our 
fourth and fifth generation aircraft to train for the high-end 
fight. It is not to replace the A-10. It is to provide a 
capability that we can put in a permissive environment and be 
able to execute the mission. It will allow us to----
    Senator King. A permissive environment is an environment 
without antiaircraft. Is that what you are saying?
    Lieutenant General Bunch. To a certain level, sir. We would 
have some threats on the ground, a ground shoot from troops, 
those kind of things, some lower end surface-to-air, not much, 
but it is a more permissive environment which we could do many 
of the missions we do in today's environment. We could execute 
with a platform like that.
    Senator King. Are you satisfied with the progress you have 
made on developing this new vehicle, if you will?
    Lieutenant General Bunch. Sir, I am satisfied with where we 
are at. We need to do the next phase of the experiment so that 
we can get additional information relative to logistics and 
sustainment, and we are trying to put a network in.
    Senator King. I want to submit a question for the record 
about maintenance costs of the F-35. Secretary Wilson testified 
that that was a real problem, and I would like some more detail 
on that, what is being done to address that question.
    Finally, General Robinson, Chairman Cotton and I had a 
fascinating meeting about 6 months ago with a group of your 
pilots. It was essentially a focus group. It was very 
interesting to us that it was not money that they were mostly 
interested in. It was they want to fly. They talked about 
establishing if you want to be a pilot, you can be a pilot. You 
do not have to go on a track to be a general officer or do 
other things. I hope that is something you are considering as 
you talk about this retention issue.
    Major General Robinson. Yes, Ranking Member King. Basically 
from our Air Crew Crisis Task Force in the next 4 to 6 months, 
we are going to explore the possibilities for what we are 
calling an aviation technical track, so a fly-only track for 
our airmen. Then we have a report out to the Secretary of the 
Air Force----
    Senator King. If you have not done it already, I would urge 
you to do what we did, get a bunch of pilots in a room with 
somebody that knows how to facilitate a conversation and 
without you guys sitting in the room and listen and get a 
report on what they say. I thought--I think the chairman would 
agree--it was very informative. I hope that is something you 
might----
    Major General Robinson. Yes, sir. We have done one of those 
about a year ago, and we continue to look at opportunities to 
do those again.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Cotton. It was informative, and I do think what 
Senator King says is a real option, similar to the Army's 
warrant program. I know people in the Army who resigned their 
commission after being a special forces team leader because 
they did not want to sit at a desk and plan for other special 
forces teams. They were given a chance to become a warrant 
officer and stay with the team. I do think it is an option. I 
know General Goldfein said that Lieutenant Goldfein probably 
would have taken that option, and that might not have been the 
best thing for the Air Force. Maybe General Robinson and 
Lieutenants Harris and Bunch would have taken those options as 
well, although your captains and majors informed us that they 
were the best pilots, much better than the colonels, for your 
information.
    [Laughter.]
    Senator Cotton. Gentlemen, thank you again for your 
testimony. It has been a very wide-ranging and informative 
hearing.
    There will be questions for the record, as Senator King 
said, some others said. We will try to be prompt with those so 
you can be prompt with your answers as well.
    This hearing is adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                       national defense strategy
    1. Senator McCain. Lieutenant General Bunch, Lieutenant General 
Harris, Major General Robinson, how does the President's budget request 
for Air Force aviation align with, and support, the National Defense 
Strategy and its emphasis on preparing for the high end fight? Please 
provide specific examples.
    Lieutenant General Bunch, Lieutenant General Harris, Major General 
Robinson did not respond in time for printing. When received, answer 
will be retained in committee files.
                      department of defense budget
    2. Senator McCain. Lieutenant General Bunch, Lieutenant General 
Harris, Major General Robinson, is the President's budget sufficient to 
meet the needs of the Air Force in terms of readiness and 
modernization?
    Lieutenant General Bunch, Lieutenant General Harris, Major General 
Robinson did not respond in time for printing. When received, answer 
will be retained in committee files.

    3. Senator McCain. Lt. Gen Bunch, Lt. Gen Harris, Major General 
Robinson, what are the primary budgetary challenges you are facing in 
the wake of the recently agreed to 2-year budget deal?
    Lieutenant General Bunch, Lieutenant General Harris, Major General 
Robinson did not respond in time for printing. When received, answer 
will be retained in committee files.

    4. Senator McCain. Lieutenant General Bunch, Lieutenant General 
Harris, Major General Robinson, the Defense budget request includes 
zero real growth in spending from fiscal years 2020 to 2023. Given the 
state of readiness and military capabilities today, how will Air Force 
aviation sufficiently rebuild to meet the requirements of the National 
Defense Strategy after fiscal year 2019, without additional funding?
    Lieutenant General Bunch, Lieutenant General Harris, Major General 
Robinson did not respond in time for printing. When received, answer 
will be retained in committee files.

    5. Senator McCain. Lieutenant General Bunch, Lieutenant General 
Harris, Major General Robinson, if the Department is responsible for 
funding internal savings to help pay for additional capability and 
capacity, please provide specific examples of what those savings will 
be in the aviation accounts.
    Lieutenant General Bunch, Lieutenant General Harris, Major General 
Robinson did not respond in time for printing. When received, answer 
will be retained in committee files.
                            industrial base
    6. Senator McCain. Lieutenant General Bunch, how would you describe 
the state of the industrial base that supports Air Force aviation 
programs?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    7. Senator McCain. Lieutenant General Bunch, what must this 
subcommittee be particularly mindful of related to the industrial base?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.
             multiyear procurement or block buy authorities
    8. Senator McCain. Lieutenant General Bunch, are there programs 
that would benefit from cost reduction initiatives, such as multiyear 
procurement or block buys, that do not currently have these 
authorities?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.
                         physiological episodes
    9. Senator McCain. Major General Robinson, please describe the Air 
Force's most recent efforts to mitigate physiological episodes.
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    10. Senator McCain. Major General Robinson, is a limited number of 
vendors hindering equipment modification efforts?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    11. Senator McCain. Major General Robinson, can industry produce 
enough specialized components?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    12. Senator McCain. Lieutenant General Bunch, how much funding does 
the budget request include for addressing physiological episodes in Air 
Force aircraft? Please describe specific examples of items or efforts 
that are funded in the budget.
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    13. Senator McCain. Major General Robinson, are T-6s back flying at 
their full envelope?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.
                    fighter force structure capacity
    14. Senator McCain. Major General Robinson, how many fighter 
aircraft does the Air Force currently have?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    15. Senator McCain. Major General Robinson, how many of those are 
combat coded?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    16. Senator McCain. Major General Robinson, the Fiscal Year 2016 
National Defense Authorization Act (NDAA) required the Air Force to 
maintain a minimum of 1,900 fighter aircraft, of which at least 1,100 
would be combat coded. In light of the National Defense Strategy, what 
is the number of fighters required?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    17. Senator McCain. Lieutenant General Harris, how is the Air Force 
assessing the optimal mix of fourth generation fighters, fifth 
generation, and next generation?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    18. Senator McCain. Lieutenant General Harris, how has the National 
Defense Strategy affected this assessment?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    19. Senator McCain. Lieutenant General Harris, has the Air Force 
budget request changed in response? How?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    20. Senator McCain. Major General Robinson, the fiscal year 2019 
budget retains 56 combat squadrons. Are those squadrons fully equipped 
and manned?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    21. Senator McCain. Major General Robinson, how is the Air Force 
balancing the desire to increase the number of squadrons versus fully 
equipping and manning the ones you currently have?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.
                      remotely piloted enterprise
    22. Senator McCain. Major General Robinson, can you provide the 
committee an update on the Air Force's remotely piloted aircraft (RPA) 
``Get Well'' plan?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    23. Senator McCain. Major General Robinson, the Fiscal Year 2017 
NDAA directed the Air Force to transition a significant number of RPA 
pilots to enlisted personnel by the end of fiscal year 2020. What is 
the status of that transition and do you expect to complete it in 
compliance with the NDAA?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.
             modernization and recapitalization requirement
    24. Senator McCain. Lieutenant General Harris, the Air Force is in 
the early stages of an extensive modernization and recapitalization 
effort with the F-35A, KC-46, B-21, T-X, VC-25B all requiring 
significant research and procurement dollars. Investment in the next 
generation air dominance capabilities have begun to ramp up 
significantly. Not to mention the recapitalization of the nuclear 
enterprise. How is the Air Force balancing all of these competing 
priorities?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    25. Senator McCain. Lieutenant General Harris, how has the National 
Defense Strategy changed Air Force modernization and recapitalization 
priorities?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    26. Senator McCain. Lieutenant General Harris, the Budget Control 
Act (BCA) remains the law of the land, so how is the Air Force 
approaching managing its modernization and recapitalization with the 
prospect of BCA funding levels beginning in fiscal year 2020?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.
                       f-35 joint strike fighter
    27. Senator McCain. Lieutenant General Bunch, the new lot aircraft 
are performing better, but the overall readiness rates of the F-35 
remain below expectations. While the program is facing a steep 
production ramp in the coming years, the sustainment enterprise is 
struggling to maintain and sustain the already fielded aircraft. Are 
you concerned about the affordability and effectiveness of the F-35 
sustainment enterprise?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    28. Senator McCain. Lieutenant General Bunch, what efforts is the 
Air Force making to reduce the cost to sustain the F-35?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    29. Senator McCain. Lieutenant General Bunch, are you concerned 
that should the costs of sustainment not be lowered, it may force a 
reduction in the total number of aircraft the Air Force buys?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

                  f-35 joint strike fighter operations
    30. Senator McCain. Major General Robinson, please provide an 
update on F-35A deployed operations in both the U.S. Pacific Command 
(PACOM) and U.S. European Command (EUCOM) areas of responsibilities 
(AOR). What are the key challenges the Air Force has identified to 
operating and sustaining the F-35 forward?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.
                      f-35 follow-on modernization
    31. Senator McCain. Lieutenant General Bunch, the follow-on 
modernization for the F-35 is scheduled to bring key warfighting 
capabilities to the Air Force, but the schedule and budget remain in 
flux. Are you concerned about the affordability and executability of 
the Department's plan for Block 4 Continuous Capability Development and 
Delivery (C2D2)?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    32. Senator McCain. Lieutenant General Harris, the Joint Program 
Office is in the initial stages of its Continuous Capability 
Development and Delivery of Block 4 modernization upgrades. At the same 
time, the Air Force is beginning significant investment in next 
generation air dominance capabilities. In a world of limited dollars, 
how is the Air Force looking to balance between the two programs?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

                        f-35 program management
    33. Senator McCain. Lieutenant General Bunch, does the Joint 
Program Office management structure properly align responsibility and 
accountability?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    34. Senator McCain. Lieutenant General Bunch, what are your views 
on alternative management structures for the F-35 program, such as 
establishing separate service or variant program offices rather than 
maintaining a joint program office?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.
                                  b-21
    35. Senator McCain. Lieutenant General Bunch, the Department's 
budget request included $2.3 billion for development of the B-21 
bomber. In fiscal year 2018, it was $2.0 billion. Could you describe 
what is planned to be done with the $2.3 billion request?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    36. Senator McCain. Lieutenant General Bunch, has the Air Force 
made any further reviews to determine if more information on the B-21 
program can be released to the taxpayers who are funding this multi-
billion program?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    37. Senator McCain. Lieutenant General Harris, on numerous 
occasions, Air Force leadership has stated the Air Force requires a 
minimum of 100 B-21 bombers. Has the National Defense Strategy altered 
the requirement for the B-21? Why or why not?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

                                 kc-46
    38. Senator McCain. Lieutenant General Bunch, the KC-46 has endured 
numerous delays and unforeseen technical challenges. The latest Air 
Force estimate is first delivery of airplanes will not be until late in 
this year. How has the contractor been held accountable for the 
repeated delays?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    39. Senator McCain. Lt. Gen Bunch, what changes to required 
criteria for first aircraft delivery has the Air Force made in the last 
2 years?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    40. Senator McCain. Lieutenant General Bunch, what are the next 
contracted dates that are in jeopardy?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    41. Senator McCain. Lieutenant General Bunch, does the Air Force 
intend on seeking consideration should those contract elements be 
breached?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    42. Senator McCain. Lieutenant General Harris, has the Air Force 
given consideration to pursuing an unmanned variant of the KC-46? Why 
or why not?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    43. Senator McCain. Lieutenant General Harris, what would be some 
of the advantages and/or disadvantages of having an unmanned big wing 
air refueling tanker?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.
                                 b-52h
    44. Senator McCain. Lieutenant General Harris, as part of its 
bomber roadmap the Air Force has committed to keeping the B-52 through 
2040, while phasing out the B-2 and B-1 as the B-21 comes online in the 
mid to late 2020s. Please explain the rationale for keeping the B-52 
while divesting the B-2 and B-1.
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    45. Senator McCain. Lieutenant General Harris, in light of the 
decision to keep the B-52 for the long term, does the Air Force have a 
long term modernization plan for the B-52 that takes a holistic view of 
the aircraft, given that the youngest B-52 is 56 years old today?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    46. Senator McCain. Lieutenant General Bunch, the B-52H is 
certified to employ the JASSM-ER [Joint Air-to-Surface Standoff 
Missile]. The Long Range Anti-Ship Missile (LRASM) is based upon, and 
shares significant commonality with, the JASSM-ER. Are there any 
technical reasons why the LRASM could not be integrated onto the B-52H?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    47. Senator McCain. Lieutenant General Bunch, are there any other 
long-range, anti-ship missiles in the Air Force inventory?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    48. Senator McCain. Lieutenant General Bunch, after years of 
discussion, the Air Force has committed to re-engining the B-52H and 
begun to put funding into its budget. Can you please explain the Air 
Force's acquisition plan for re-engining, including estimated schedule 
and budget?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.
    Airborne Battle Management
    49. Senator McCain. Lieutenant General Harris, the Air Force has 
opted to cancel its Joint Surveillance Target Attack Radar System 
(JSTARS) recapitalization plan, arguing that the proposed replacement 
is not survivable in the high-end fight. The Navy, on the other hand, 
is investing heavily in the E-2D Advanced Hawkeye and P-8 Poseidon, 
which both have similar vulnerability concerns as the proposed JSTARS 
recap program. Please explain the Air Force's approach to airborne 
battle management and how the Air Force and Navy intend to jointly 
execute airborne battle management in a high-end fight.
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.
               jstars / advanced battle management system
    50. Senator McCain. Lieutenant General Harris, the Air Force has 
opted to cancel the JSTARS Recapitalization program and pursue an 
Advanced Battle Management System (ABMS). At the same time the legacy 
JSTARS aircraft are due to be divested in the early to mid 2020s, 
starting with 3 aircraft in fiscal year 2019. While the Air Force is 
proposing an incremental approach to fielding ABMS, much of the 
proposed plan remains aspirational. This committee remains concerned 
that the Air Force is divesting existing capability before its 
replacement is mature, let alone fielded. How is the Air Force managing 
the risk inherent in its fielding of ABMS, particularly in the mid-
2020s to early 2030s, when there will no longer be legacy JSTARS to 
fill in should the Air Force's plan be delayed or deemed unfeasible?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    51. Senator McCain. Lieutenant General Harris, the Air Force has 
argued that the JSTARS Recap would not be survivable in a highly 
contested environment. A key component of the Air Force's ABMS 
alternative is space-based. However, Air Force leadership, including 
General Goldfein and Secretary Wilson, have repeatedly stated that 
space is now a contested domain. This committee is concerned that the 
Air Force is simply moving capability from one contested domain to 
another. Can you explain how moving capability from the air domain to 
the space domain increases survivability?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    52. Senator McCain. Lieutenant General Bunch, please provide an 
update on the current state of the JSTARS Recap competition. What 
happens while Congress deliberates on the Air Force request to cancel 
the program?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.
                low cost attritable aircraft technology
    53. Senator McCain. Lieutenant General Harris, The Air Force 
Research Laboratory is pursuing a program to introduce an unmanned 
aerial vehicle to support warfighters with a lower cost than 
traditional manned aircraft, while meeting capability requirements for 
support in contested environments. How is the Air Force thinking about 
the use of attritable unmanned air vehicles, and manned/unmanned 
teaming in general, in your concepts of operations?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    54. Senator McCain. Lieutenant General Bunch, what is the status 
and outlook for the Low Cost Attritable Aircraft Technology (LCAAT) 
program?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.
                            pilot retention
    55. Senator McCain. Major General Robinson, the Air Force has 
reported a shortage of approximately 2,000 pilots, including a shortage 
of 950 fighter pilots, essentially unchanged since last year. Please 
update the committee on current efforts to address this critical 
problem.
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    56. Senator McCain. Major General Robinson, what efforts has the 
Air Force implemented that are seeing positive impacts on retention?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    57. Senator McCain. Major General Robinson, what more is needed 
from Congress, in terms of authorities or otherwise?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

                        airborne data link plan
    58. Senator McCain. Lieutenant General Bunch and Lieutenant General 
Harris, Air Force leadership has talked about the importance of 
networks to their visions of the future of the Air Force. The committee 
is concerned that the Department of Defense's ideas for airborne data 
links have lacked vision and been disjointed. Please discuss your 
efforts in this area and how you are ensuring that the Air Force is 
interoperable, not only within its own elements, but with the Navy, 
Marine Corps, and Army as well.
    Lieutenant General Bunch, Lieutenant General Harris did not respond 
in time for printing. When received, answer will be retained in 
committee files.

                        presidential protection
    59. Senator McCain. Major General Robinson, is the F-22 considered 
a high end asset by the Air Force?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    60. Senator McCain. Major General Robinson, does flying 
Presidential protection missions increase readiness for the high-end 
fight?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    61. Senator McCain. Major General Robinson, in light of the 
National Defense Strategy's emphasis on focusing on training for a 
potential for a near-peer adversary, does it make sense for the limited 
number of F-22s to expend valuable flight hours and training time to 
the Presidential protection mission?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.

    62. Senator McCain. Brig. Gen. Robinson, what is the Air Force 
doing to ensure that our high-end assets are more focused on the high-
end fight?
    Major General Robinson did not respond in time for printing. When 
received, answer will be retained in committee files.
                              light attack
    63. Senator McCain. Lieutenant General Bunch, the Air Force appears 
to be on the cusp of procuring a fleet of light attack aircraft to 
conduct operations against violent extremist organizations in a more 
fiscally sustainable way and to free up fighter aircraft to focus on 
training for the high-end fight. The Secretary of the Air Force has 
highlighted the light attack program as a new way of doing 
experimentation and acquisition fast. Yet, zero dollars were requested 
in the fiscal year 2019 budget request. Action does not seem to be 
meeting rhetoric when it comes to the pace of acquisition. What is 
preventing the Air Force from procuring light attack aircraft and their 
associated long lead material in fiscal year 2019?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

                    air force air-launched munitions
    64. Senator McCain. Lieutenant General Harris and Lieutenant 
General Bunch, in your judgment, are your air-launched munitions 
inventories sufficient to support current operations and the Defense 
Strategic Guidance writ large?
    Lieutenant General Bunch, Lieutenant General Harris did not respond 
in time for printing. When received, answer will be retained in 
committee files.

    65. Senator McCain. Lieutenant General Harris and Lieutenant 
General Bunch, are there individual air-launched munitions whose 
inventories, either present or projected, are insufficient to meet 
requirements? If so, what are they and what is being done to address 
the shortfalls?
    Lieutenant General Bunch, Lieutenant General Harris did not respond 
in time for printing. When received, answer will be retained in 
committee files.
                      long range anti-ship missile
    66. Senator McCain. Lieutenant General Bunch, what is the long-term 
plan for acquisition of the Long Range Anti-Ship Missile?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    67. Senator McCain. Lieutenant General Harris, does the Air Force 
consider naval anti-surface warfare an important mission?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.

    68. Senator McCain. Lieutenant General Harris, does the current 
LRASM program of record provide sufficient capability and capacity to 
support the NDS priority of China and Russia?
    Lieutenant General Harris did not respond in time for printing. 
When received, answer will be retained in committee files.
                            advanced weapons
    69. Senator McCain. Lieutenant General Bunch and Lieutenant General 
Harris, what steps is the Air Force taking to ensure they have 
munitions that are relevant and effective against the increasingly 
difficult defenses our potential adversaries are developing and 
fielding? Please provide specific examples, including research and 
development efforts.
    Lieutenant General Bunch, Lieutenant General Harris did not respond 
in time for printing. When received, answer will be retained in 
committee files.

                        training infrastructure
    70. Senator McCain. Lieutenant General Bunch, Lieutenant General 
Harris, Major General Robinson, as the Department focuses increasingly 
on the high end fight, how important are adequate training ranges and 
supporting equipment to ensuring our aviation forces are adequately 
prepared?
    Lieutenant General Bunch, Lieutenant General Harris, Major General 
Robinson did not respond in time for printing. When received, answer 
will be retained in committee files.

    71. Senator McCain. Lieutenant General Bunch, Lieutenant General 
Harris, Major General Robinson, are there areas where our training 
infrastructure needs to be improved, in terms of airspace, equipment or 
other elements? Please provide specific examples.
    Lieutenant General Bunch, Lieutenant General Harris, Major General 
Robinson did not respond in time for printing. When received, answer 
will be retained in committee files.

    72. Senator McCain. Lieutenant General Bunch, Lieutenant General 
Harris, Major General Robinson, please describe efforts the Air Force 
is making to increase and improve the use of live, virtual and 
constructive (LVC) training, and how those efforts are interoperable, 
within and among all the services.
    Lieutenant General Bunch, Lieutenant General Harris, Major General 
Robinson did not respond in time for printing. When received, answer 
will be retained in committee files.

                               __________
                Questions Submitted by Senator Ted Cruz
                 next generation fighter communications
    73. Senator Cruz. Lieutenant General Bunch, there is a great deal 
of information in the public domain concerning the Fifth Generation 
Fighters (F-22, F-35) inability to communicate and pass targeting data 
between each other in a denied environment. The Committee understands 
the Air Force has a roadmap to develop and field an advanced tactical 
data link in the 2030 timeframe. However, the need for a common 
solution for interoperability between Fifth-to-Fifth and more 
importantly, Fourth-to-Fifth Generation fighters is a clear demand 
signal from the combatant commands now.
    In addition, the Air Force is pursuing constructs to achieve a 
multi domain command and control capability and has noted that ``agile 
communications'' is the foundational piece to achieve this goal. Over 
the past 5 years, several live-fly and joint demonstrations in 
operationally relevant environments have shown that technologies exist 
that are mature, effective, and programmatically feasible against 
current and future threats. Does the Air Force have the ability to pass 
threat and targeting data between Fifth Generation Fighters (F-22, F-
35) and Fourth Generation Fighters (F-15, F-16, F/A-18) in a contested 
environment without being detected?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.

    74. Senator Cruz. Lieutenant General Bunch, does the Air Force 
currently have a requirement for a secure Low Probability of Intercept 
(LPI)/Low Probability of Detection (LPD) data link with Anti-Jam 
capabilities?
    Lieutenant General Bunch did not respond in time for printing. When 
received, answer will be retained in committee files.
                               __________
                Questions Submitted by Senator Ben Sasse
                  light attack aircraft (oa-x program)
    75. Senator Sasse. Lieutenant General Bunch, Lieutenant General 
Harris, the Air Force appears to be on the cusp of procuring a fleet of 
light attack aircraft (OA-X program) to conduct operations against 
violent extremist organizations in a more fiscally sustainable way and 
to free up fighter aircraft to focus on training for the high-end 
fight. The 2018 National Defense Strategy calls for a more resource-
sustainable approach to low-intensity threats, and the OA-X program 
seems like a good fit for our National Defense Strategy. The Secretary 
of the Air Force has highlighted the Light Attack program as a new way 
of doing experimentation and acquisition fast. Surprisingly, the fiscal 
year 2019 budget request asks for zero dollars for the OA-X program. 
Action does not seem to be meeting rhetoric when it comes to the pace 
of acquisition. What is preventing the Air Force from procuring light 
attack aircraft and their associated long lead material in fiscal year 
2019?
    Lieutenant General Bunch, Lieutenant General Harris did not respond 
in time for printing. When received, answer will be retained in 
committee files.


                                 <all>
</pre></body></html>
